<html>
<title> - CHALLENGES FACING THE NEXT U.S. AMBASSADOR TO THE PEOPLE'S REPUBLIC OF CHINA</title>
<body><pre>[Senate Hearing 106-266]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 106-266
 
 CHALLENGES FACING THE NEXT U.S. AMBASSADOR TO THE PEOPLE'S REPUBLIC OF 
     CHINA--(INCLUDES NOMINATION HEARING OF ADM. JOSEPH W. PRUEHER)

=======================================================================

                                HEARINGS

                               BEFORE THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                               __________

                         OCTOBER 27 AND 28, 1999

                               __________

       Printed for the use of the Committee on Foreign Relations


                               <snowflake>


 Available via the World Wide Web: http://www.access.gpo.gov/congress/senate


                         U.S. GOVERNMENT PRINTING OFFICE
61-245CC                         WASHINGTON : 2000


                     COMMITTEE ON FOREIGN RELATIONS

                 JESSE HELMS, North Carolina, Chairman
RICHARD G. LUGAR, Indiana            JOSEPH R. BIDEN, Jr., Delaware
PAUL COVERDELL, Georgia              PAUL S. SARBANES, Maryland
CHUCK HAGEL, Nebraska                CHRISTOPHER J. DODD, Connecticut
GORDON H. SMITH, Oregon              JOHN F. KERRY, Massachusetts
ROD GRAMS, Minnesota                 RUSSELL D. FEINGOLD, Wisconsin
SAM BROWNBACK, Kansas                PAUL D. WELLSTONE, Minnesota
CRAIG THOMAS, Wyoming                BARBARA BOXER, California
JOHN ASHCROFT, Missouri              ROBERT G. TORRICELLI, New Jersey
BILL FRIST, Tennessee
                   Stephen E. Biegun, Staff Director
                 Edwin K. Hall, Minority Staff Director

                                  (ii)




                            C O N T E N T S

                              ----------                              

                      Wednesday, October 27, 1999
                  The Future of U.S.-Chinese Relations

                                                                   Page

Cox, Hon. Christopher, U.S. Representative from California.......     2
    Prepared statement of........................................     6
Human Rights Watch, prepared statement entitled, ``U.S.-China 
  Policy: Human Rights.''........................................    46
Lord, Hon. Winston, former Ambassador to the People's Republic of 
  China; and former Assistant Secretary of State for East Asian 
  and Pacific Affairs............................................    16
Munro, Ross H., Director of Asian Studies, Center for Security 
  Studies, Washington, DC........................................    40
Waldron, Dr. Arthur, Director of Asian Studies, American 
  Enterprise Institute...........................................    28
    Prepared statement of........................................    30
Wu, Harry, Executive Director, Laogai Research Foundation, 
  Milpitas, CA...................................................    33
    Prepared statement of........................................    36

                       Thursday, October 28, 1999
Nomination of Adm. Joseph W. Prueher, to be Ambassador to the People's 
                           Republic of China

Brock, Hon. Bill, former U.S. Senator from Tennessee.............    57
Frist, Hon. Bill, U.S. Senator from Tennessee....................    56
Helms, Hon. Jesse, prepared statement............................    53
Inouye, Hon. Daniel K., U.S. Senator from Hawaii.................    55
Prueher, Adm. Joseph W., of Tennessee, to be Ambassador to the 
  People's Republic of China.....................................    59
    Prepared statement of........................................    62
Stevens, Hon. Ted, U.S. Senator from Alaska......................    54

Additional questions and responses for the record:
    Responses of Admiral Prueher to pre-hearing questions 
      submitted by Senator Helms.................................    73
    Responses of Admiral Prueher to additional questions 
      submitted by Senator Ashcroft..............................    76
    Responses of Admiral Prueher to additional questions 
      submitted by Senator Feingold..............................    77
    Responses of Admiral Prueher to additional questions 
      submitted by Senator Helms.................................    77

                                 (iii)

  


                  THE FUTURE OF U.S.-CHINESE RELATIONS

                              ----------                              


                      WEDNESDAY, OCTOBER 27, 1999

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:42 a.m. in 
room SD-419, Dirksen Senate Office Building, Hon. Jesse Helms 
(chairman of the committee) presiding.
    Present: Senators Helms, Hagel, Thomas, Kerry and Feingold.
    The Chairman. Good morning. The committee will come to 
order.
    Senator Biden is in another committee meeting, but he 
suggested that we proceed without him. I try to have at least 
one member of both sides here when we have a committee meeting. 
I will say for the record and for the guests here that this is 
the time of year when all of the committees are meeting all of 
the time. Most committees have a scant number of Senators 
present.
    In any case, this morning we are going to consider the 
subject of the future of U.S.-China relations.
    Tomorrow we will hold a hearing on the administration's 
nominee for the post of U.S. Ambassador to China.
    It occurred to me that, prior to that, it might be useful 
to have an evaluation of the China policy of the United States 
and the policy of China itself.
    We have assembled today a distinguished list of witnesses 
who, I suspect, will provide a spirited discussion and 
stimulate some thinking. We all need to do all of the thinking 
we can constructively regarding this problem.
    My own views about China are, I think, fairly well known. I 
am not going to consume the committee's time with a lengthy 
statement. However, I will be posing a few questions here and 
there that may help frame the debate today.
    For example, I would like to know: No. 1, how is it that 
our relations with China have reached such a low ebb after 7 
years of painstaking efforts by the administration to cater to 
Red China's every whim and wish?
    No. 2, how is it that after 7 more years of Most Favored 
Nation, [MFN], after an unprecedented transfer of technology, 
after red carpet treatment for an unending series of Chinese 
officials, after unquestioned access to our capital markets and 
opting not to introduce U.N. human rights resolutions, after 
turning a blind eye to China's land grabs in the Spratley 
Islands and after openly siding with China versus Taiwan, the 
Clinton administration still has not been able to establish a 
better relationship with Beijing?
    Why, after all of this deference, have the Chinese frozen 
our vaunted military relationship, cutoff the dialog on 
proliferation and human rights, and ordered the U.S. military 
out of Hong Kong?
    Why wouldn't Jiang Zemin pick up the hot line when 
President Clinton called last May as the Chinese Government was 
ransacking our embassy and reducing our Ambassador to a 
prisoner?
    Yes, the Chinese Embassy was bombed--accidentally. I am 
going to hear that over and over again and have already. Some 
suggest that is the reason for China's actions. But is it not 
clear, especially when one examines the lack of progress on all 
of the other fronts prior to that unfortunate bombing, such as 
China's draconian crackdown on various things, its mercantile 
trade practices, a clearly offensive military buildup, further 
provocations in the Spratley Islands, along with a tirade of 
abusive threats and maneuvers against Taiwan, I say to the 
committee and to those interested, is it not obvious that 
something is amiss?
    These are some of the questions that come to mind.
    But now, let's hear from our witnesses, after, of course, 
we have yielded to the Senator from Delaware, if he should get 
here. But I suggest we proceed.
    Mr. Cox, I appreciate your being here this morning. You may 
proceed, sir.

     STATEMENT OF HON. CHRIS COX, U.S. REPRESENTATIVE FROM 
                           CALIFORNIA

    Mr. Cox. Thank you, Senator. I thank this committee. I 
appreciate the opportunity to appear before you to share my 
views on the appropriate American policy toward the People's 
Republic of China.
    Before doing that, I want also to take the opportunity to 
emphasize the debt of gratitude that is owed to the chairman 
and every member of this committee by all who labor for freedom 
in China, for your leadership and for your consistent defense 
of democratic principles.
    There are two well noted books on U.S.-PRC relations 
recently published by reporters respectively from the Los 
Angeles Times and the New York Times, which are in agreement 
that Presidents since Richard Nixon have sought to manage 
relations with the People's Republic of China through a small, 
secretive group of policy mandarins. Because you have worked 
tirelessly to make sure that U.S.-PRC relations are open and 
informed by our democratic process, this committee deserves our 
heartfelt thanks.
    The Communist government of the People's Republic of China 
is a 50 year anomaly in a 5,000 year rich tradition of China's 
civilization. At the end of the first millennium, 1,000 years 
ago, China was easily the world's most advanced civilization. 
But today, most of China's people live in Third World poverty. 
The per capital gross domestic product of China is less than 
that of Guatemala or Swaziland.
    Because the Chinese people and their culture are so strong, 
communism, as in East Germany, is not without its economic and 
military successes in China. But communism in China is 
inherently unstable.
    Periodic eruptions from Tiananmen Square to the tragically 
aborted formation of the China Democratic Party, to the recent 
arrests of Falun Gong members display this.
    If long-term stability is our aim, then assisting China's 
democratic movement must be a principal national security 
priority for the United States in Asia. A real transformation 
will occur only if economic and political freedoms develop 
simultaneously in China.
    The Communist government of China is fond of saying that 
Western values are at odds with Asian values and that they, the 
Communist Party, faithfully represent Asian values. 
Occasionally, they even go so far as to say that if one is an 
opponent of the Communist Party in China, then one is not a 
friend of China but is an enemy of China.
    This Asian values argument posits a radical and seemingly 
permanent opposition between democracy and pluralism and 
markets and individualism on the one hand and authoritarianism, 
conformity and traditionalism, corporate economics and the 
primacy of group rights in the community on the other hand.
    If this view were true, then Japan, Taiwan, South Korea, 
the Philippines, Thailand, and India all would be at odds with 
Asian values. At the same time, Western Europe, before 1789, 
and Central Europe throughout much of the 19th and 20th 
centuries, would be perfect examples of Asian values.
    Louis XIV and Phillip II of Spain were far easterners. 
President Lee Teng-hui, President Kim Dae Jong and thousands of 
Tiananmen Square demonstrators are closet Europeans.
    That is what is wrong with the view of the Communist Party. 
The founding fathers of Chinese civilization are not Karl Marx, 
Friedrich Engels or Vladimir Ilyich Lenin.
    There is another school of thought that is popular in 
America. I call it the Manchester School Revisited. This second 
school of thought is a much more persuasive one. It takes full 
account of the democratic and capitalist experience in much of 
Asia.
    The Chairman. Will the Congressman suspend for a moment.
    This is a hearing on China and we have some guests who are 
not interested in that. They want to demonstrate on another 
issue now.
    I hope the security people will escort them out into the 
corridor to let them wait there.
    [A public demonstration occurred.]
    The Chairman. I am always courteous to you where you work. 
Now you please be a lady and be courteous to us. You are not 
going to be heard.
    Would the bailiff please escort them out.
    [Pause]
    Mr. Cox. I thank you, Senator. It is much easier to get 
order in this hearing room than normally it is on the floor of 
the House of Representatives.
    The Chairman. I understand what you are saying.
    I am sorry for the interruption. I think you know that I 
had nothing to do with it.
    Mr. Cox. Indeed. Thank you.
    This Manchester School Revisited, as I was saying, takes 
full account of the democratic experience of much of Asia. It 
takes account of the affinities between free enterprise and 
democracy and peaceful international conduct. But it is, in its 
own way, an over-simplification.
    The advocates of this school of thought argue that, in the 
long run, economic development and, in particular, capitalism, 
tend to erode dictatorship and promote democracy and peace. 
While that is true--I certainly agree with that, that is the 
way that free enterprise tends--that is, in the long run, that 
is the key to understanding the flaw in this argument.
    A lot can happen in the long run. There are a lot of twists 
and turns on that road.
    Take, for example, the cases of Germany and Japan, which 
have free economies and political systems today. In 1900, 
Germany and Japan had freer economies than does China today. 
But getting from 1900 in Germany and Japan to 2000 in Germany 
and Japan has been a traumatic experience. The intervening 
history, the process of modernization, has had catastrophic 
consequence not only for the citizens of those countries but 
for their neighbors.
    There is nothing automatic, in other words, in a peaceful 
transition from statism to pluralism and free enterprise.
    Accordingly, we can acknowledge that the PRC today is a 
freer and wealthier place than the desperately poor and utterly 
tyrannical despotism of the recent past under Mao without 
concluding that it is, therefore, a smooth, steady, and 
inevitable path toward becoming a new Japan, Taiwan, or South 
Korea.
    On October 1, the People's Republic of China regaled the 
world with a throwback display, a Stalinist display, of sheer 
military might that laid bare the government's current 
priorities. Its new nuclear missiles, including the DF-31 
intercontinental ballistic missile, that was revealed for the 
first time in that 50th anniversary of communism parade, are 
the latest products of the Communist State-directed scientific/
technical complex.
    We need only to refer to the study on the PRC-Taiwan 
military balance requested by Senator Murkowski and issued by 
the Pentagon in February of this year to know that the PRC is 
working rapidly to build an offensive military capability that 
can be used to attempt reunification with Taiwan by force or by 
intimidation.
    We saw a preview of such PRC military intimidation tactics 
in 1995 and early 1996. If more confirmation were needed, the 
PRC's military intimidation of Taiwan again went into high gear 
this summer.
    Twelve weeks ago, in Beijing, an American Foreign Policy 
Council fact finding delegation led by former Secretary of 
Defense Don Rumsfeld visited a high tech exhibition 
commemorating the 50th anniversary of communism in China.
    The military section of this exhibit contained a diorama 
depicting the invasion of Taiwan. It took up the entire 15 foot 
section of a wall of the exhibit.
    Here is a description of an observer of that exhibit. This 
was just 2 weeks ago. ``Entering the military section of the 
exhibit, the diorama depicting the invasion of Taiwan takes up 
the entire 15 foot facing section of wall. Flanking the diorama 
on either side, arranged like columns, are floor to ceiling 
models of various missiles painted white with red horizontal 
bands. To the left are the grassy dunes of the island, with a 
long slope down to the sandy curve of beach that occupies the 
center of the diorama.
    ``In the Taiwan Strait to the right the water is blue and 
calm. Overhead are a few clouds and half a dozen helicopters, 
their rotors whirling at the beach landing craft which are off-
loading tanks while several tanks and armored personnel 
carriers already on shore are trundling up the beach and over 
the dunes to the left. Soldiers have arrived on other landing 
craft. They are wading through the water to the beach, holding 
their weapons overhead. More landing craft are coming into the 
beach from several carriers standing offshore to the right 
along with submarines. There are flashes of light and smoke 
from explosions far off behind the trees beyond the dunes.
    That is the way the Communist Party celebrated their 50th 
anniversary of one party dictatorship in China.
    The hoped for dividends of the Clinton-Gore engagement with 
the PRC have not materialized. From vehement opposition to 
American plans for a non-nuclear missile defense to a campaign 
to undermine our strategic alliances in Asia, to the State 
sponsored demonstrations of terror against our diplomatic 
territory in China, the PRC has been aggressively hostile to 
U.S. interests.
    This outward hostility mirrors the PRC rulers' attitudes 
toward the democratic aspirations of China's population. The 
regime correctly fears its own people.
    The Communist ruling clique late last year staged a 
national purge of State sanctioned democratic leaders. This 
past spring and summer witnessed the brutal destruction of the 
Falun Gong, which, as you know, is a large, but truly benign, 
religious organization.
    The most recent example of the Politburo's extreme paranoia 
occurred just 2 weeks ago, on the eve of the announcement of 
the Nobel Peace Prize, when the regime placed the mother of 
peace prize nominee Wang Dan under arrest.
    It is ironic that the Clinton-Gore administration, which 
could not bring itself even to comment whatsoever on the arrest 
of Wang Dan's mother, originally founded its China policy in 
1993 in a rhetorical commitment to human rights. That 
commitment, it is rather clear now, we have lost.
    America deserves a much better China policy that not only 
serves the short-run economic advantage of a handful of U.S. 
firms with connections to the PRC State government but also 
advances our democratic values and defends our vital security 
interests. It is not an impossible task to accomplish all of 
these things together.
    It requires, however, restoring human rights and U.S. 
national security to preeminence with our economic interests.
    This positive vision of a post-Communist, free, stable, 
prosperous, democratic and pacific China can become reality if 
America supports China's democratic transformation and supports 
democratic leaders, like Wei Jingsheng, Wang Dan, and Harry Wu, 
who is with us here today. Assisted by the example of free 
Chinese in Hong Kong and Taiwan and aided by forward thinking 
policies of the United States, I believe we will see the end of 
communism in China and a day, very soon, when her people will 
be truly free.
    I thank the committee and the chairman.
    [The prepared statement of Mr. Cox follows:]

           Prepared Statement of Congressman Christopher Cox

    Chairman Helms and Distinguished Members of this Committee:
    I appreciate the opportunity to appear before this Committee to 
share my views on the appropriate American policy toward the People's 
Republic of China.
    Before doing so, however, I should take the opportunity to 
emphasize the debt of gratitude owed to the Chairman and all members of 
this Committee by all who labor for freedom for the people of China--
for your leadership and your consistent defense of democratic 
principles. Mr. Chairman, two well noted books on the history of U.S.-
PRC relations, published this year by reporters from the Los Angeles 
Times and the New York Times, are in agreement that Presidents since 
Richard Nixon have sought to manage relations with the PRC through a 
small coterie of policy mandarins. For working tirelessly to make sure 
U.S.-PRC relations are open, and informed by our democratic process, 
this Committee deserves our heartfelt thanks.
    The Communist government of the People's Republic of China is a 50-
year aberration in the amazing and rich 5,000-year history of China's 
civilization.
    At the end of the first millennium, China was the world's most 
advanced culture.
    But today, most of China's people live in third world poverty. The 
per capita GDP of China is less than Guatemala or Swaziland.
    Because the Chinese people and their culture are so strong, 
Communism, as in East Germany, is not without its economic and military 
successes in China. However, Communism in China is inherently unstable, 
as periodic eruptions--from Tiananmen Square, to the tragically aborted 
formation of the China Democratic Party--show. If long-term stability 
is our aim, assisting China's democratic movement must be a principal 
national security priority for the U.S. in Asia. A real transformation 
will occur only if economic and political freedoms develop 
simultaneously in China.
    On October 1, the PRC regaled the world with a throwback Stalinist 
display of sheer military might that laid bare the government's 
priorities. Its new nuclear missiles, including the DF-31 ICBM that was 
revealed for the first time, are the latest products of the Communist 
state-directed scientific-technical complex. We need only refer to the 
study on the PRC-Taiwan military balance requested by Senator 
Murkowski, and issued by the Pentagon in February 1999, to know that 
the PRC is working rapidly to build an offensive military capability 
that can be used to attempt reunification with Taiwan by force or 
intimidation. We saw a preview of such PRC military intimidation 
tactics in 1995 and early 1996. If more confirmation were needed, the 
PRC's military intimidation of Taiwan again went into high gear this 
summer.
    The hoped-for dividends of the Clinton-Gore engagement with the PRC 
have not materialized. From vehement opposition to American plans for 
non-nuclear missile defense, to a campaign to undermine our strategic 
alliances in Asia, to the state-sponsored demonstrations of terror 
against our diplomatic territory in China, the PRC has been 
aggressively hostile to U.S. interests.
    This outward hostility mirrors the PRC rulers' attitudes toward the 
democratic aspirations of China's population. The regime correctly 
fears its own people. The Communist ruling clique, late last year, 
staged a national purge of state-sanctioned ``democratic'' leaders. 
This past spring and summer witnessed the brutal destruction of the 
Falun Gong, a large but truly benign religious organization. The most 
recent example of the Politburo's extreme paranoia occurred just two 
weeks ago, on the eve of the announcement of the Nobel Peace Prize, 
when the regime placed the mother of Peace Prize nominee Wang Dan under 
arrest.
    It is ironic that the Clinton-Gore administration, which could not 
bring itself to comment whatsoever on the arrest of Wang Dan's mother, 
originally founded its China policy in 1993 in a rhetorical commitment 
to human rights.
    That commitment, it is rather clear now, is lost.
    America deserves a much better China policy that not only serves 
the short-run economic advantage of a handful of U.S. firms with 
connections to the PRC state government, but also advances our 
democratic values and defends our vital security interests. It is not 
an impossible task to accomplish all those objectives together. It 
requires, however, restoring human rights and U.S. national security to 
preeminence with out economic interests.
    This positive vision of a post-Communist, free, stable, prosperous, 
democratic and pacific China can become reality if America supports 
China's democratic transformation, and supports democratic leaders like 
Wei Jingsheng, Wang Dan, and Harry Wu. Assisted by the example of free 
Chinese in Hong Kong and Taiwan, and aided by forward-thinking policies 
in the United States, I believe we will see the end of Communism in 
China--and a day very soon when her people will be truly free.

    The Chairman. That was an excellent statement, Chris. I am 
going to call you that.
    Ladies and gentlemen, our first panel is the distinguished 
Congressman from California, Christopher Cox.
    How long have you been in the Congress?
    Mr. Cox. It's 11 years.
    The Chairman. Eleven years. I believe you recently chaired 
the House Select Committee on the U.S. National Security 
Concerns with the People's Republic of China.
    Congressman Cox, suppose we do about 10 minutes each, no, 7 
minutes each because we are going to have other Senators coming 
in. I will take my 7 minutes first.
    Do you think, sir, that U.S. policy should promote the 
rapid democratization of China? Or should United States policy 
be concerned primarily with managing relations with the 
Communist regime?
    Mr. Cox. I think, Senator, you have put the fundamental 
question for U.S. policy.
    The Chairman. It is a rhetorical question, actually. It is 
a rhetorical question and it answers itself, almost. But I want 
you to comment on it, if you will.
    Mr. Cox. I believe it is, in part, a question that answers 
itself because, obviously, everyone in this room would prefer 
that China were democratic.
    But how to do that is a much more subtle and difficult 
question.
    We have had trouble, the United States has had trouble over 
the last several years being ourselves, being comfortable about 
American values which, indeed, are universal values of 
individual freedom. I mentioned the fact that the President, 
the Secretary of State and the leading officials of the U.S. 
Government were absolutely mute when the mother of a Nobel 
Peace Prize nominee was arrested on the eve of the announcement 
of that award because of the extreme paranoia of the Communist 
Chinese Government about freedom.
    The fact that the President of the United States took an 
extended visit to the People's Republic of China, the longest 
visit to a foreign country by any President in American 
history, and could not find time to meet with the founders of 
China's Democratic Party is an example of the discomfort that, 
apparently, the United States feels about being ourselves.
    We are not promoting democracy by ostensibly promoting 
business in this way.
    I think business and its expansion in China can be a 
liberalizing force. But we ought not to permit the perversion 
of our business interests into the subversion of democracy.
    The Chairman. How well is the administration's policy of 
engaging Communist China advancing U.S. interests and expanding 
human rights in China?
    Mr. Cox. Well, the State Department's own reports on the 
human rights situation in China make it abundantly clear that 
things are getting, if anything, better rather than worse. We 
have seen in recent years crackdowns unrivaled since the 
Tiananmen Square massacre. Insofar as support for U.S. aims or 
support even for neighborly relations with the United States, 
we have not even seen that produced as a dividend.
    You may not know, but for some years before I served in 
Congress I had worked with and co-founded a company that 
translated Pravda, the Soviet Union's Communist Party daily 
into English on a daily basis. That was circulated to 26 
countries around the world. There was a big market for it 
because, even though it was an open source, people did not 
speak Russian and they did not consult it as they ought to 
have.
    Once it was available, it provided a lot of insight into 
how the party thought.
    I think we overlook open source Communist Chinese 
publications. They have a State run media, and what they say in 
their State run media ought to be of some interest to us.
    Just recently, Communist State run media in China wrote 
this article. ``We urge hegemonism today to take a look at the 
mirror of history.'' ``Hegemonism today,'' of course, is the 
United States in their view. They said in this article, ``If we 
ask which country in the world wants to be the lords of the 
earth, like Nazi Germany did in the past, there is only one 
answer, namely, the United States, which upholds hegemonism.''
    The Communist State run media is replete with such things. 
This is the dividend from our engagement policy.
    The Chairman. I mentioned your select committee report. In 
it I noted that you identified more than 3,000 Red Chinese 
companies operating in the United States, many with links to 
the Chinese military, espionage services, or both.
    What do you think of proposals to set up an office of 
national security at the SEC to review and report on these 
companies? That is the first question.
    Is this approach correct or do we, perhaps, need to go even 
further than that?
    Mr. Cox. The proposals that I have seen, some even in 
legislative form, to set up essentially a national security 
office within the Securities and Exchange Commission, have 
merit. I think we need to be careful about execution.
    It is entirely possible to set up a regime in the United 
States securities regulatory scheme that is viewed as a 
deterrent to foreign investment in the United States. And, 
insofar as we urge the openness of trade and investment 
throughout the world, we welcome it here in our own countries 
and we do not want to set up barriers to investment.
    But we also need to take a look at the degree to which 
disclosure, which is what the SEC is supposed to be all about, 
by foreign borrowers and foreign users of our capital markets, 
does not measure up to disclosure by our own domestic 
companies. Without question, there is a big drop-off in the 
level of disclosure when you move from the free enterprise 
profit motivated corporate sector in America to even our own 
municipal borrowers.
    I come from a county that had the largest municipal 
bankruptcy in American history. One big reason behind that 
bankruptcy was that the level and quality of disclosure in an 
information statement for municipal borrowers is nothing as 
compared to the quality of disclosure for a corporate borrower.
    Then, when you go to foreign governments, you find that the 
disclosure is far less adequate. Then, when you go to 
governments that are as opaque, as nontransparent as the 
Communist Government of the People's Republic of China, where 
so much of enterprise is State run, where accounting is as much 
creativity as hard figures, I think people are essentially 
lending money to the State of China, to the Communist 
Government of China, on the brand name and on the expectation 
that they will somehow pay it back, but not because of any 
substance of the disclosure.
    So, to the extent that there are big, new offerings in U.S. 
capital markets from the PRC State government, I think we need 
to take a very hard look at the quality of that disclosure.
    All of these proposals, by the way, are aimed only at 
improving disclosure. That is what free and open capital 
markets are all about.
    The Chairman. I thank you, sir.
    I told the timekeeper to limit me to 5 minutes because we 
are going to have some other Senators here today.
    Senator Kerry.
    Senator Kerry. Mr. Chairman, thank you very much.
    Congressman, share with me this, if you will. We can all 
find some criticisms here and there, I think, in what is a very 
difficult relationship to manage. I think we have to 
acknowledge that. But I would like you to try to be more 
precise, perhaps, with me, with us, in exactly what you would 
do differently in terms of the engagement process.
    I know you would criticize human rights. Those are words. I 
know you want to take some steps on the spying. That is more 
internal here. Share with me where the points of confrontation 
would be that you believe would elicit a constructive response 
from the Chinese--and that is most important. What are the 
steps that we would take that would, in fact, elicit the 
response you want from the Chinese?
    Mr. Cox. First, I would observe that words matter. In fact, 
the chief tool that the United States and, indeed, the 
President, personally has in advancing human rights, democracy, 
pluralism, free enterprise, and pacific relations with the 
People's Republic of China is the international attention that 
he and that our government generally attract.
    Senator Kerry. Well, let's assume we both agree that we 
could be stronger on speaking out on certain things. We do 
agree. I think we should have gone to the U.N. and taken up a 
resolution on human rights.
    But that said, help me with the other parts of this. 
Construct the confrontational points in an engaged policy that 
will result in positive reaction that will change the way we 
want to change China, or the way you do.
    Mr. Cox. A great deal of this is the manner of execution. 
Whether it is a confrontation or whether it is simply America 
being America is the essence of it.
    If we only occasionally raise human rights because of 
domestic political concerns here in the United States--you 
know, somebody is complaining that we are selling out the 
Chinese people and so, after 8 months we do something to 
pacify, you know, a constituency here in the United States--
that kind of operation in fits and starts is itself 
destabilizing.
    The government in Beijing, and indeed governments around 
the world, should expect from the United States that every day 
that we wake up, just as surely as I get up and brush my teeth 
and shave every day, that we are going to talk about these 
ideals because they are important to us, that we are going to 
stress these things in our relationship. If there is a 
constancy, then I think we will find that we have much more 
stability in the relationship and people will understand that 
these things are not occasionally to be traded away.
    Senator Kerry. But if all we are doing is talking, I mean, 
we have had years of criticizing human rights. We have even 
gone quite a bit further than that. China does not exactly 
embrace our view. What is the next step?
    Do you support, for instance, the Rule of Law Program the 
administration wants to implement in China?
    Mr. Cox. It is certainly a worthy goal. I think that, to 
the extent that we participate in these exchanges with the 
National Peoples' Congress, the U.S. Congress, to the extent we 
exchange judges and lawyers here in our system with them, some 
good can come of that. But we ought not kid ourselves that the 
National Peoples' Congress is a legislature--it is not--or that 
the lawyers and judges with whom our lawyers and judges are 
meeting in the PRC are operating in any kind of an independent 
judiciary. They are not. They are tools not only of the State 
but of the Communist Party itself.
    So we need to be a little bit more muscular than that.
    Senator Kerry. When you say ``more muscular,'' would you 
not say China has changed quite profoundly in the last 15 
years?
    Mr. Cox. Yes.
    Senator Kerry. And say that that change tends to be toward 
a more engaged entity, an internationally involved and 
sensitive entity than it was prior to those 15 years?
    Mr. Cox. Indeed, the entire world, of which the PRC is a 
part, has changed and progressed. I think that the methods that 
the Communist Party uses to control its citizens are much more 
sophisticated and effective in this climate than anything that 
they did in the past.
    We all remember the heavy handed tactics of both the 
Government of the People's Republic of China and the Government 
of the Soviet Union back in the 1950's, the 1960's and so on. 
That sort of thing would be laughed at on television today.
    So today we see Jiang Zemin coming to Philadelphia and 
putting on a three cornered hat while talking about his 
admiration for our American ideals. It is great televisions, 
but, nonetheless, our State Department human rights experts 
tell us that essentially every single dissident in the People's 
Republic of China has been rounded up and jailed or is out of 
commission.
    Senator Kerry. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Senator Thomas.
    Senator Thomas. Thank you, Chris, for your testimony. It 
was very good. I am sure most people would agree with all that 
you've said.
    Thank you, too, for all the work that you have put in on 
this issue and on the security issue certainly.
    I guess the bottom line, of course, is that we all agree we 
would like to see changes. The question is how do you do it. 
There has been quite a little bit of publicity lately over the 
50 years and interviews with people in the PRC in terms of 
change. I guess you just commented on that. Don't you 
recognize, isn't there a substantial change in the economy and 
isn't there a, it seems like, transparency, where people can 
see how the rest of the world works so that that tends to bring 
about change more quickly than anything else?
    Mr. Cox. I agree with all of that. I think that's right.
    Senator Thomas. How do you assess the relationship, then, 
with Hong Kong? How has that gone in your view?
    Mr. Cox. Our hope, of course, is that Hong Kong, albeit the 
tail to the dog, is, ultimately, the influence on the rest of 
the PRC rather than the other way around.
    I think that we have been in some ways pleased that Hong 
Kong's freedoms have not been snuffed out and in other ways 
disappointed that Hong Kong's freedoms have, at the margin, 
been eroded.
    Senator Thomas. I guess it comes back to this. It seems 
like the alternative to working with China is to isolate China. 
Our experience with isolating in the case of North Korea has 
not worked well at all. You are not suggesting that, are you?
    Mr. Cox. No, and I don't, frankly, know too many people who 
are.
    Senator Thomas. What do you suggest, then?
    We had several hearings on policy in our subcommittee just 
this past month, and we asked people what would you do to bring 
about the change that we all desire differently than we are 
doing.
    Mr. Cox. I think that, right now, the United States gives 
the impression that it is business first and not only human 
rights but also security second. What we need to do is elevate 
those national priorities to the same preeminence that our 
business relationships presently enjoy.
    Because we have been so lacking in constancy on two of the 
three of our priorities, I think the PRC government has ably 
taken advantage and has used these things as negotiating 
levers.
    Senator Thomas. What do you see as the threat to security? 
Are you talking about the security of the United States?
    Mr. Cox. In particular, my concerns with the overt military 
expansion in the People's Republic of China are with the 
regional security in Asia. Rather obviously, there is an arms 
race underway in the region with Pakistan and India, Pakistan 
being the beneficiary of PRC weapons proliferation, technology 
proliferation, India feeling threatened by nuclear weapons and 
Tibet by planned nuclear weapons on submarines in the Indian 
Ocean, by the construction of PLA armed camp in Burma, and so 
on, described to me by the prime minister of India as a pincer 
movement by China on India.
    I think without question Japan feels threatened by North 
Korea's launching of a missile over its territory, and it is 
now pursuing theater missile defense.
    The destabilization of the region because of the actions of 
the PRC, not to mention, of course, the U.S. stake in defending 
the democracy on Taiwan, all of these things are the security 
aspects that I speak of.
    Senator Thomas. Do you know if our expression of policy on 
the Taiwan Relations Act is sufficient to allow us to do what 
we want to do?
    Mr. Cox. I do, indeed. My concern is that the Taiwan 
Relations Act is seemingly honored in the breach. It is for 
this reason that the Taiwan Security Enhancement Act has been 
introduced in both the Senate and the House. As you know, that 
passed with nearly a unanimous vote yesterday in the 
International Relations Committee in the House with Democrats 
and Republicans both supporting it.
    Senator Thomas. I guess my confusion is, my question was do 
you think the Taiwan Relations Act gives us enough authority to 
do what we have said we were going to do, and then you say we 
need another act. I don't understand that.
    Mr. Cox. What I said is that I think that the Taiwan 
Relations Act does give us not only the authority but the 
mandate to assist Taiwan with defensive weapons, for example, 
and that that act seems to be all too often increasingly, these 
days, honored in the breach. It is for this reason that there 
is the additional legislative activity on the subject.
    Senator Thomas. So it is the implementation, not the 
authority. Thank you.
    Mr. Cox. Yes.
    Senator Thomas. Thank you, Mr. Chairman.
    The Chairman. Senator Feingold.
    Senator Feingold. Thank you, Mr. Chairman.
    I want to thank you for holding this important hearing. I 
also want to thank Congressman Cox for being here, for his hard 
work on these issues, for his interesting remarks and for what 
I felt was an excellent answer to Senator Kerry's question.
    I think the notion that we should be more consistent almost 
on a daily basis in criticizing human rights abuses in China is 
a very concrete suggestion, and if more Members of Congress and 
the President were more consistent, I think we might find a 
different result with regard to the Chinese Government's 
response.
    Basically, I don't think it is contrived. I think we ought 
to try it and I want to praise you and the other Members of the 
House who have done everything you can to raise these issues as 
often as you can.
    The title of this hearing is ``The Future of U.S.-China 
Relations.'' But, of course, we cannot discuss the future 
without examining the past and the past is not a proud one.
    As I have said from this seat many times, this 
administration has consistently placed more emphasis on 
expanding trade relations with China than addressing the gross 
violations of labor rights and human rights that occur in China 
every day, even when the nature of that expanding economic 
relationship has led to a ballooning trade deficit with the 
PRC.
    The recent history of U.S.-China relations has been a study 
in the exercise of a double standard. That double standard 
suggests that human rights are important in some countries but 
less so in China, where the siren song of vast markets has 
deafened too many ears to the news of oppression and abuse that 
evades China's sensors and finds its way to the international 
community.
    Mr. Chairman, the application of this double standard has 
led to a predictable result. China continues to be one of the 
most oppressive States in the world. Just this week, China 
tried four dissidents, members of the Chinese Democratic Party, 
on charges of subversion. Officials would not even allow the 
accused to read their defense statements in court.
    Yet this administration continues to hold out incentives to 
China, eager to see the PRC join the World Trade Organization, 
despite China's heavy use of trade barriers. Unfortunately, the 
administration's eagerness to forge a close relationship with 
China opens the United States to charges of hypocrisy when it 
does not stand up for human rights elsewhere in the world.
    Mr. Chairman, it is my firm belief that we should stand up 
for those rights worldwide, including the rights of women, and 
I look forward to discussing those issues in this committee at 
the appropriate time.
    My own view is that the United States has gained little and 
paid dearly in our relations with China, and I would hope that 
the future of U.S.-China policy would include a very serious 
effort to bring human rights to the forefront of our bilateral 
relations.
    I know that many of my colleagues are here because of their 
concerns about security issues, and I agree that congressional 
oversight and vigilance with regard to those issues is, of 
course, of critical importance.
    But I do not want human rights to get lost in the shuffle 
or to be pushed out to the margins of this debate, as they so 
often are.
    So, Mr. Chairman, I look forward to hearing more about 
human rights in China from the excellent panels of witnesses 
here today and to discuss how the United States might bring 
human rights concerns back onto the priority list in our 
relations with China.
    In my remaining time I would like to ask the Congressman 
one question.
    I would like to ask you about the World Bank financing of a 
project to open traditionally Tibetan lands to impoverished 
ethnic Chinese farmers. I believe you have introduced 
legislation restricting U.S. support for the World Bank in 
response to this project. Could you just give us an update on 
the project and your understanding of the bank's plans.
    Mr. Cox. Well, the project is something that the United 
States opposes. The United States has registered its 
opposition. The fact that, nonetheless, the World Bank is going 
forward with it is indicative of a more general problem, and 
that is that, even though the United States is the largest 
national influence in the organization, the U.S., let alone any 
other country, does not really exercise oversight when it comes 
to the protection in this case of indigenous peoples or 
environmental concerns and standards that we maintain in our 
own country.
    So U.S. taxpayers end up subsidizing essentially the 
destruction of our own standards abroad.
    For this reason, I introduced legislation that would permit 
the United States, under our existing norms, after we vote 
against a project to reduce our proportionate share by that 
amount.
    Senator Feingold. Thank you, Mr. Chairman.
    The Chairman. Thank you very much.
    Senator Kerry. Mr. Chairman, before you let this witness 
go, I have a couple of questions yet to be answered, if we 
could, and I think this is a good opportunity to do so.
    The Chairman. Well, I don't want us to get into a debate 
with the witnesses.
    Senator Kerry. No, no debate. I just want to ask a 
question.
    The Chairman. OK, ask your question.
    Senator Kerry. I have no intentions of a debate.
    The Chairman. I want to get this hearing over with.
    Senator Kerry. Well, we have a hearing for the purpose, 
obviously, of trying to elicit information and I just want to 
do that.
    The Chairman. OK. All right.
    Senator Kerry. Thank you.
    Congressman, I agree with a lot of your approach and I 
agree with a lot of your comments. I am having difficulty 
understanding the full measure of the terms of engagement, 
however, that you are proposing.
    The chairman, for instance, has suggested that engagement 
is, per se, a dead letter. You, on the other hand, have a 
different view. You have been quoted as saying it is time to 
focus not on whether to engage but on what the terms of 
engagement are, how to engage. I agree with that completely.
    But you have suggested very specifically that we ought to 
relax controls on encryption technology and streamline exports 
of various other dual use technologies to China. This runs 
quite counter to some others here on this committee and 
elsewhere.
    I happen to agree with you. I think that we need to find 
ways to do that.
    Could you just elaborate for a moment on sort of your terms 
of engagement and, specifically, that component of it with 
respect to trade, particularly in light of what Senator 
Feingold just said about how we have gained little and 
forfeited much. Yet you are advocating greater economic 
involvement. How do you reconcile those?
    Mr. Cox. Well, first, with respect to export controls, a 
subject on which I have spent a lot of time in the last few 
years, my recommendations are with respect not only to the 
People's Republic of China but, essentially, the world.
    Senator Kerry. I agree with you.
    Mr. Cox. They run as follows.
    To the extent we are seeking to control technology for 
military and national security purposes, the touchstone of our 
policy must be foreign availability.
    If a product or service is available from someone else in 
the world besides the United States, then our refusal to 
provide it amounts to self-abnegation as national security 
policy. It provides no incremental value to the national 
security, probably destroys jobs here, and gets you nowhere.
    We might, for example, if we looked only at this in 
military terms say that we want to deny the PLA hammers, that 
we are just not going to sell any hammers to the PLA. We will 
not sell any hammers to the People's Republic of China because 
they might give them to the PLA.
    Now hammers are available widely. So we would simply deny 
ourselves hammer sales. We don't wish to do that.
    On the other hand, there is a great deal that we control 
and that we can control if we wish to pursue this 
multilaterally--another recommendation that I have strongly 
urged in our select committee, urged unanimously--and ought to 
control because it is in our national security interest. So we 
need to discern which is which.
    When it comes to encryption specifically, I have had 
problems with our existing United States policy because it does 
not start from the premise that foreign availability is the 
beginning of an answer to the question.
    So I think there is some great benefit in making sure that 
we make commercially available encryption useful to people in 
the PRC. Lin Hai, a web page designer in the People's Republic 
of China, is now in prison. He is in prison because he shared 
e-mail addresses with anti-Communist dissidents here in the 
United States.
    Actually, they are not dissidents. They are pro-freedom 
people here in the United States.
    I believe that, if he had had strong encryption 
commercially available, the MSS could not have read his e-mail 
and he would be a free man today.
    I think there are costs as well as benefits to controlling 
some of these technologies that are so-called dual use.
    Finally, when it comes to dual use technologies, we need to 
focus our control efforts on what really matters. My 
observation has been that there is as much bureaucracy aimed at 
the capillaries as at the jugular, sometimes more. We need to 
correct that. We need to find out where that jugular is by 
applying intelligence information that men and women loyal to 
the United States are risking their lives to produce and that 
oftentimes is bottled up someplace and not shared with people 
who are making the export control decisions.
    We have to share that information within the executive 
branch and have a system that controls what really matters.
    Senator Kerry. Thank you, Mr. Chairman.
    The Chairman. Thank you, sir.
    I thank you very much, Congressman. You may get some 
written questions from Senators who are not here this morning.
    Mr. Cox. I appreciate that and I will be pleased to 
respond.
    The Chairman. Your testimony was just fine.
    Our second panelist will be an old friend of ours. He's not 
really an old friend, he is a young friend, but he has been 
around for a little while. He is Hon. Winston Lord, former U.S. 
Ambassador to the People's Republic of China.
    We welcome you, sir. You may proceed with your statement.

   STATEMENT OF HON. WINSTON LORD, FORMER AMBASSADOR TO THE 
 PEOPLE'S REPUBLIC OF CHINA; AND FORMER ASSISTANT SECRETARY OF 
            STATE FOR EAST ASIAN AND PACIFIC AFFAIRS

    Ambassador Lord. Mr. Chairman, members of the committee, 
few international issues are as critical and none as complex as 
our relations with China. On our long, arduous journey with the 
world's most populous nation, Americans will need 
sophistication, steadiness, and stamina. Such qualities are 
scarce in the current national debate.
    I am distressed that the outer limits of views on China are 
dominant--the apocalyptic and the apologetic.
    We should understand that everything one hears about China 
is true--the good, the bad, and the ugly. American policy must 
steer between the shoals of hostility and indulgence.
    Therefore, I welcome this opportunity to appear before the 
committee and join the national discourse. I am pleased that 
Admiral Prueher will be here tomorrow. People on all sides of 
the China debate can agree that we need an ambassador in 
Beijing, and people who know Admiral Prueher, as I did when I 
worked closely with him at CINCPAC, concur that he is a superb 
nominee, combining intelligence, experience, and integrity. He 
will tell it like it is about China and he will forcefully 
advance America's interests.
    I urge his early confirmation and I urge a balanced 
approach in our policy.
    My name is ``Lord,'' and I will now proclaim ten 
commandments for dealing with China. I trust you will engrave 
these in stone.
    The first commandment: thou shalt not demonize China. It is 
not the Soviet Union. It does not claim or seek a global 
mandate for its system or its ideology. It does not support 
foreign Communist movements, or proclaim a Brezhnev Doctrine, 
or station troops overseas. It confronts enormous economic 
problems, including increasingly difficult reforms, the 
pressures of globalization, and awesome environmental damage.
    Its military strength is exaggerated, lagging further and 
further behind the United States in most categories. It is 
surrounded not by weak or vassal States but, rather, a string 
of substantial powers, many of whom it has recently fought--
Russia, Japan, India, Vietnam.
    Beijing faces severe domestic risks to its stability and 
unity, including huge economic disparities, systemic 
corruption, social unrest, a spiritual vacuum, and a longing 
for greater freedom. It has been moving toward a market economy 
and bettered the material lives of many citizens. It does allow 
greater freedom for travel, work, and grumbling in private.
    It is behaving more responsibly on nuclear nonproliferation 
and is helpful on several regional and global issues. It seeks 
positive relations with the United States in its own self-
interest.
    In short, in our national debate, we should reject the 
views of the apocalypse camp.
    The second commandment: thou shalt not sanitize China. As 
we head toward the 21st century, China represents our greatest 
international challenge. It is the world's fastest growing 
economic power. Its military strength is advancing in selective 
areas and could threaten our friends and our overseas forces. 
Its past aggressiveness includes, for example, Tibet in the 
1950's, India in the 1960's, and Vietnam in the 1970's.
    It now pressures Taiwan, trawls the South China Sea, and 
flexes its missiles.
    China opposes the United States on many key security 
problems, such as Iraq and Kosovo, and it is friendly with 
rogue States. It behaves suspiciously on missile proliferation. 
It is brutal in its repression of dissidents, political and 
religious freedom, ethnic minorities, and Tibet.
    Beijing increasingly resorts to nationalism to maintain 
political control, and its government media is highly abusive 
of the United States. It seeks to reduce American power in the 
Asia-Pacific region and envisages itself having a role in which 
China is once again the Middle Kingdom.
    In short, in our national debate on China, we should reject 
the views of the apologists.
    The third commandment: thou shalt not contain China. This 
is the prescription of the apocalypse camp. It is neither 
necessary, desirable, nor possible.
    To treat China as an enemy would be a self-fulfilling 
prophecy when the jury is out on its future course.
    We would forfeit cooperation in areas where our interests 
overlap and we would exacerbate tensions elsewhere. We would 
divert military, diplomatic, and financial resources from other 
tasks.
    Unlike the cold war coalition for containment against the 
Soviets, here we would be alone. While many countries are 
apprehensive about China, they do not wish confrontation. We 
could, in short, complicate China's emergence as a power, but 
we could not control it.
    If, instead, we attempt first to forge positive ties with 
China and fail, then we would have demonstrated to our friends 
and to our domestic public that containment was forced upon us.
    The fourth commandment: thou shalt not roll over for China. 
This is the prescription, however denied, or disguised, or 
unintentional, of the apologist camp. While we should not 
regard China as an enemy, neither should we assume it will be a 
friend. China, as it should and we should, will act in its own 
hardheaded self-interest. It will respect us and be more 
cooperative if we act firmly and without illusions. We should 
avoid excessive ``mea culpas.'' Often when there are frictions 
in our bilateral relations, it is China's fault and not ours.
    We should negotiate hard on issues and strictly enforce 
agreements, with sanctions if necessary. We should scrupulously 
control the export of sensitive technology. We should clearly 
oppose Chinese threats against Taiwan. While adhering to a one 
China policy, we should fulfill our security commitments, 
including the Taiwan Relations Act and arms sales.
    We should proceed with regional and national missile 
defense, keyed in part to China's own actions. We should 
continue to press Beijing publicly and privately on human 
rights and democracy, the issues of Tibet, the rule of law. We 
should strongly support the Voice of America and Radio Free 
Asia. In so doing, we reject the rationalization that Chinese 
history, or so-called Asian values, or stability justified 
repression.
    Congressman Cox was very eloquent on the phony Asian values 
rationalization.
    The fifth commandment: thou shalt erase the phrase 
``strategic partnership.''
    To be sure, the administration says that this is a goal, 
not reality. But inevitably the distinction is lost. It tags 
the United States as naive, complacent, overeager. It undercuts 
domestic and congressional support for clear-eyed engagement.
    So let us stop using the phrase in the same breath with 
China and save it for our allies.
    Our relationship with China blends cooperation, 
competition, and conflict. We should treat it with respect, 
reciprocity, and resolve.
    The sixth commandment: thou shalt recall that China covets 
America. I need not elaborate why China is crucial to American 
security, economic, and diplomatic concerns. But it is 
important, especially at times of tension, like now, that we 
remember that China needs us at least as much as we need China.
    There are the obvious economic incentives. We take a third 
of their exports and run a $60 billion deficit. Beijing sorely 
needs our investment and technology.
    Less obvious, but equally significant, is the geopolitical 
factor. The Soviet threat has disappeared and China is more 
ambivalent about our Asian presence. But for several decades, 
China will bank on the United States to provide balance in a 
neighborhood filled with historical rivals.
    Finally, of course, China must deal with us because we are 
the world's super power.
    The seventh commandment: thou shalt pursue a positive 
agenda. Too often the debate on China in this country dissolves 
to trade versus human rights, money versus morality, commerce 
versus conscience. The fact is that both should be pursued. 
Each builds on the other.
    Again, I agree with the need to be consistent on human 
rights, and when Wang Dan's mother gets locked up, something 
ought to be said.
    More fundamentally, there is an expansive agenda of other 
issues where we and China can cooperate or at least pursue 
parallel policies. These have been addressed but receive little 
attention.
    In the interest of time, let me just list some examples in 
staccato form. They include wrestling with challenges of 
regional security--Korea, South Asia, the Persian Gulf, Central 
Asia; tackling global problems--the environment, energy, crime, 
terrorism, drugs; and strengthening international 
institutions--the United Nations, WTO, APEC--regional security 
dialogs and arms control regimes.
    We should encourage China's active participation in global 
and regional organizations with a view to taming Chinese 
adventurist impulses through interdependence.
    The administration has been pursuing dialog and exchanges 
on some of these topics. We need to work at this agenda more 
systematically and publicize it so as to clarify the national 
debate and bolster the case for engagement.
    To this end, there should be routine summit meetings with 
China in good times and bad.
    The eighth commandment: thou shalt keep thy powder dry.
    As we address this extensive agenda, we must also shore up 
indispensable foundations. We should maintain our alliances and 
our forward military presence. We should be prepared to use our 
assets, if necessary, as we did near the Taiwan Strait in 1996. 
We should build positive relations with China's neighbors as 
ends in themselves but also to hedge against future Chinese 
behavior.
    The ninth commandment--and there are only two to go, Mr. 
Chairman: thou shalt encourage freedom. Promoting democracy and 
human rights cannot be our only goal in China, but it must be 
high on the agenda. It supports our other objectives.
    It is necessary for domestic and congressional support. It 
reflects the American tradition of melding pragmatism and 
principles. Moreover, it serves our national security as well. 
A China that is more open, humane, and lawful will be less 
aggressive and more cooperative on the world stage.
    This is not a matter of seeking arrogantly to impose our 
values on China. It is an appeal to China's self-interests. A 
freer China would burnish its international image and its 
relations with the United States. A freer China is essential 
for future economic development in the age of information.
    A freer China is needed for political stability. If Beijing 
continues to shut off the safety valves of peaceful assembly, 
expression, and dissent, it will sow the very chaos it fears.
    The tenth, and final, commandment: thou shalt proclaim 
these principles from the mountaintop.
    The commandments I have sketched envisage a nuanced, 
multilayered, strenuous, lengthy engagement with China. 
Domestic backing will require persistent mountaintop, 
Presidential attention, articulation and leadership.
    Mr. Chairman, I believe a policy that embodies these ten 
commandments will curb both hostility and indulgence toward 
Beijing. If we honor these principles with steadiness and 
stamina, we will promote both our interests and our values, and 
we will preserve the support of the American people.
    Thank you, Mr. Chairman.
    The Chairman. Ambassador Lord, I thank you very much.
    I think all of us have speculated or thought to ourselves 
what could I recommend we do. I think you have some pretty good 
commandments there, though I don't know whether they are in 
stone or not.
    Let me ask you a couple of questions relative to what you 
have said.
    When you were Ambassador to China in 1989, you thought that 
it was important to invite dissidents--and I agreed with you 
then and agree with you now--like Fang Lizhi to a dinner hosted 
by President Bush. Do you think that the Clinton administration 
has done an adequate job on insisting on meeting with Chinese 
dissidents?
    Ambassador Lord. I basically support the administration's 
policy of engagement.
    The Chairman. I didn't ask you that.
    Ambassador Lord. That is my lead-in to your question. I 
think these do need some fine tuning on the human rights front.
    I think, for example, as I said, when Wang Dan's mother was 
detained, we should have spoken out. I hope, if we do not get a 
meaningful dialog with China on human rights, and I don't 
expect that, we will go to Geneva this year. I think there is a 
need for somewhat more consistent speaking out on these issues.
    The Chairman. Yes or no.
    Ambassador Lord. Yes or no?
    The Chairman. Name me one thing that the Clinton 
administration has done about dissidents--one that they have 
recommended.
    Ambassador Lord. Again, I am not representing the 
administration. As you know, I am a former member of it. So I 
am speaking as an outside observer.
    There has been considerable effort to get people like Wang 
Dan and Wei Jingsheng out of jail. We worked hard to rescue 
Harry Wu, a very courageous man who is on your next panel, so 
that he was not in hot water in China. There has been a lot of 
activity behind the scenes. There is not always as forceful 
articulation publicly as perhaps should be done.
    The Chairman. Thank you. I want to get to another question.
    At your confirmation hearing back in 1993, you testified--
and I absolutely agreed with you then and I agree with you 
now--that Americans cannot forget Tiananmen Square. Do you 
still believe that? If so, how can we act upon that memory?
    Ambassador Lord. I believe strongly in that. I believe 
Tiananmen Square was a pivotal point in Chinese history, that 
it represents the future of China. I am optimistic about the 
future of China. I think they are going to have to go toward 
democracy. That does not mean we should not press them. We have 
to press them. They cannot develop their economy without it, 
and you cannot keep down the people's longing for freedom.
    So I think we should continue to raise that issue. I think 
we should continue to urge the Chinese to reverse their verdict 
on Tiananmen Square. That represented the future for China, and 
it is consistent with the Chinese people's aspirations.
    The Chairman. I am trying to use my time sparingly here 
today. Do you think it is realistic to continue what I regard 
as the fiction of a one China? Do you think it is ever going to 
happen under any circumstances?
    Ambassador Lord. What you have now, Mr. Chairman, is de 
facto two separate entities. When President Lee spoke out 
recently, he was describing what is objective reality.
    My concern, however, is that Taiwan has done very well with 
a de facto separation from the mainland. There should be no 
pressure on it. It should be able to determine its own future 
dealing with China.
    But to make this de jure without consulting with the 
administration I think did blindside the administration, did 
not serve Taiwan's interest. But it is important that we warn 
Beijing not to use force.
    There will not be one China completely until the mainland 
looks more like Taiwan, namely freer, and Taiwan has no 
interest in joining up with it until that happens.
    But in the meantime, a certain ambiguity has been pursued 
by several administrations, including President Reagan and 
President Bush, as well as Democrats, where you maintain a 
certain ambiguity so that you can move ahead with China but 
also assure Taiwan's security. Taiwan has done extremely well 
under this ambiguity in terms of its economy, in terms of a 
flourishing democracy, and in terms of its security.
    So I think you have to be very careful before we tamper 
with formulas, even though they make us somewhat uncomfortable 
when you look at reality.
    The Chairman. I have another question, but I may give that 
one to you in writing. Thank you. I don't want to violate my 
own timekeeping rule here.
    Senator Kerry.
    Senator Kerry. Thank you, Mr. Chairman.
    Mr. Ambassador, welcome. I am delighted to have you here. I 
think your outline, your opening statement is a very important 
and extraordinarily competent articulation of the difficulties 
of the relationship. I have been struggling with it, recently 
trying to reevaluate how do we do some of these things.
    There is no easy way, obviously, to do it.
    In your fourth commandment you say thou shalt not roll over 
for China. It is interesting. I agree and think everyone here 
would agree--maybe not--I think most people would agree we 
should not demonize China. On the other hand, you cannot 
sanitize it. That is a tough balance and that is the balance we 
are trying to fight for.
    I agree completely with the chairman, Senator Feingold, and 
others that we have to speak out loudly on human rights. But 
there is a clear point there when we have gone through those 
cycles and we clearly also have to deal with the realities of 
choices that are internal that we are not going to determine 
ourselves. We have always had that tension pushing back and 
forth.
    You say China will respect us and be more cooperative if we 
act firmly and without illusions. Can you give us some examples 
of where we might have acted or how we might act firmly and 
without illusions that would have a constructive outcome in 
your judgment?
    Ambassador Lord. There are several examples I can cite. 
When I was in office, we acted firmly in 1996 when China was 
pressuring and threatening Taiwan and we dispatched two carrier 
aircraft groups. This raised morale in Taiwan. It deterred 
China from forceful action and it reassured our friends and 
allies in the region that we were serious.
    Senator Kerry. That is a security issue. I am trying to get 
more specific.
    The great tension--the chairman, all of us are concerned 
about China's form of government. We are fighting to release 
that energy you talked about regarding the longing for freedom.
    You yourself have said that there is a greater chance of 
resolving the problem of Taiwan when China moves toward Taiwan. 
None of us is going to support the notion that Taiwan should 
move toward China's form of government.
    So the question is, really, when you talk to Chinese 
leaders, they tell you well, we are working on it, or it takes 
time, or it is more than a billion people and there are 
difficulties of management. You hear all of the internal 
reasons. You have heard them all.
    Clearly, you can only force government to move so fast to 
embrace someone else's form of government. So the question is 
how do we do that without losing the other points of engagement 
that are so critical to us--cooperation at the United Nations, 
cooperation in North Korea, cooperation in the South China Sea, 
cooperation on nonproliferation. All of these other issues are 
enormously important, too. It is the balance that we are trying 
to achieve.
    A lot of people seem to think there is some formula for 
that, and I am wondering if you are suggesting there may be or 
how we actually arrive at it.
    Ambassador Lord. There is no magic formula. It reflects the 
complexity of this relationship. There are several points I 
would make, some of which are in my statement.
    First, we should not use the words ``strategic 
partnership.'' That ought to be reserved for democratic allies 
like Japan, for example, and it looks naive. So that is 
misinterpreted.
    Second, we have to continue to make clear to the Chinese 
that we are going to try to work on this agenda that I laid out 
and you have laid out. We cannot fully have a full relationship 
as long as there is not a freer China. So there are certain 
restraints that are going to be there just by virtue of 
domestic support and our principles. That principle ought to be 
consistently put forward.
    You have to continue to speak out privately on individual 
cases as well as general problems in China. But you also have 
to do it more consistently than we have been, I think, in 
public in terms of what has been going on just since the 
President's trip. I agree that there are a crackdown and 
paranoia going on. It is very disturbing. It suggests to me 
that the regime in China is somewhat insecure. I think it is 
the most volatile situation since Tiananmen Square.
    Their over-reaction to the Falun Gong not to mention their 
cruelty to the dissidents and their families suggests they 
really are concerned whether a combination of corruption, 
unemployment, and a longing for freedom are causing 
instability.
    Senator Kerry. Should we be wielding a stronger economic 
stick?
    Ambassador Lord. We tried conditional MFN, modest 
conditions, early in the Clinton administration. We were 
undercut by the business community and by some of our economic 
agencies. We lost our leverage and it didn't work.
    So I don't think that tool is going to work, frankly. It is 
a blunt instrument. But we have to develop the rule of law. We 
have to speak out. We have to work individual cases. But we 
have to hold our nose a little bit and work on these other 
issues which are also in our national interest.
    I said in my statement that human rights cannot be the only 
item on our agenda, but it has to be high up there. And I don't 
have a better solution. You have to pursue the security and 
economic interests, but you have to forcefully pursue these 
principles.
    I think in talking to the Chinese you can, as I suggested, 
say look, you are not going to be able to develop an economy in 
the age of internet computers and fax machines if you don't 
have the free flow of information, if you lock up people who 
put out web sites, if you lock up people. You are not going to 
get investment without the rule of law. You are not going to 
attack corruption without a free press.
    So you can appeal to their self-interest. But it is not 
going to convert them overnight. It is less arrogant.
    You can also say if you are worried about so-called 
stability, you had better stop bottling up free expression. You 
are going to get violent expression as the only alternative. In 
a painful transition, people have to have the right to debate 
and discuss these issues.
    So this kind of dialog has to go on. But you have to pursue 
these other issues. Frankly, it is tough going.
    This regime is using every possible rationalization to hold 
on to power. Asian values is a phony argument. Stability they 
have misjudged. Their history we keep hearing about. But these 
are phony arguments to hold on to power.
    They are trying to hold on by raising living standards, 
repression, and an appeal to nationalism.
    We are going to have a difficult time with this group as 
long as they have that kind of government. But in our own 
national interest, with the vast economic and security stakes 
we also have, I do believe we should be engaging them, and it 
is a tough dilemma. But you have to move ahead on the entire 
agenda.
    Senator Kerry. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Senator Hagel.
    Senator Hagel. Mr. Chairman, thank you.
    Mr. Ambassador, welcome.
    Ambassador Lord. Thank you.
    Senator Hagel. First let me comment on your ten 
commandments. Like always, I appreciate that you have now put 
this in the spiritual framework. That might lead us to some 
celestial breakthrough here on a relationship with China.
    So thank you for taking a more creative approach.
    You are admired and respected throughout the world for your 
expertise in this area and your practical hands-on experience, 
as well, which I think has been demonstrated clearly in your 
observations in your testimony this morning. I say this not 
just because I happen to agree with everything you have said, 
but I think it is the common sense approach that we must take 
toward China.
    I was in China in August and had a 90 minute meeting with 
Premier Zhu Rongji and other officials. I then went south, all 
the way down to Singapore and spent some time in Vietnam, as 
well.
    I am aware of your analysis in current terms because I 
think you have framed it exactly right.
    One of the things that you said in your response to Senator 
Kerry, when talking about the insecurity of the Chinese 
Government, struck me. I think therein resides an awful lot of 
what we are dealing with here. We have to be somewhat careful 
in how we craft policy and deal with them in that area. You 
addressed that rather well in your points.
    You said something else in your tenth commandment: domestic 
backing--and I quote you if I am allowed to, sir--``domestic 
backing will require persistent mountaintop, Presidential 
attention, articulation, and leadership.''
    In my opinion, you are exactly right. The next President of 
the United States is going to be immensely consumed with this 
issue and other issues like this that relate directly to China.
    I had an interesting conversation with former General 
Andrew Goodpasture, who I think everybody knows, recognizes, 
and respects. General Goodpasture told me about a month ago 
that, in his opinion, the United States, as we move into this 
next millennium, is going to have to be focused, aside from all 
the other tangential areas, on three predominant areas--our 
relationship with Russia, our relationship with China, and 
nuclear weapons. They are all interconnected, as you point out.
    Now with that said, I would like to maybe veer this 
conversation off into a couple of specific areas that you did 
not directly touch upon here. One is the Panama Canal, about 
which we have heard much. The other is WTO.
    Obviously, you have stayed current with the Panama Canal 
issue. There are many people in this body who are most 
concerned about the Chinese engineering themselves, positioning 
themselves to control the canal at both ends through a 
corporate management company called the Hutchison Company.
    Would you care to enlighten this committee on what you know 
or about your thoughts on this issue?
    Ambassador Lord. I will not pretend to be an expert on this 
particular issue. I have followed it.
    My understanding is that several congressional staff 
committees have been going down, including one from this Senate 
Foreign Relations Committee, to look at this issue and have 
been somewhat reassured. Also, it is my understanding that some 
of our agreements with Panama, as we turned over the canal, 
should guarantee the free flow.
    Finally, you have China's self interest and whether it 
would really feel it is in its self interest to do something 
provocative.
    So those three elements give me some reassurance. But, 
certainly, Chinese involvement in the Panama Canal is something 
that, on the surface, raises questions and we ought to look at 
it very carefully.
    I do not pretend to know all the details. But I am 
reassured by these three factors so far.
    Senator Hagel. Thank you.
    What about WTO? Give us your sense of where you think the 
Chinese are today and where we should be on this issue. It is 
my opinion that the President misplayed his hand in April with 
the People's Republic of China. I think the President realized 
that error rather quickly after the error was made and tried to 
come back around and put it back together. I would be 
interested in your thoughts.
    Ambassador Lord. I agree the President missed a chance at 
the time and he, himself, has recognized that.
    First, let me say why I think it is in our interest that 
China get in, but only on acceptable terms, only if they open 
up their market in a good deal, one as good as or better than 
the one in April.
    There are four reasons why it is in our interest, and I 
will give you a sense of the status.
    No. 1, we have a huge trade deficit with China. I am not 
saying this will solve it, but we have to open up that market 
further both to trade and investment. China has to make the 
concessions. Our economy is essentially free in terms of 
imports. So they are making most of the concessions.
    No. 2, if they are in the WTO, we have multilateral 
enforcement of rules. It does not mean China may not try to 
avoid them just like Europe has, for example. But it is easier 
to pressure China to implement agreements if you have the whole 
world trading system behind you and not just the United States 
by itself.
    Third, I think it does reinforce reforms and opening in 
China. I am not going to play good guys versus bad guys in the 
leadership because that is dangerous and you get the good guys 
in trouble. But for those who want to open up that economy, the 
WTO openings, obligations, and rules will help it and help move 
China in a more open direction.
    Fourth, it could marginally help on the Taiwan front. 
Taiwan deserves to get in right now, in my opinion, and should 
not have to wait for China. Unfortunately, our allies are 
chicken on this and they will not allow Taiwan in first because 
of China's pressures.
    But if China gets in, Taiwan gets in, which is good. Then 
Taiwan and China under WTO rules have to deal with each other 
directly, more fully, and I think this could ease tensions 
somewhat. There will still be problems.
    So those are the reasons why we should want them in if we 
get a good deal.
    I think there is a big debate in China going on now about 
getting in. The fact that we did not take the deal in April has 
subjected Zhu Rongji to attacks from protectionist industries 
and those who want to hang on to a central economy. There is a 
counter attack on some of the concessions. People are worried 
about protecting their interests. Zhu Rongji felt somewhat 
humiliated that he did not get the deal.
    So I think there is a debate going on. Also, they are 
concerned whether, with the Presidential election year coming 
up, the Congress is going to pass normal trade relations 
permanently in the wake of the WTO accession.
    So I think there is a lot of self-interest for China to get 
in--prestige, access to other markets--and there are also 
concerns domestically in this debate. I think it is a 50/50 
proposition now whether there will be a deal in the next couple 
of months.
    But I think the timing is less important than the 
substance. Let's get a good deal, but I hope we can negotiate 
their way in.
    Senator Hagel. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Senator Feingold.
    Senator Feingold. Thank you, Mr. Chairman.
    Mr. Ambassador, I, too, found your ten commandments to be 
interesting and useful. I expect to refer to them on a number 
of occasions.
    Ambassador Lord. As long as you don't plagiarize and give 
me the credit.
    Senator Feingold. There are two aspects of your answers to 
the questions that I found even more appealing and I appreciate 
that. One was your willingness to say that there should be more 
consistency with regard to the raising of human rights issues. 
The second was your willingness to characterize the Asian 
values argument with regard to human rights, as I believe you 
said, as phony, as an excuse for some of the actions for the 
Chinese Government.
    I hope I am not incorrectly characterizing your comments.
    Ambassador Lord. Congressman Cox was very eloquent on this 
subject and I associate myself with his comments.
    Senator Feingold. I appreciate that. I just want to ask you 
a couple of fairly specific questions.
    Recent news reports have suggested that press freedom is 
being stifled in Hong Kong. Could you comment on the status of 
civil and political liberties in Hong Kong since the reversion 
to Chinese rule?
    Ambassador Lord. All right.
    One quick point. I have said that the administration should 
be more consistent, but I do want to make clear, though, that I 
think its basic policy is sound. I think it is trying to steer 
between hostility and indulgence and should be encouraged. It 
is some fine tuning that I would like to see done, as I have 
suggested.
    On Hong Kong, I am concerned about Hong Kong. There was an 
unrealistic view that maybe Hong Kong would collapse on July 2, 
1997. That was never going to happen. China has too much self 
interest. But, equally, there is too much optimism now that 
Hong Kong is doing fine, thank you, and that China is keeping 
its hands off.
    I think there is a gradual erosion of liberty in Hong Kong. 
We can see it in several areas. Because of the time pressures, 
I will not go into detail, but there are the court rulings on 
immigration, in which the National Peoples' Congress overruled 
the court in Hong Kong on immigration with the encouragement of 
the Hong Kong authorities. So the rule of law is under some 
question there.
    There are other cases I could cite about friends of Beijing 
not getting prosecuted in a newspaper when others are, and so 
on.
    Second, there is self-censorship in the press. So, even if 
there is not an absolute crackdown, many of the press is sort 
of bobbing and weaving. They don't want to alienate Beijing. 
Also, the independent minded civil servant who headed up RHTK 
has just been assigned overseas, and that is a disturbing 
element.
    Third, of course, is the fact that the democrats, who are 
the most popular there, are not well represented under the 
rules in the LEGCO, and that is having an effect. It means they 
can be less effective.
    Fourth, you have just examples of where the Pope cannot 
visit there, Dalai Lama cannot visit there, dissidents cannot 
visit there. This is supposed to be two systems. I don't know 
what happened to the other system. You cannot see one of the 
recent popular movies on Tibet there, and you cannot get Falun 
Gong manuals there.
    So China has been somewhat skillful in not being too heavy 
handed. It is maybe not as bad as some of the worst pessimists 
thought it might be. But I am concerned about the trends and we 
had better keep our eye on them.
    Senator Feingold. That was a great answer given the time 
constraints. I appreciate it.
    As you know, many Members of Congress are extremely 
concerned about Tibet. Also as you know, the U.S. Government 
pressed to verify the safety and security of the young boy 
recognized by the Dalai Lama as the reincarnation of the 
Panchen Lama. How have the Chinese responded to that?
    Ambassador Lord. How did they what?
    Senator Feingold. How have they responded?
    Ambassador Lord. Brutally. They continue their crackdown in 
Tibet.
    The Chinese said for many years that if the Dalai Lama 
would only put aside independence, they would talk to him. So 
the Dalai Lama puts aside independence, gets criticized by some 
of the more radical followers for being too soft, and what 
happens? The Chinese move the goal posts.
    The Chinese calculation is that Tibet is remote and won't 
get much attention, even in an age of global information; that 
the Dalai Lama, a Nobel Prize winner of great stature, is 
keeping this issue alive internationally and once he passes 
from the scene, particularly when they have staked out their 
own Panchen Lama, the future Dalai Lama, this issue will go 
away.
    I think they are making a major miscalculation. The Dalai 
Lama is a man of great nonviolence. He has stuck his neck out 
to try to have a peaceful resolution of this problem. He has 
not been antagonistic to Beijing. He has made secret as well as 
public gestures toward the Chinese, and they have rejected him 
because they are worried about--I don't know what they are 
worried about. They are worried about his popularity, I guess.
    He has said he will settle for autonomy, which ought to be 
in the Chinese interest, to preserve the religious and cultural 
freedom there.
    I am concerned that, without the Dalai Lama, the Chinese 
are going to face a bigger problem which they ought to 
recognize, namely a violent reaction. So I would hope the 
Chinese would change in this. I know the administration and the 
President have worked quite hard on this privately, and we have 
a special envoy with the encouragement of the Senate. We are 
going to have to continue to work for a dialog between Beijing 
and the Dalai Lama.
    Senator Feingold. Is it my understanding that the Chinese 
Government has not responded at all with regard to the Panchen 
Lama, to the question of the whereabouts of the Panchen Lama?
    Ambassador Lord. I'm not sure we even know where he is.
    Senator Feingold. So they have not responded?
    Ambassador Lord. This is, I guess, the world's youngest 
political prisoner, although he is getting older. It is an 
outrage.
    Senator Feingold. Thank you, Mr. Ambassador.
    Thank you, Mr. Chairman.
    The Chairman. Mr. Ambassador, thank you so much for coming 
this morning. I imagine you are going to have a number of 
questions put to you in writing from Senators who were not able 
to be here. It is a pleasure to see you again. Please give our 
regards, those of all of us, to your dear wife.
    Ambassador Lord. Thank you, Mr. Chairman.
    The Chairman. Thank you, sir.
    Now for our third panel I welcome a personal friend of mine 
and a personal friend of many of us, one of the most courageous 
men I have ever known--Harry Wu. He is the executive director 
of the Laogai Research Foundation and is joined on our panel by 
Dr. Arthur Waldron, director of Asian Studies at the American 
Enterprise Institute, and Ross H. Munro, director of Asian 
Studies at the Center for Security Studies.
    Gentlemen, I welcome you and I thank you for being here.
    Dr. Waldron, suppose you proceed, bearing in mind that we 
would like to make a part of the record, our printed record, 
your remarks in their entirety. If you would confine yourself 
as best you can, I would appreciate it.

  STATEMENT OF DR. ARTHUR WALDRON, DIRECTOR OF ASIAN STUDIES, 
                 AMERICAN ENTERPRISE INSTITUTE

    Dr. Waldron. Thank you, Chairman Helms and members of the 
committee.
    Ambassador Lord just characterized our, the 
administration's, China policy as being basically sound. What I 
would like very briefly to suggest is that it is unsound.
    The reason that it is unsound----
    The Chairman. Would you pull your microphone a little 
closer, please.
    Dr. Waldron. The reason that it is unsound has not so much 
to do with China, but, rather, with Asia policy in general. 
What this administration has done, really more than any for 
some time, has been to make China the cornerstone of the entire 
Asian policy. I would argue that this is the most fundamental 
problem.
    If you are going to make something a cornerstone, you have 
to ask what sort of place it is. Again, I think Ambassador 
Lord's comments here were very good. He was talking about the 
situation in China today as being genuinely the most volatile 
he has seen since before Tiananmen. I think this is an issue we 
should all grasp.
    Earlier, the question arose isn't there a lot of change 
going on in China, say in the last 15 years. Certainly there 
has been. But we have to recognize that, whereas, say, 15 years 
ago change was moving in a forward direction, right now things 
are beginning to go backward. I would just like to give two 
examples.
    The current leader of China is Jiang Zemin. He is regularly 
described as a reformer. Actually, the term ``reformer'' would 
be better applied to his predecessor, Zhao Ziyang, who was the 
Prime Minister in 1989, at the time of the Tiananmen massacre. 
Zhao has just turned 80 years old. He is in prison--not in 
prison--he is under strict house arrest in Beijing. Only his 
daughter is allowed to visit him.
    It is said that during the National Day festivities, he was 
actually taken out of the city lest he publish a letter, as he 
sometimes does, in favor of democracy. His predecessor is Hu 
Yaobang, now deceased.
    But a few months ago, several people wanted to go visit Hu 
Yaobang's grave and they were told by the police that they 
would be arrested if they tried to do this.
    The point I would like to make is very simple: not all 
Chinese leaders are the same. There have been twists and turns 
in the directions of China in the last 15 or 20 years. And, 
although you could say, quite fairly, I think, that Hu Yaobang 
and Zhao Ziyang were reformers, it is wrong to say that the 
current administration are reformers. They are, as I think 
Ambassador Lord quite correctly put it, concerned with holding 
on to their power and they are standing in the way of reform.
    Now from the point of view of the United States, this 
means, I think, unless we believe they can sustain an outmoded, 
archaic, inefficient, unrepresentative Leninist system in a 
large country which is bubbling with dynamism--its people are 
better educated than ever before, they are starting to have 
money, they are starting to be able to think and act--it would 
be contrary to all historical experience to imagine that that 
sort of dictatorship can continue to run that dynamic a 
country. That means that change is coming, whether they like it 
or not.
    The fundamental defect, I think, with the administration's 
China policy is that it is not thinking about this change.
    Instead of spending all our time trying to persuade the 
people in Beijing that really it would be nice if they should 
reform, and so forth and so on, we should be thinking about 
what we are going to do if and when there is trouble and we 
should hedge against it.
    That would mean that we should shift the focus of our Asian 
policy away from China to look at the other countries of Asia, 
particularly the important democratic, free market countries--
Japan, Taiwan, South Korea, and there are many, many others. I 
think that once China is put into that sort of context, then it 
will be possible for us to have greater influence on them.
    Now Senator Kerry raised the question of what do we do 
differently. It is a very tough question. I think the answer, 
speaking out more forthrightly on human rights, is a very, very 
important part of that.
    But if I were asked that question, I would say shift the 
focus. Don't keep going to Beijing. Start looking at the other 
Asian countries and start laying a stress on strengthening 
relations with the countries with which we share values and 
share systems, the countries that will be with us in the crunch 
if and when there is trouble. Also recognize that the situation 
today in China is, in fact, unstable. There are economic 
crises, potentially. There are problems with unemployment. 
There are problems with dissent. There are problems with 
extensive corruption, gangsterism. You name it--there are all 
sorts of things.
    Sooner or later I think this is going to lead to trouble. 
We have to stop telling ourselves nice stories and we have to 
start thinking about how we are going to respond to that 
situation if and when there is trouble.
    Now what is the role of human rights in all of this? There 
is a tendency, I think, to see human rights as being a kind of 
frosting on the cake. Democracy would be nice, but it is not 
practicable; so and so is a heroic man, but, you know, he gets 
a little bit carried away; the Dalai Lama is OK, but you don't 
want to say too much; you know, Wang Dan's mother might get us 
in trouble.
    What we fail to recognize there is that the system type in 
China is really the key to many of the problems we have with 
China. It is not that China is China. It is not that it has a 
Confucian heritage. It is that it is one of the last of the old 
fashioned Communist States.
    These States tend to try to legitimize their authority at 
home by directing hostility abroad. They have policies which 
contribute to roiling the waters and creating trouble with 
their neighbors.
    If you wanted to name a single change that would transform 
the security situation in Asia, it would be for China to become 
democratic. That is the core. The regime type in China is the 
core of American security interests, as well as of other 
American interests.
    I think that if our administration would begin with that, 
recognize that realism requires close attention to the 
direction of political changes in China and then start thinking 
about how to do that, we would make a lot of progress.
    Let me just say one more thing and then I will be quiet.
    The other night Jiang Zemin was visiting France. President 
Chirac took him out to his country place outside of Paris and 
they had a nice dinner. Then they talked for several hours 
about democracy, about Tibet, about human rights, and so forth.
    Afterward, Jiang Zemin's spokesman said this was by far the 
most thorough discussion of these issues that President Jiang 
Zemin has ever had with a foreign leader.
    The question I would like to ask is if this is the case, 
what have we Americans been doing for the last 7 years. Surely, 
this is an indication that all of the talk we hear about how 
thoroughly we are engaging and discussing is only talk.
    Thank you.
    [The prepared statement of Dr. Waldron follows:]

                Prepared Statement of Dr. Arthur Waldron

    What kind of a state is Jiang Zemin's China? How strong? How 
stable? How confident? Let me begin to answer that question with 
another question: What would we think if downtown Washington were 
closed to the public so that official July Fourth celebrations could be 
carried out undisturbed, by officials and their invited foreign guests?
    That in effect is what was done in Beijing this past National Day, 
on October 1, when the heart of the city was sealed off so that 
officials and foreigners could review a tightly-scripted military 
parade, while ordinary Chinese were told to stay off the streets (and 
away from their windows, if they were on the parade route), and watched 
the ceremonies on television.
    It would be hard to imagine a clearer signal of the current Chinese 
regime's lack of self confidence as it contemplates the problems it 
faces and its own lack of ideas, capabilities, or legitimacy to deal 
with them, but if that example does not suffice, let me give some 
others:
    Jiang Zemin came to power in 1989 as the pro-democracy movement was 
being crushed. His predecessor was Zhao Ziyang, widely respected as a 
genuine liberalizer as well as a champion of China's national 
interests. Where is Zhao now? Well, he has just turned eighty and is 
reportedly in good health--but under close house arrest, as he has been 
for the past ten years, with only his daughter permitted to visit him--
and reportedly escorted out of Beijing during the National Day 
festivities, lest he release an open letter supporting democracy, as he 
has done in the past.
    And how about Thao's predecessor? Hu Yaobang rests in a cemetery in 
Zhejiang province. The government discourages visits to his grave. 
Indeed, when some people from another province planned a trip there a 
few months ago they were told that they would certainly be arrested and 
forced to drop the plan.
    The inference should be obvious. A ruler who keeps his predecessor 
imprisoned and incommunicado, and who won't even honor the memory of 
his next predecessor, is clearly worried about something and that fact 
should be the starting point of our China and Asian policy.
    In Asia, the basic fragility of the current political structure in 
China is well known. I only wish it were better appreciated in 
Washington. For our own plans and calculations, and those of our 
democratic allies in Asia, depend a lot on what we think the future 
holds for China. If China looks likely to encounter political 
turbulence in the years ahead--and I think that is the best estimate--
then we should be thinking about how to prevent problems there from 
spreading. That means ensuring above all that our ties with Japan and 
other key democratic allies--the countries whom we count on in the 
crunch--are strong enough to weather any possible disorder.
    This is not and has not been the White House policy. Instead, the 
administration continues to talk up the China connection and has now 
staked more on it than has any previous administration, making a steady 
stream of concessions, while lecturing Japan about how to reform, 
providing the financial and food aid that allows North Korea to 
continue its nuclear and missile programs, deflecting concern about 
China from the Philippines and others, waffling on missile defense, and 
turning a blind eye to threats against Taiwan--hoping against hope that 
its wish for a China that is secure, prosperous, and strong will 
eventually emerge.
    How realistic is that hope? The omens in China are not good. Over 
the past several months, we have seen a steady campaign aimed at 
reimposing on the Chinese people something like the dictatorship which 
they have partially dismantled over the past two decades. The Chinese 
Democratic Party, a peaceful and law-abiding organization having an 
impressive network throughout the country, has seen something like 200 
of its leaders imprisoned. The Falungong, a traditional Chinese martial 
arts and fitness society, has been ruthlessly pursued despite its 
apolitical character. Discussions of liberalism and democracy in 
academic and intellectual circles have been discouraged. The 
dismemberment of Tibetan culture continues apace.
    One premise of American policy is that the Beijing leaders are 
somehow ``reformers.'' That was true under Zhao and Hu. But it is no 
longer the case today. Jiang Zemin's government is focused on its own 
survival. It maneuvers with some skill in the short run to keep 
domestic and foreign troubles from overwhelming it. But it has no 
vision for even the medium term and shows no inclination to face the 
real problems or make the difficult choices. It is time for the United 
States to stop pretending that this is a reform-minded government. It 
is not. This is a government that stands in the way of reform.
    Nowhere is this clearer than in the economic realm. China's 
economic development is often contrasted favorably to the troubles 
Russia has had since the end of communism. There may even be something 
to be learned from the contrast. But consider this: Russia has a 
convertible currency--China does not; Russia has a free press--China 
does not; Russia holds elections for every level of government--China 
does not. Or to sum it up: Russia has done a lot of hard things; China 
has not. The judgment can only be made when China faces up to those big 
difficulties--but there is no sign of her doing so anytime soon.
    China's economy has enjoyed a very good run for twenty years, but 
is now facing some trouble. Economic growth has been slowing, despite 
massive public works and other government investment, and foreign 
investment has been falling. The scale of the problem is now only 
starting to become clear.
    During the years of easy money and rapid growth, investments in 
China were evaluated even less strictly than elsewhere in Asia, with 
cronyism, bribery, and political influence steering vast flows into 
ill-considered real estate ventures and other losing projects. At the 
same time, the antiquated state-owned heavy industrial enterprises that 
still employ much of the urban work force were not shut down (as in 
Russia and Eastern Europe) but kept on life support with forced loans, 
which in turn have rendered China's banking system insolvent. All this 
would have been extremely difficult to fix even if reform had been 
undertaken in earnest a decade ago. But the pervasive corruption of 
China's political system prevented reform, guaranteeing that when the 
attempt to change is made, it will bring at least as much distrust and 
anger as it does progress.
    Added to this are political problems. The aspirations expressed at 
Tiananmen in 1989 were not some sort of aberration. They were the true 
voice of the Chinese people, recognizable to anyone who knows the 
history of this century--a hundred years in which the cry for 
``democracy!'' which even the communists joined, has always had the 
greatest resonance. Those aspirations have not somehow dissolved in the 
decade now passed. Rather, they continue to develop and strengthen--as 
one would expect in a country where educational and living standards 
are rising, and where the complexity of society and technology has far 
outstripped the capacity of a crude Leninist system to manage. But the 
government is doing nothing to face the inevitable change in a 
democratic direction.
    Nor, I would add, are the United States or the Western powers 
taking seriously their responsibility to speak candidly to the Chinese 
leaders about what must be done, not only to preserve current bilateral 
links, but in a certain sense to preserve China itself against chaos. 
Just last week Jiang Zemin spent a few hours at the private estate of 
Jacques Chirac in France, and the two men talked for several hours, 
about democracy among other things. Jiang's aides proclaimed this the 
most thorough discussion Jiang has ever had on the topic. I would ask: 
what about all the much-vaunted U.S. discussions, in private? Does an 
evening at Mr. Chirac's add up to more than all the deep engagement of 
this administration?
    Nearly a century ago, in the 1910s, Chinese thinkers like the 
famous professor and writer Hu Shi were already pointing out that what 
causes disorder in China is too much centralization. Loosen control a 
bit, let localities run their own affairs, make government clean and 
fair--and China will prosper. But let one man try to run it all 
himself, and tensions will rise to criticality. That is what looks to 
be happening now. China continues to bubble, despite continuing arrests 
and detentions of dissidents, crackdowns on the media, insistent anti-
foreign propaganda, and other expedients. Political parties, religions, 
labor unions, smuggling rings, kinship organizations, and messianic 
cults all flourish under the deceptively clean and calm surface. Not 
only the Chinese economy, but also the Chinese population, poses an 
increasing problem to the regime, an old-style Leninist organization 
that has dismantled most of its institutional props. What is the 
answer?
    When Japan was challenged by Commodore Perry's black ships in 1853, 
the reaction in fairly short order was not only a change of 
administration but also a transformation of governmental structure--the 
Meiji Restoration--so that, by the end of the 19th century, the 
institutions of Japan's constitutional monarchy differed little from 
those of contemporary European states like Imperial Germany. When Japan 
then defeated China in war, it looked as if Beijing might follow the 
same path. But the attempt similarly to reconstruct China that began 
during the ``hundred days reform'' of 1898 miscarried. The empress 
dowager carried out a coup d'etat, initiating the pattern that has 
followed ever since. Though repeatedly challenged militarily in the 
past and economically in the present, and despite regular talk of 
democratization, China has never actually modernized its political 
structures. Indeed, a Ming courtier brought back to life would quickly 
find his bearings in contemporary Beijing (but be baffled by Tokyo or 
Taipei).
    Few would argue that China can continue for very much longer on its 
current course, which blends repression and muddling through with an 
adamant refusal to ask the hard questions. That means change is coming, 
one way or another. Without strong institutions, moreover, the 
unraveling of purely personal power is difficult to arrest.
    China for the first fifty years of this century was roiled by a 
struggle over political authority, never far from the surface and 
regularly exploding in civil wars. Starting as coups--relatively self-
contained struggles within the elite--these conflicts expanded until, 
by the late 1940s, the fight between the Nationalists and the 
Communists engulfed the country. The communist victory, however, solved 
nothing. While Mao lived, the problems of economic and democratic 
transformation were frozen by his personal authority. But with twenty 
years of thawing, they are beginning to come to life again, and as the 
various disorders and crackdowns of this year so far make clear, they 
once again involve the population as a whole.
    Even if the Chinese ruling group were unanimous in its interests 
and views, which most clearly it is not, it could not hold back the 
tide. Before too long, I suspect, the media will be full of stories 
about China that begins with ``Everyone knew . . .'' or words to that 
effect. It was clear to everyone that the current situation could not 
last. But I do not see much imaginative or searching thought going on 
here in Washington about just what course that change may take, and how 
it will affect our interests and those of our allies.
    China today is not a regime capable of supporting more than a 
limited relationship with the U.S., even if we should desire it. Our 
interests, however, argue for closer and more candid dealings with the 
democratic states of Asia, with whom we share values as well as 
interests. We share plenty of values with people in China but not, sad 
to say, with China's leaders and it is no use pretending we do. Rather, 
let us be a little more honest about the real situation and face the 
difficult as well as the happy possibilities for the future, and while 
welcoming good news should they come, be well prepared for trouble as 
well. Not incidentally, such an approach is more likely to sway China 
for the better than is what we do now, which is most unwise, both for 
ourselves and for our allies.
    The regime looks by no means robust, and rather than counting on 
its success, we and our allies should be hedging against its failure.

    The Chairman. Very good. Thank you.
    Mr. Wu, it is good to see you again. You are looking well 
and we will now hear from you with great pleasure and 
admiration.

  STATEMENT OF HARRY WU, EXECUTIVE DIRECTOR, LAOGAI RESEARCH 
                    FOUNDATION, MILPITAS, CA

    Mr. Wu. Mr. Senator, you are looking well today, same as 
me. I know that you are older than me, but you are in good 
shape. Thank you for inviting me again.
    No force on earth could return China to isolationism, and 
any actor in world politics would be foolish to try to isolate 
that nation of 1.3 billion. But we must still ask why the West, 
the United States included, has adopted a kowtow culture in its 
dealings with the Communist Government in China.
    We pretend to have a strategic partnership with this 
regime, which still oppresses its people.
    The situation today in China we can describe using Lenin's 
words: the people at the top are no longer ruling the people in 
the old way. The people at the bottom are not satisfied being 
ruled in the old way.
    In fact, the Communist regime is hanging on by tooth and 
nail to its monopoly on political and economic power. It is 
jeopardizing the economic and political health of its own 
nation. It is also undermining international political 
institutions and international stability. A stable and dominant 
Communist Party is not equivalent to a stable and prosperous 
China.
    It is true that communism in Asia is somewhat different 
from that in the Soviet Union and the Eastern Bloc. Each is 
determined by culture and tradition. But all forms of communism 
are enemies of individual freedom in theory and in reality. 
They create governments that hold on to their power through 
corrupt and totalitarian systems.
    What happened in the Soviet Union and the Eastern Bloc 
yesterday will certainly happen in China tomorrow.
    What is the reason, then, for the different treatment one 
regime faced and the other receives today?
    The Chinese market and cheap labor force present an 
incurable temptation for Western investment. For 200 years, the 
West has looked to the Chinese market eagerly--the ``if only 
each Chinese would purchase one soft drink or role of film, we 
would be rich'' theory.
    Westerners have created several reasons for their pursuit 
of the mythic Chinese market.
    Some have tried to use Chinese despotism to their 
advantage. Western business gets cheap labor and lets the 
Chinese Communist Party take care of their other issues, like 
trade unions, health, safety, and environmental issues.
    Others claim that economic prosperity will gradually give 
way to democracy and respect for human rights. This would be 
the ideal: a peaceful and gradual mode of social revolution 
from despotism to democracy. Of course, no one tried to apply 
this policy to the Soviet Union's bloc, even never apply the 
same idea to Cuba and North Korea today.
    These concepts have played a role in U.S.-China policy. 
They are all based on the same false idea, that the Chinese 
Communist regime will bring true stability to China.
    But a successful national policy cannot be crafted if we 
ignore the fundamental realities of the Chinese Communist 
regime.
    We must realize the differences between true stability and 
the appearance of stability. The Chinese Communist regime is 
like a mansion. Two decades ago, this mansion looked horrible. 
On the inside, there was the Great Leap Forward, the terrible 
famine, the Red Guard's savage acts during the Cultural 
Revolution, brutal political campaigns.
    Externally, there was exportation of revolution in the form 
of support for North Koreans and the Vietcong.
    All of this ugliness gave the false impression that the 
mansion, the Communist regime, was losing popular support and 
was in danger of collapse. Actually, it was not. It was 
relatively stable.
    Why? It was stable because most people in mainland China at 
the time had faith in the Communist Party and believed in Mao 
Zedong. It was a kind of religion and Mao became the new 
emperor, with a mandate from Heaven.
    Mao's death and the Cultural Revolution left China in a 
state of crisis. Deng's response to this crisis, however, was 
not to dismantle the Communist apparatus. Rather, he restored 
it by releasing farmers from the people's communes and by 
introducing foreign technology, even more importantly, foreign 
investment.
    Deng Xiaoping's policy, adopted by Jiang Zemin, altered the 
face of mainland China. On the surface, the mansion is now more 
attractive. It looks nice. It has been touched up by Western 
investment. The shiny skyscrapers and marble bathrooms seen by 
the CEO's and company presidents attending the Fortune Forum 
meeting in Shanghai last month must have been impressive.
    But, in fact, the mansion is less stable than ever before. 
Of all the changes in mainland China, the most basic and most 
important change is that most people simply do not trust 
communism and the Communist Party. The mansion's pillars are 
rotten and the timing of its collapse will be as unpredictable 
as that of the Berlin Wall.
    It is the Communist Party itself that is causing the decay. 
First, the regime would never grant its people the degree of 
self-determination and freedom needed for true social 
stability. The foundation of despotism laid down by Mao remains 
the state ideology. It is still reinforced and even celebrated 
by the current rules of China.
    Every day in China people are making demands like those 
made at Tiananmen Square in 1989. Whether they are dissidents 
who fight for freedom of speech or farmers who are tired of 
corrupt local officials, there is a broad discontent among the 
people of China today.
    Listening to these people would be a way to bring about 
stability. It is tragic that this regime refuses to recognize 
the basic fact that democracy is the best way to stability. It 
is even more tragic that those abuses continue without any 
serious consequences in the international arena.
    Economically, the Communist Party will not be able to 
institute a true market economy. The Chinese economic success 
story of the eighties and nineties is based on largely bad 
loans, a transfer of wealth from the State to party cadres and 
their followers.
    The so-called market economy in China, mainland China, is 
actually a socialist market economy, controlled by the 
government. There is no influential middle class in China 
today. There is only an elite class, dependent on the Chinese 
Communist Party.
    The party knows that it is losing popular support. So it 
offers incentives to party members, their families, and their 
followers. It has allowed raising the banners of nationalism 
and patriotism in order to regain some populist appeal.
    The current slogans--``he who loves his country loves his 
party;'' ``anti-communism equals anti-Chinese''--can be traced 
to an old Chinese tradition of ``love your rules, love your 
country.''
    The Chinese Communist Government maintains their despotic 
domination by fading out communism, even by completing shedding 
their Communist garb. If this type of regime continues to 
exist, it will be a huge factor of instability for 
international peace.
    As a Nation, the United States must shed its illusions of 
the Chinese Communist Party ever being a true strategic 
partner. We have to ask ourselves if, first, the regime can 
actually bring true economic prosperity to China and, second, 
if this regime's kind of economic progress can bring democracy.
    For either of those to be possible, we would need to see a 
respect for human liberty that is opposite that of this Chinese 
Communist Party.
    At present, the following aspects of human rights 
conditions deserve particular attention.
    No. 1, population control. In mainland China, no woman, 
married or single, may give birth without government 
permission. This is permission from the government. Every one 
without permission is subject to forced abortion and forced 
sterilization. Large-scale forced abortion and sterilization 
surgeries, supplemented with disciplinary and economic 
sanctions, are the principal means of population control.
    Here is another document to show you [indicating]. This 
man, because he has two daughters, was subject to 
sterilization. The government destroyed his beautiful house.
    No. 2 is the Laogai camp system. As the Chinese Communist 
authorities themselves put it, Laogai camps are tools of the 
dictatorship of the people's government. It is not a common 
prison for punishing criminals.
    The machine must be destroyed. Just like Nazi concentration 
camps and Soviet gulag camps, it is not enough to release one 
or two well known dissidents from the machine. We want to ask 
the American Government to negotiate with China to allow the 
International Red Cross and international human rights 
organizations to visit the labor camps.
    The death penalty and organ harvesting from executed 
prisoners is very normal today in China. The Chinese Government 
said execution of death row prisoners is a political action in 
our country and is used to maintain the social order. Prisoners 
are sentenced in mass sentencing rallies, are paraded through 
the streets, and often are executed publicly.
    They call this ``scare the monkey by killing the chicken.''
    The harvesting of executed prisoners' organs for medical 
and transplant purposes is also national policy. It is the 
Chinese Government that coordinates this brutal practice.
    No. 4, religious prosecution is still going on.
    No. 5, persecution of the Tibetan nationals is still going 
on.
    No. 6, detention and harassment of labor activists still is 
happening today in China.
    No. 7, Laojiao, so called reeducation through labor, and 
Jiuye, so called forced job placement policy, are still 
implemented in this country.
    No. 8, prosecution of civil organizations occurs. The 
severe crackdowns on the China Democratic Party and Falun Gong 
are serious abuses of freedom of assembly and association.
    No. 9, repression of freedom of the press is still going on 
today in China. Of course, China's history is written by 
Chinese. But in today's international environment, 
international political and economic pressures can play a very 
important role.
    The international community must tell China clearly that we 
expect to see a peaceful, prosperous, free and democratic 
China, not a prosperous and stable Communist China. Peace and 
prosperity are possible only when human rights and democratic 
freedoms are respected.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Wu follows:]

                     Prepared Statement of Harry Wu

    No force on earth could return China to isolationism, and any actor 
in world politics would be foolish to try to isolate that nation of 1.2 
billion. This said, we must still question why the West, the United 
States included, has adopted a kowtow culture in its dealings with the 
Communist Chinese government, pretending to have a ``strategic 
partnership'' with a regime whose goals and values are very different 
from our own. It seems as if our relations with China are based on the 
false premise that the stability of the Chinese communist party is 
integral to successful political and economic relations with China, and 
to the goal of stability in Asia and international peace in general. In 
fact, this regime, by hanging on tooth and nail to its monopoly on 
political and economic decision-making powers, is jeopardizing the 
economic and political health of its own nation. It is also undermining 
international political institutions and international stability. A 
stable and dominant communist party is not equivalent to a stable and 
prosperous China.
    Recent history offers a lesson in the futility of communist 
dictatorships. The last two decades of the Soviet Union and its Eastern 
European satellites bear eloquent witness to the fact that as long as 
they were bent on strangling freedom and democracy, all their 
kaleidoscopic ``new policies'' devised to extricate them from their 
political and economic dilemmas were doomed to failure.
    The collapse of the Berlin Wall ten years ago was undoubtedly the 
outcome of a multi-faceted policy of containment from the outside: 
militarily, politically, economically, culturally, etc. Still, the most 
important reason for the fall of communism in Europe was that 
communism, then and now, does not enjoy the support of the people. It 
breeds instability. It not only defies individual freedoms in theory, 
in practice it has fostered governments that can only maintain their 
power through opaque and corrupt totalitarian systems.
    True, communism in Asia is somewhat different from that in the 
Soviet Union and the Eastern Bloc, being determined by their respective 
cultures and traditions. Nevertheless, all forms of communism run 
contrary to democracy and freedom and are therefore despotic in nature 
and lifeless. What happened in the Soviet Union and the Eastern Bloc 
yesterday will inevitably happen in China tomorrow.
    What is the reason, then, for the different treatment one regime 
faced and the other receives today? Despite Khruschev's revelations of 
Stalin's brutality, through the Breshnev and Gorbechev eras, the West 
recognized that the fundamental nature of the Soviet Union had not 
changed, and treated the Soviet Bloc accordingly. But certain people in 
the West are already declaring impatiently that the Chinese are 
forsaking communism and unconsciously moving towards freedom, democracy 
and capitalism. Thus in the West, we roll out the red carpet for 
Chinese communist leaders, and the Chinese Communist regime is enjoying 
privileges in the international community that were unthinkable for the 
Soviet Union.
    The primary reason for the huge discrepancy is that China's market 
and cheap labor force present an incurable temptation for Western 
investment. For 200 years, the West has looked to the Chinese market 
eagerly--the ``if only each Chinese would purchase xxx, we would be 
rich'' theory. In recent years, disregarding the difficulty of actually 
successfully entering the Chinese market, Westerners have created 
several justifications for their dogged pursuit of the mythic Chinese 
market.
    Some have tried to use Chinese despotism to their advantage. 
Chinese lack of concern for their workforce saves Western businesses in 
China the trouble of trade unions, lawsuits, health, safety and 
environmental concerns. Their business partner--the Chinese communist 
government--``takes care'' of messy issues like democracy, human 
rights, social equality and judicial due process. Western investors 
pretend not to see these problems and have a clear conscience, claiming 
that widespread abuses of human rights are due to so-called Chinese 
cultural traditions. Thus, they repeat the false claims made by the 
CCP.
    Others claim that economic prosperity will gradually give way to 
democracy and respect for human rights. This would be the ideal: a 
peaceful and gradual mode of social revolution from despotism to 
democracy. Of course no one tried to apply this policy to the Soviet 
Bloc. In fact, in Mainland China, much of the new wealth is now in the 
pockets of state bureaucrats who have a vested interest in the power of 
the communist party. There is no influential middle class as an 
independent social stratum in China; only an elite class dependent on, 
and serving the CCP.
    Others argue that we must bolster the Chinese economy, claiming 
that economic failure in Mainland China would create insurmountable 
problems for the world economic system; radical political conflicts or 
civil war in China would trigger huge waves of refugees and regional 
instability.
    All these concepts, more or less, have found their expression in 
the formulation of China policies. All are based on the same false 
presumption: that the Chinese communist regime must be the bearer of 
true stability.
    To understand why this concept is a false one, we must clearly 
understand the present stage of China's development. The Chinese 
communist rule can be divided into two periods: the first being Mao 
Zedong's thirty-year rule, the second being the last twenty years under 
Deng Xiaoping and Jiang Zemin. True, the Deng/Jiang brand of communism 
differs from that of Mao. Through two decades of implementation, Deng's 
policies, adopted by Jiang, have altered the face of Mainland China. 
Many Western scholars and politicians have wrongly interpreted these 
changes as a break with communism, drawing clear differences when 
condemning Mao's excesses but singing in praise of Deng and Jiang, 
trying to create an impression that there is no continuity between the 
two. Of late, we have even heard some United States government and 
business officials go so far as to omit the words ``communist party'' 
when talking about China.
    But a successful national policy cannot be crafted if we ignore the 
fundamental realities of the Chinese regime.
    We must differentiate between true stability, and the appearance of 
stability. One can look at the Chinese communist regime like a mansion. 
Three decades ago, this mansion looked horrible. On the inside, there 
was the disastrous ``Great Leap Forward'' and the terrible famine that 
resulted, the Red Guard's savage acts during the Cultural Revolution, 
ceaseless brutal political movements and campaigns. . . . Externally, 
there was ``exportation of revolution,'' in the form of support for 
North Koreans and the Vietcong. All this ugliness gave the false 
impression that the mansion, the communist regime, was losing popular 
support and was in danger of collapse. Actually, it was relatively 
stable. Why? Because most people in Mainland China at the time had 
faith in the communist party and followed Mao Zedong steadfastly. It 
was a kind of religion and he was the new emperor, entrusted with the 
Mandate of Heaven.
    Mao's death and the brutal excesses of the Cultural Revolution left 
China in a state of crisis. Deng Xiaoping, in 1979, tried to explain 
China's problems with what he termed the ``three credibility crises:'' 
(1) The people had no trust in the communist party, (2) They lacked 
confidence in the socialist road, (3) They saw no way out, beset by 
collapsing national economy, backroom politics, as well as languishing 
cultural and educational institutions. Deng's response to these crises, 
however, was not to dismantle the communist apparatus. Rather, he 
restored it partially by releasing farmers from the disastrous people's 
communes and by introducing foreign technology, and even more 
importantly, foreign investment.
    Through two decades of implementation, Deng's policies, adopted by 
Jiang, have altered the face of Mainland China. On the surface, the 
mansion has been beautified, touched up and restored by Western 
investment. The shiny skyscrapers, gilded stairways and marble 
bathrooms seen by the CEOs and company presidents attending the Fortune 
Forum meeting in Shanghai last month must have been impressive indeed. 
But in fact, the mansion is less stable than ever before. Of all the 
changes we have witnessed in Mainland China, the most basic and most 
important change is that most people simply do not trust communism and 
in the communist party. This mansion's pillars are essentially rotten, 
and the timing of its collapse will be an unpredictable as that of the 
Berlin Wall.
    It is the communist party itself that is causing the decay. First, 
this regime will never grant it people the degree of self-determination 
and freedom needed for true social stability. The foundation of 
despotism laid down by Mao remains the state ideology. It is still 
regularly reinforced and even celebrated by the current rulers of 
China.
    Ten years ago, after the start of Deng's economic reforms, we saw 
Chinese Communist-style stability at work in the Tiananmen Square 
Massacre in 1989. Tiananmen could have been a turning point. Even seen 
in the most modest terms, the protests signified that economic openness 
alone did not satisfy the Chinese people. The protests were a call for 
transparency and an end to corruption. Fulfilling or at least beginning 
a dialogue on these concerns would have brought great benefits, both 
politically and economically, to the country.
    Everyday in China, people are making demands similar to those made 
at Tiananmen Square. The Chinese people have drawn a major lesson from 
decades of political terror and economic corruption. Whether they are 
dissidents in the traditional sense who fight for freedoms based on 
broader principles or farmers who are weary of corrupt local officials, 
there is a broad discontent among the people of China today. There is a 
growing sentiment that it is imperative to fight for freedom and 
democracy, and to cast aside the communist system. Listening to these 
people would be a way to bring about stability. But the fact that these 
demands came from outside the party was seen as too much of a threat. 
That crackdown, and the others that have followed to this very day, was 
justified by the Chinese rulers in the name of ``stability.'' It is a 
tragic irony that this regime refuses to acknowledge the basic fact 
that transparency, and eventually democracy, are the only way to ensure 
stability. It is even more tragic that the abuses continue without any 
serious consequences in the international arena.
    Economically, the communist party will not be able to institute a 
true market economy. The Chinese economic success story of the eighties 
and nineties is based on bad loans, a transfer of wealth from the state 
to Party cadres and their cronies rather than a production of wealth, 
and on faulty accounting. The so-called ``market economy'' in China's 
mainland is actually a ``socialist market economy,'' controlled by the 
government. The legitimate private sector economy needs to free itself 
from the shackles of the Party's economic system of public ownership in 
order to truly flourish. In the coming decade, the need for true 
economic reform and ideological freedom will play critical roles in 
China's political structure.
    The party is not blind to the continuing discontent in China, but 
it is unable to completely discard communism. But the old standbys--the 
Marxist and Leninist classics--do not afford viable solutions to most 
of the problems the country is currently facing. The ruling party is 
not willing to discard them, but they know that communism does not 
attract popular support. So to reinforce their prestige internally, 
they use a three-pronged approach of limited reform, favoritism, and 
nationalist rhetoric.
    To prevent further tarnishing the party's reputation, the party 
higher-ups launch anti-corruption campaigns and implement minimal 
judicial and political reforms. And so we have seen increased lawsuits, 
even some narrowly directed against the government. But we will never 
see an independent judiciary. We witness rudimentary village elections, 
through which the party not only demonstrates their progressive nature, 
but also route out overly entrenched local cadres. But they will never 
tolerate true political competition or pluralism. Simultaneously, they 
devote major efforts to expanding communist party ranks. The fact that 
the membership of the Falungong outnumbered that of the communist 
party, which now stands at sixty million, was a tremendous 
embarrassment. Long before the recent crackdown, the party has been 
trying to attract new candidates not with revolutionary ideals, but 
with tangible political and economic incentives.
    In addition to economic incentives to Party members, their families 
and cronies, the Party has raised the banners of ``nationalism'' and 
``patriotism'' in order to regain some popular appeal. In fact, these 
banners may be more effective means for it to maintain domination, 
rooted as they are in Chinese society. The Chinese, in particular the 
so-called ``intellectuals,'' have often failed to differentiate between 
ruler and motherland. The origin of the current slogans ``He Who Loves 
His Country Loves His Party,'' ``Anti-Communist = Anti-Chinese'' can be 
traced to millennia-old Chinese tradition of ``Love Your Ruler, Love 
Your Country.'' The Chinese communist government can resist the trend 
of democracy and freedom by resorting to nationalism and patriotism 
alone, as they did in the orchestrated demonstrations following the 
NATO bombing of the Chinese embassy in Belgrade. They can maintain 
their despotic domination by fading out communism, even by completely 
shedding their communist garb. If this type of regime continues to 
exist, it will be a huge factor of instability for international peace.
    Generally speaking, China's history is written by the Chinese, but 
in today's international environment, international political and 
economic pressure can play an important role. For the sake of our 
national interests, and for the sake of our national values, we must 
shape our policies to promote respect for human rights and democracy.
    As a nation, the United States must shed its illusions of the 
Chinese communist party ever being a true ``strategic partner.'' We 
must ask ourselves if, first, this regime can actually deliver economic 
prosperity for China, and second, if the economic progress that has 
been made will lay the foundations for democracy. For either of those 
to be possible, we would need to see a respect for human liberty that 
is antithetical to this Chinese communist party.
    At present, the following aspects of human rights conditions 
deserve particular attention:

          1. Population Control: In Mainland China, no woman, married 
        or single, may give birth without government permission. 
        Population control is China's fundamental national policy. From 
        the center to the grassroots, communist party officials, who 
        are directly accountable for the execution of this policy, 
        control every town, every village, every child-bearing-age 
        woman through planned birth quotas. Large-scale forced abortion 
        and sterilization surgeries, supplemented with disciplinary and 
        economic sanctions, are the principal means of population 
        control. The Chinese communist authorities' planned birth 
        policy constitutes a grave violation of human rights, which 
        must not be pardoned by resorting to economic, cultural and 
        other pretexts.
          2. Laogai (labor-reform) camp system. As the Chinese 
        communist authorities themselves put it, Laogai camps are tools 
        of the dictatorship of the proletariat, not common prisons for 
        punishing criminals. Over the five decades of communist rule, 
        tens of millions of people have been thrown into this mincing 
        machine and perished there. Like the Nazi concentration camps 
        and Soviet gulag camps, Laogai camps are not to be ``improved'' 
        or ``upgraded'' but must be rooted out (this does not mean that 
        China should not have a prison system). Products of forced 
        labor must not be sold on the market for profit either 
        domestically or internationally. International Red Cross and 
        human rights organizations must be allowed to visit Laogai 
        camps.
          3. Death penalty and organ harvesting from executed 
        prisoners: Execution of death-row prisoners is a political 
        action in Mainland China. Prisoners are sentenced at mass 
        sentencing rallies, paraded through the streets and often 
        executed publicly. The aim of this process is to ``manifest the 
        might of the communist party's dictatorship,'' and to ``scare 
        the monkey by killing the chicken.'' Maintaining social order 
        by executed prisoners in numbers unseen in the rest of the 
        world constitutes a crime against civilization. The harvesting 
        of executed prisoners' organs for medical and transplant 
        purposes is also national policy. This practice, in its extent 
        and brutality, is also unheard of.
          4. Religious persecution: Christians not belonging to the 
        government sanctioned church face persecution ranging from 
        persistent harassment to beating and torture. A policy of 
        genuine religious freedom must be implemented. The ability of 
        the Roman Catholic Church to do missionary work in China would 
        be the litmus test of this policy.
          5. Persecution of the Tibet nationalists and Buddhists in the 
        Tibet Autonomous Region (TAR): Numerous prisoners have died in 
        Tibetan prisoners from torture and beatings. Respect for the 
        Tibetan people's right of self-determination must be 
        established. As a spiritual leader, the Dalai Lama must be 
        allowed to return to Tibet.
          6. Detention and harassment of labor activists: Those calling 
        for independent trade unions and labor reform are routinely 
        harassed and arbitrarily detained. Workers must be allowed to 
        establish independent trade unions.
          7. Laojiao (reeducation through labor) and Jiuye (forced job 
        placement within the camp) systems: The Laojiao system is an 
        ``administrative'' policy: public security unites can, without 
        any legal proceedings, wantonly deprive a citizen of his/her 
        freedom for up to three years. Over 200,000 people are 
        currently held in this system. The Jiuye system has been 
        significantly reduced in size since 1983, nevertheless, the 
        authorities are still forcing many prisoners and Laojaio 
        inmates who have served out their terms to remain in the 
        system, thus further depraving them of the civil rights and 
        freedoms.
          8. Persecution of civil organizations: The severe crackdowns 
        on the China Democratic Party and Falungong are serious abuses 
        of freedom of assembly and association.
          9. Repression of freedom of the press: Censorship is 
        pervasive in all forms of media in China, and those seeking to 
        work outside the confines of the state-controlled media may be 
        subject to detention and imprisonment.

    The international community must tell China clearly: we expect to 
see a peaceful, prosperous, free and democratic China, not a prosperous 
and stable communist China. The international community must state 
clearly that political reform and improvement of human rights 
conditions must not only be synchronous with economic development, but 
must, to a certain degree, precede it. Peace and prosperity are 
possible only when human rights, democracy and freedom are respected.

    The Chairman. Harry, you have appeared many times with us 
and you always do well.
    I want to circulate several copies, including the ten 
things that you identified. I thank you very much.
    Mr. Munro, I am looking for my paper on you.
    Mr. Munro. I can introduce myself, if you would like, 
Senator.
    The Chairman. Please do that. I have so much paper up here. 
Wait, just a minute, please.
    You are the Joseph H. Lauder----
    Mr. Munro. No. That is my friend, Arthur Waldron.
    The Chairman. Then you are the director of Asian Studies at 
the Center for Security Studies. We have dealt with you before 
many times.
    In any case, we are glad to have you. If you would proceed, 
we would appreciate it. I'm sorry, but I'm surrounded now by 
paper but no Senators.

 STATEMENT OF ROSS H. MUNRO, DIRECTOR OF ASIAN STUDIES, CENTER 
              FOR SECURITY STUDIES, WASHINGTON, DC

    Mr. Munro. We're even because this is going to be a bit of 
a back of the envelope presentation from me. I just returned 
from 5 weeks in Asia and received very short notice about 
appearing here today. But I am really privileged to do so.
    It may interest you, Senator, that I have spent much of 
this past year looking at China's relations with countries and 
regions on its land borders. In fact, I was just in the Russian 
far east, Siberia and Kazakhstan, looking at precisely that. 
Earlier in the year I was in countries like Burma and Laos.
    I can report to you that from Vladivostok to Rangoon, China 
is consolidating and increasing its preeminence along its land 
borders and throughout most of the land mass of continental 
East Asia.
    It is achieving this with an impressive array of 
sophisticated--I did not say benign--sophisticated policies and 
also by the sheer weight of its population and its economy.
    I mention this because I think it directly relates to the 
issues before your committee. China's increasingly dominant 
position in continental East Asia today is one side of a rough 
and fluid balance of power in Asia as a whole. Balancing China, 
of course, is the United States and its democratic friends that 
Arthur Waldron referred to, its democratic friends and allies 
on China's eastern and southern rim. I am referring, of course, 
to Japan, South Korea, Taiwan, most of the island nations of 
Southeast Asia. And ultimately, I believe, India will be on 
that list as well.
    By definition, a balance of power is a force for stability. 
But stability in Asia today is precarious because China is not 
satisfied with its growing dominance of continental East Asia 
but also wants to dominate the democracies on its eastern and 
southern rim.
    In short, China wants to dominate all of Asia.
    China's leaders, of course, do not put it quite so starkly. 
In fact, they insist that they do not seek hegemony. But their 
declared goals amount to a program for precisely that. They 
want the permanent strategic subservience of Japan. They don't 
want Japan to ever be a normal power militarily. They want to 
conquer Taiwan. They, of course, want to, and they are explicit 
about this, end the U.S. military presence in Asia, and they 
want to control all the islands of the South China Sea. If they 
achieve these announced goals, they will dominate Asia.
    Now in some ways it is easy to understand the Chinese 
leadership's great strategic ambitions. For one thing, the 
ambition to dominate Asia harks back centuries to when powerful 
Chinese dynasties expected all of its neighbors to know their 
place and kowtow to the emperor in Beijing. Of course, today's 
autocrats in Beijing are nationalistic, and aggressive foreign 
and military policies serve to legitimize the regime, a regime 
that has never been elected by the people.
    Now what is much more difficult to understand is the 
Clinton administration's response to China's growing ambitions 
and to China's determination to destroy the balance of power in 
Asia. Indeed, since 1996, this administration has repeatedly 
demonstrated that either it is not committed to maintaining a 
balance of power in Asia anymore, even though that has been the 
strategy toward Asia of the United States for more than a 
century, or it simply does not understand how central the 
balance of power in Asia is to America's interests.
    It refuses to come to grips with China's challenge to 
America's interests. And, of course, it ignores--this is 
something that was not brought up by other witnesses--it 
ignores the fact that the assertion that the United States is 
China's enemy pervades all serious writing and statements about 
strategy or foreign and military policy in China today.
    It is an implicit given or it is explicit, all the time, 
that the United States is China's adversary. And yet, you do 
not see a coherent or intelligent response by the Clinton 
administration to that.
    In fact, in 1997, as you know, the Clinton administration 
began using the term ``strategic partnership'' with China just 
as the Chinese were saying that it was unacceptable for the 
U.S. military to be in Asia, which contradicts the whole 
concept, I think, of any strategic partnership.
    The situation got much worse in 1998, sir, when the 
President made his trip to China and managed in just a few days 
to deeply disturb Japan by not visiting it before or after his 
trip to China, to undermine Taiwan by publicly reiterating the 
three so-called ``no's,'' and to bully India by joining China 
in condemning its nuclear tests--all in a few days.
    These are the very countries on which we must depend to 
maintain a balance of power to resist Chinese assertiveness 
and, by the way--and here is where Dr. Waldron's and my views 
mesh nicely--by resisting Chinese assertiveness and aggression, 
that will lead, I think, in a way to delegitimizing the regime 
because it is Chinese national chauvinism and Chinese economic 
mercantilism that are two of the foundations of this 
undemocratic regime's legitimacy today.
    I don't know how much we can do directly to foster 
democracy in China. But I believe very strongly that by 
treating China as an external actor, by looking at its external 
actions, where we have a lot of power to resist China, we can 
indirectly undermine that regime and foster democracy.
    The Clinton administration has neglected relations with all 
these democratic countries around China, but the worst errors 
have been made vis-a-vis Taiwan. Let's, just for purposes of 
analysis, lay aside our legal commitments to Taiwan under the 
Taiwan Relations Act and let's lay aside our moral commitment 
to an old friend and ally. I take those commitments, by the 
way, very, very seriously. But for purposes of discussion, 
let's look at Taiwan purely now as a strategic issue. It is 
very instructive to look at Taiwan through a purely strategic 
prism.
    Certainly, there is overwhelming evidence that in Beijing 
the Chinese leadership, since the early 1990's, has viewed 
Taiwan primarily in strategic terms as a strategic target. We 
should no longer dignify Chinese policy toward Taiwan as a 
policy of reunification. It is not reunification. They don't 
care about the people of Taiwan. Chinese generals are saying 
that they don't care if Taiwan is reduced to rubble. They want 
the raw real estate.
    Specifically, they want control of the air and sea space 
because that will up-end the balance of power in Asia overnight 
because China will suddenly be controlling the key air and sea 
lanes, the most strategic air and sea lanes in East Asia.
    The Clinton administration does not seem to grasp that at 
all. Instead, the administration keeps pushing Taiwan to reach 
some kind of interim agreement with Beijing. Well, presumably, 
an interim agreement would require Taiwan to make some sort of 
symbolic or legal concession to Beijing.
    Clearly the Clinton administration believes that this would 
placate Beijing at least for a while.
    But Beijing does not want symbolism. Beijing does not want 
a sop for nationalism. What Beijing really wants is the 
territory, as I just said, and to overturn the balance of power 
in Asia.
    So I want to abbreviate my remarks. I have already spoken 
longer than most of my friends.
    Let me just say that there is one other thing I really want 
to emphasize and that is that there are powerful elements in 
this country, specifically in the China policy community--they 
certainly are not at this table right now--who want to appease 
China by tossing away some of our most important assets, some 
of the most important levers we have in dealing with China.
    One is Taiwan itself. They want to sacrifice Taiwan. I see 
Taiwan as an asset, not as a liability.
    Second, there are sinologists who are calling on the United 
States to assure China in advance that we will never allow a 
theater missile defense system to be installed in Taiwan.
    Third, there is the whole WTO issue. I think, given the 
fact that the vast majority of the Chinese elite either opposes 
WTO or wants to sign the agreement but then not implement it, 
we should be very wary of any WTO agreement and keep the 
leverage that is inherent in that huge trade surplus that China 
runs with us.
    So, again, I have gone over a lot of material in a hurry. 
Thank you very much.
    The Chairman. Well you have done very well.
    I have a situation to attend to. I want the three of you to 
testify as long and as much as you will. I have no Senator here 
to relieve me and I have a problem with my knees. So I am going 
to do an unusual thing. I will adjourn this hearing but will 
ask my staff representative to take my chair and ask the 
questions that I have here so that you three gentlemen can go 
on the record.
    We are going to print the record we make today and 
circulate its printed form.
    If you will forgive me, I will absent myself. But you will 
find that Mr. Doran knows more about this subject than I do, 
anyhow.
    I would ask the staff member to identify himself for the 
record after I adjourn this hearing but to finish up for our 
subject record.
    Thank you. We are adjourned.
    [Whereupon, at 12:41 p.m. the hearing was adjourned.]

                              ----------                              


      Continuation of Discussion by Committee's Professional Staff

    Mr. Doran. My name is James Doran. I am the senior 
professional staff member for East Asian Affairs for the 
committee under Senator Helms.
    I think I will just go left to right here and start with 
Dr. Waldron.
    I just want to ask, Arthur, if you think that the policy of 
economic engagement with China will necessarily lead to 
liberalization in that country.
    Dr. Waldron. I think that the answer to that is no. I think 
that there are plenty of examples in history of countries which 
have managed to separate the economy from a dictatorial rule. I 
think that, on balance, it would be a good thing. I think it is 
a good thing to encourage genuine entrepreneurial business in 
China.
    One thing we should be aware of is that a lot of the 
Chinese entities with which we deal in so-called business are 
not--these are State run enterprises or else they are part 
foreign invested/part State invested. There is nothing yet in 
China that comes close to approximating a genuine free 
enterprise system in which people start their own businesses 
and then can grow without limits.
    If you get that sort of genuine private enterprise, that 
will have very, very beneficial effects. But there is an 
economist in Hong Kong who refers to a lot of investment in 
China essentially as bridge loans. There are all kinds of 
difficulties in the State run sector and they are using all 
sorts of ways to bring in more money. But it is not 
contributing, I don't think, to what we want.
    Mr. Doran. It seems to me, then, that basically the policy 
of the 1990's, even preceding the Clinton administration, may 
then be based on a false premise. It seems to me that that is 
entirely the premise of U.S. policy for at least a decade, that 
economic engagement will lead to political liberalization in 
that country.
    Dr. Waldron. I think if you read history, you find that it 
is not that simple. Obviously, this is a complex relationship 
to manage. I think we should manage our connections with China 
more stringently, and I would associate myself with Ross and 
the others. It is very, very important that we broaden it.
    We do not need a China policy. What we need is an Asia 
policy.
    Mr. Doran. Thank you.
    Also in your testimony, you advise us to start hedging 
against the possibility of the current Chinese regime's 
failure. It also seems to me that one of the Clinton 
administration's arguments for essentially trying to prop up 
this regime is that, if this current regime fails, there will 
be chaos in China.
    What is your view of that assumption?
    Dr. Waldron. I think that we are running at a very 
dangerous, or it is a perilous road that we are taking. This is 
because we are not simply dealing with the Chinese regime 
because it is the de facto ruler. We have moved from assessing 
it as being a positive force to sort of hoping that it is a 
positive force.
    Now we are really very much, I would say, leaning to try to 
support it. In other words, we have identified our national 
interests with the continuation of that regime.
    I think that this is a mistake. The regime is standing in 
the way of reform. If there were going to be reforms made by 
these people, we would be hearing about it. They would be doing 
it. We would have some blueprints. I mean, let's have an 
election. Let's release some political prisoners. Let's have 
some laws that really guarantee private property. Let's start 
reforming the judiciary.
    These are all low priorities.
    My diagnosis is, given the mismatch between the stubborn 
regime and the dynamism in China, that sooner or later there is 
going to be change and we should be thinking about that change 
rather than sort of kidding ourselves and hoping that the 
leadership is going somehow to succeed in seeing it through.
    One of my Chinese said to me a few months ago that they 
have no plan. The leadership in the PRC has no concept of how 
it is going to get where it wants to go. And if you're dealing 
with things like political reform, law, citizenship and so 
forth, you have to think it through before you try to implement 
it.
    Mr. Doran. Thank you very much.
    Let me turn now to Harry Wu for a second.
    Harry, you testified that repression still exists in China. 
I think most observers will admit that. But many observers, 
while admitting this, insist that human rights have improved 
over the last decade. Do you concur with that view?
    Mr. Wu. Yes and no.
    Before I give you my answer, I want to state that if there 
has been some progress in human rights, it happened because the 
ordinary Chinese people demanded change. No one should credit 
the Chinese Communist Government with improvements.
    At most you can say that Deng Xiaoping and Jiang Zemin are 
realistic. They know how to withdraw a few inches when they are 
faced with a crisis. This is the way to keep their power.
    We Chinese, we ordinary Chinese have paid a price. Millions 
lost their lives in the Laogai, and we allowed the Chinese 
Communist Party to destroy religion in China in the 1950's. We 
supported the Great Leap Forward and the Cultural Revolution. 
We sent our young men and women to Korea and Vietnam to fight 
against American imperialists. We dedicated ourselves to the 
Communist revolution.
    Then we learned a lesson: communism is a joke.
    To give an example, let me put it this way. The Communist 
government now allows some religious freedom in China today. No 
one could believe that this is because the Chinese Communist 
Party respects religious freedom.
    In the 1950's, the Chinese Communist Party violently 
abolished religion in China and replaced it with Maoism. They 
succeeded, but only temporarily.
    In the past 10 years, the Chinese Communist Party has spent 
a lot of money to rebuild and repair the churches and temples 
and to set up some State approved religions. Should we credit 
the Communist Party with this limited improvement?
    They did it because they are realistic. They know that 
today it is hard to block people from seeking a faith.
    The Chinese Government still does not respect human 
dignity. Signing the United Nations human rights document does 
not mean that they have changed.
    The indication of a real change I would suggest is a very 
basic thing. First, allow the Red Cross to visit freely the 
labor camps. Second, end the reeducation through labor. Third, 
allow Tibetans in China to carry a photo of the Dalai Lama. 
Fourth, allow independent publishers. Fifth, allow Amnesty 
International and other international NGO's to legally set up 
offices in China.
    Do you think that I am asking too much by this?
    Mr. Doran. Thank you very much, Mr. Wu.
    We are short on time here and I am going to need to wrap 
this up. I will just ask Mr. Munro one more question.
    You mentioned Taiwan in your testimony. What do you think 
is the likelihood that China could misjudge our resolve over 
Taiwan right now? What do you think we could do to decrease 
that likelihood?
    For example, perhaps you could comment on a bill that 
started moving through the House of Representatives yesterday 
called the Taiwan Security Enhancement Act.
    Mr. Munro. Specifically on that, I feel that that is 
necessary, that bill is necessary. In some ways, it is 
unfortunate that it is necessary, but it is necessary because 
this administration has been all over the map on Taiwan. But, 
generally, the trend has been a weakening commitment, a 
distancing from Taiwan. And yes, our U.S. credibility on Taiwan 
has eroded. In fact, I think the Clinton administration itself 
has done more than any party to undermine or destroy strategic 
ambiguity which worked for a long time.
    It no longer can work after this dangerous dance that 
President Jiang and President Clinton have engaged in for the 
past year and a half, where the Clinton administration has 
responded to increasingly aggressive statements by the Chinese 
on Taiwan with increasingly appeasing statements from 
Washington.
    So strategic ambiguity is almost dead, and something like 
this piece of legislation is necessary.
    Mr. Doran. Thank you very much.
    Thanks to the three of you for coming.
    We will probably have some more questions that we will 
submit to you in writing for the record. So we will keep the 
record open for a few days.
    That is all I have for you. Thank you for staying on.
    [At 12:52 p.m. the committee staff discussion ended.]
    [The following statement was submitted for inclusion in the 
record.]

                Prepared Statement by Human Rights Watch

                    u.s. china policy: human rights
    Human rights concerns dropped even lower on the agenda of the U.S. 
and China's other major trading partners this year, even as the Chinese 
government's restrictions on freedom of expression and association grew 
tighter. Following the Belgrade bombing, the Administration was 
preoccupied with getting bilateral relations back on track, largely 
putting human rights concerns on the back burner. For its part, the 
Chinese government suspended its bilateral human rights dialogue with 
the U.S., put off a planned visit by the German chancellor until 
November, and delayed talks on China's entry into the World Trade 
Organization (WTO). International protests against the banning of Falun 
Gong and the crackdown on activists prior to the June 4 and October 1 
anniversaries were mild or nonexistent.
    At the United Nations Commission on Human Rights in April, China 
sustained its successful campaign to prevent a debate on its human 
rights record, persuading the European Union (E.U.) and other 
governments to refrain from backing a resolution by the U.S., dooming 
it to failure. Under Congressional pressure, the Clinton Administration 
tabled a last minute resolution which was blocked by a Chinese no-
action motion. That motion was adopted by a vote of twenty-two to 
seventeen, with fourteen abstentions. The E.U. and individual member 
states refused to cosponsor the measure; Poland did agree to serve as a 
cosponsor.
    Since President Clinton's visit to China last year, Beijing has 
made no progress in ratifying the International Covenant on Economic 
Social and Cultural Rights or the International Covenant on Civil and 
Political Rights. (The U.S. would be in a better position to urge 
ratification if the Senate would ratify the first treaty as well as 
other important international human rights treaties.) Both treaties 
have been signed, but are still under review by the Standing Committee 
of the National People's Congress.
    Meanwhile, the E.U., Australia, and Canada continued human rights 
dialogues and rule of law seminars; Japan's dialogue was delayed by 
Beijing after Tokyo opposed the no-action motion in Geneva. The various 
bilateral exchanges were sometimes useful, but they appeared to have 
little direct impact on the human rights situation. Jiang Zemin visited 
Australia in September and has also just completed a tour of European 
capitals, where he signed multi-billion dollar trade deals. Except for 
a brief visit to the U.S. by the Chinese labor minister in March and a 
Canadian-led seminar in July, concerns about violations of worker 
rights have been largely absent from the agenda.
               u.s. human rights policy: recommendations
    The Clinton Administration had no clear strategy to follow up the 
president's visit to China.
    It is crucial that the Administration begin now to lay the 
groundwork for a sustained multilateral effort on China at next 
spring's U.N. Commission on Human Rights. Only with U.S. leadership--
from both the White House and the State Department--can a serious 
campaign be launched to hold China accountable in the highest U.N. 
forum designed to protect and promote human rights.
    We also hope the new U.S. ambassador to the People's Republic of 
China will place a much higher priority on human rights, not only by 
pressing China to take the steps outlined below, but also by increasing 
regular monitoring of human rights abuses by embassy and consulate 
staff; by energetically seeking access by diplomatic personnel and the 
media to trials, such as the trials of Falun Gong members that have 
recently begun and the trials of pro-democracy activists; and by 
working with other embassies to develop coordinated strategies on key 
human rights issues.
    We urge the Administration to press China to take practical, 
concrete steps to improve human rights in China and Tibet including the 
following:

  <bullet> Getting agreement to release, amnesty or review the 
        convictions of approximately 2000 persons still imprisoned on 
        charged of ``counterrevolution.'' These offenses were formally 
        abolished as a crime in 1997, but the Chinese government has 
        stated that this will have no effect on those already 
        convicted. They include numerous nuns and monks from Tibet, 
        labor rights activists and individuals imprisoned in connection 
        with the June 1989 crackdown.
  <bullet> Initiation of a process to end the system of re-education 
        through labor, which leads to the arbitrary detention of 
        thousands of Chinese citizens each year, without charge or 
        trial.
  <bullet> Obtaining verifiable information on the current status and 
        whereabouts of the Panchen Lama, Gendun Choeki Nyima, the child 
        chosen by the Dalai Lama in 1995 as the reincarnation of an 
        important Tibetan religious figure.
  <bullet> Getting agreement on unrestricted access to Tibet and 
        Xinjiang by the international press, human rights and 
        humanitarian organizations.
  <bullet> Securing a commitment to implement safeguards on freedom of 
        association and labor rights. The International Covenants on 
        Economic, Social and Cultural Rights, and Civil and Political 
        Rights both contain important guarantees on freedom of 
        religion, association, assembly and expression.
WTO and Codes of Conduct:
    In late November, the World Trade Organization will hold its 
ministerial conference in Seattle, and talks with the U.S. and other 
governments on China's potential entry into the WTO have recently 
resumed. We believe that bringing China into the WTO on commercially 
acceptable terms could help human rights and strengthen the rule of law 
over the long term. As a member of the WTO, China would face increasing 
demands--internally and externally--for greater transparency, an 
independent judiciary, and protection of worker rights.
    However, the Administration should not once again make the mistake 
of overstating the benefits of its trade policy. The President has 
stated that he would push for permanent NTR (Normal Trade Relations) 
status for China as part of a WTO package, thus doing away with the 
annual NTR renewal process. In return for permanent NTR--something 
China has lobbied for over several years--we believe the Congress 
should insist on reciprocal gestures on human rights by China. For 
example, within one year of getting permanent NTR, China should ratify 
either or both of the two UN covenants, and take some of the other 
concrete steps outlined above. We hope the Administration will join the 
Congress in supporting limited, realistic but meaningful human rights 
conditions on permanent NTR.
    We would also strongly support legislation on codes of conduct for 
U.S. companies operating in China, along the lines of bills previously 
introduced in both the House and Senate. Such legislation would express 
the sense of Congress that U.S. companies doing business in China 
should adopt certain principles to prohibit the use of forced labor, 
prohibit a police or military presence in the workplace, protect 
workers' rights of free association, assembly and religion, discourage 
compulsory political indoctrination, and promote freedom of expression 
by workers including their freedom to seek and receive information of 
all kinds through any media--in writing, orally, or through the 
Internet.
    Legislation outlining principles for U.S. companies should contain 
a registration and reporting procedure, and an annual report to 
Congress on the level of adherence to the principles by U.S. companies.
Human Rights Developments in China, Tibet, Hong Kong:
    Controls on basic freedoms were tightened during the past year, in 
part because of Chinese authorities' desire to ensure stability on 
several sensitive dates. These included the fortieth anniversary of the 
March 10, 1959, Tibetan uprising, the tenth anniversary of the 
crackdown in Tiananmen Square on June 4, 1989, and the fiftieth 
anniversary of the founding of the PRC on October 1, 1949.
    Trials of dissidents--and there were many--were neither fair nor 
open. Gao Yu, a prominent journalist accused of leaking state secrets, 
was released from prison early, but like many other released prisoners, 
continued to face a variety of restrictions.
    A prolonged economic slump coupled with illegal and excessive fees 
and taxes fueled unrest and heightened the government's concerns with 
stability. On the political front, President Jiang Zemin's 
determination to bolster the Chinese Communist Party, to placate 
hardliners, and to secure his own place in history contributed to 
heightened intolerance of any organization openly critical of the 
Party's platform or attempting to function outside Party control. 
Individuals and groups suspected of ties to ``hostile'' foreign 
organizations and those disseminating sensitive political information 
overseas were particularly targeted.
    State control of religious affairs in Tibet intensified. Dozens of 
judicial executions were reported from Xinjiang, where some ethnic 
Uighur groups were advocating a separate state; other alleged 
``splittists'' were sentenced to long prison terms. Judicial 
independence and the rule of law in the Special Administrative Region 
(SAR) of Hong Kong were seriously undermined when the SAR government 
asked Beijing to interpret a ruling by the SAR's highest court.
    On the positive side, legal reform efforts continued, although the 
legal system remained highly politicized. Supreme Court President Xiao 
Yang announced in March that in the interests of transparency, trials 
would be open and verdicts quickly made public, except for cases 
involving state secrets. In April, he announced plans to curb 
government interference with the legal process. Chinese judicial and 
legal experts continued to meet with their counterparts in many 
countries in an effort to further the reform process.
    On November 23, 1998, former Premier Li Peng announced that China 
would not tolerate any political system that would ``negate the 
leadership of the Communist Party.'' A month later, three organizers of 
the opposition China Democracy Party (CDP) received heavy sentences. 
Veteran dissident Xu Wenli in Beijing, Qin Yongmin in Hubei province, 
and Wang Youcai in Zhejiang were sentenced to thirteen, twelve, and 
eleven years in prison respectively on charges of subversion. Other CDP 
members were also tried. During the first week of August alone, Zha 
Jianguo and Gao Hongming received nine- and eight-year terms in 
Beijing, and She Wanbao and Liu Xianbin received twelve and thirteen 
years respectively from courts in Sichuan. The following week, two 
Shanghai CDP members, Cai Guihua and Han Lifa, instead of being 
released on schedule, had their terms extended. Some thirty CDP members 
were still in custody as of mid-October, and the crackdown on the CDP 
had extended to some twenty provinces, autonomous regions, and 
municipalities.
    Legal authorities also squashed the China Development Union (CDU), 
a nongovernmental organization committed to environmental and political 
reform. In February, its leader, Peng Ming, was detained for fifteen 
days on a charge of soliciting prostitution. Instead of being released, 
he was then administratively sentenced to an additional term of 
eighteen months.
    Labor and peasant activists also received long sentences. Unrest in 
Hunan province resulted in sentences of up to six years for nine 
peasants who protested the imposition of exorbitant taxes; the arrest 
of Liao Shihua for organizing workers to demand an end to pervasive 
corruption in the province; and two-year terms for six farmers who 
alleged that local elections had been rigged.
    Throughout the year, China repeatedly demonstrated its 
determination to prevent contacts between mainland and overseas 
dissidents and to obstruct information flows. On January 20 the 
Shanghai No.1 Intermediate Court announced a two-year sentence for 
computer entrepreneur Lin Hai for passing some 30,000 e-mail addresses 
to VIP Reference, an overseas dissident publication. Fang Jue, a former 
economic planning official in Fujian province, whose essay on 
democratic reform was published abroad in 1998, was sentenced to a 
four-year prison term in June 1999 on what appeared to be spurious 
fraud charges. In March, a district court sentenced Gao Shaokun, a 
retired police officer, to a two-year term after he told the foreign 
press about a peasant protest; on May 11; a Beijing court sentenced Liu 
Xianli to a four-year term for his attempts to publish a work about 
well-known Chinese dissidents. Song Yongyi, a Dickinson College 
(Pennsylvania) researcher, was detained in August when he returned to 
China on a Chinese passport to continue his research on the Cultural 
Revolution.
    Chinese authorities were clearly concerned about increasing use of 
the Internet. New regulations in January required bars and cafes with 
Internet access to register and inform the police about their business 
operations and customers. In May; the Ministry of State Security 
installed monitoring devices on Internet service providers capable of 
tracking individual e-mail accounts. Special computer task forces began 
round-the-clock checks on bulletin boards. In January; one of those 
bulletin boards, ``Everything Under the Sun,'' was ordered closed for 
posting messages critical of the government. In February; Chinese 
authorities shut down the ``New Wave Network,'' a popular bulletin 
board that featured political discussion. In September; police detained 
Qi Yanchen, a former China Development Union member and a member of the 
China Democracy Party, whose electronic magazine Consultations pushed 
the CDU agenda. In early September, after overseas dissidents hacked 
into the website of the official newspaper, People's Daily, a police 
circular called for a crackdown on all anti-Party and government 
articles on the Internet.
    The government also tightened controls on publishing and the print 
media. On January 1; new regulations required shippers of printed 
material to obtain government permits. President Jiang Zemin personally 
ordered senior officials to prevent the media from undermining the 
fiftieth anniversary celebration. His complaints about the number of 
publications in circulation resulted in a decision to stop issuing any 
publication permits at least through June. In September; the government 
decreed that local newspapers and magazines had to be placed under 
Party management by October 30 or face closure, and it was estimated 
that some 20,000 publications would be closed.
    In September; Chinese authorities banned newsstand sales of special 
editions of Time, Asiaweek, and Newsweek covering fifty years of 
Communist Party rule. Censorship even affected computer games and 
survey research, with authorities confiscating some 10,000 games that 
featured Taiwan repelling a mainland invasion.
    Restraints on religion and belief increased significantly during 
the year. On April 25, ten thousand members of Falung Gong (also known 
as Falun Dafa)--surrounded Zhongnanhai, the Beijing compound housing 
China's top leaders. The peaceful, silent demonstration was to protest 
a newspaper article disparaging Falun Gong. The size of the 
demonstration clearly shocked the government, and while authorities 
took no immediate action, they began a systematic crackdown three 
months later. On July 22 the Ministry of Civil Affairs labeled Falun 
Gong an illegal organization and accused it of spreading 
``superstition'' and ``endangering social stability.'' It banned public 
and private practice and distribution of the organization's literature. 
Police detained thousands of practitioners for reeducation and began to 
confiscate and destroy over one million books. A week later, the 
government issued an arrest warrant for Li Hongzhi, the group's leader, 
who had been living in the U.S. The government put the number of 
practitioners at two million; other estimates run as high as seventy 
million. Alarmed at the number of party members involved, the party 
leadership mounted a full-scale internal ``rectification,'' using the 
opportunity to emphasize the value of Marxism and reinvigorate 
President Jiang's ``three stresses'' campaign to strengthen theoretical 
study, political awareness, and good conduct among Party members. As of 
October; at least three top Falun Gong leaders, Wang Zhiwen, Li Chang 
and Ji Liuwu, were still in custody; and ten managers of printing 
presses in Sichuan and Guangxi were being held for printing Falun Gong 
materials. The Ministry of Justice announced that any lawyer wishing to 
represent a Falun Gong follower must obtain government permission.
    Police detained members of at least three other sects, the Men Tu 
Hui or Disciples, Dongfang Shandian or Eastern Lightning, and a group 
known as God's Religion. The government continued its longstanding 
campaign to force Catholic congregations to register with the Bureau of 
Religious Affairs. The campaign, centered in parts of Zhejiang and 
Hebei provinces with large Catholic populations, was marked by 
detentions, disappearances, ill-treatment, fines, and harassment. A 
series of arrests in Wenzhou, Zhejiang, that continued into September, 
forced some clergy into hiding. In one still unexplained incident, 
Father Yan Weiping, from Hebei, was found dead on a Beijing street on 
May 13. He had been detained that same day while saying Mass. In a 
crackdown in southern Henan province, several prominent house church 
leaders were briefly detained. The raid followed an earlier one in 
central Henan on January 24 when pastor Chu Chang'en and forty-five 
others were detained. In May, three students in China's most 
prestigious Protestant seminary were expelled after protesting the 
government's control of religious affairs.
    Free assembly fared poorly during the year. Police in several 
cities prevented those wishing to publicly commemorate the tenth 
anniversary of the June 4 crackdown from laying wreaths or visiting 
cemeteries. Jiang Qisheng, a student leaders in 1989, was formally 
arrested for calling on people to remember the crackdown with a 
candlelight vigil.
    In a move to ensure order before the October 1 celebration, the 
Beijing city government banned all public gatherings after July 1. 
Police detained or expelled those without papers, legal residence 
permits or permanent incomes. They targeted migrants, beggars, hawkers, 
food vendors, the homeless, the unemployed, the mentally ill, 
prostitutes, and other ``undesirables.'' On September 6; the Public 
Security Bureau notified hostels, hotels, boarding houses, and private 
citizens that they would be penalized for housing illegal migrants. 
Dissidents were under heavy surveillance, their movements restricted, 
and their phone lines cut. Any non-resident wishing to enter Beijing 
needed a detailed letter of introduction.
    The death penalty continued in use, and mass executions were 
common. On September 27; the Guangdong Supreme People's Court declared 
it would hold fifty-seven public rallies to announce 818 sentences. Two 
hundred and thirty-eight prisoners were scheduled to be executed before 
October 1. Executions also took place in Changsha, Hunan province and 
Chongqing, a city formerly part of Sichuan province.
                                 tibet
    At the beginning of the year, authorities announced a three-year 
campaign to free rural Tibetans from the ``negative influence of 
religion,'' and to work against the Dalai Lama's ``splittist'' 
struggle. They continued to deny access to Gendun Choekyi Nyima, the 
ten-year-old boy recognized by the Dalai Lama as the reincarnation of 
the Panchen Lama, the second most important figure in Tibetan Buddhism. 
No one has seen the child or members of his family since 1995 when the 
Chinese government recognized another boy, Gyaltsen Norbu, as the 
reincarnation. On June 17, that boy arrived in Tibet for the first 
time.
    In response to a World Bank proposal to resettle some 58,000 Han 
Chinese and Hui Muslims in a predominately Tibetan and Mongolian area 
in Qinghai province, an Australian, Gabriel Lafitte, an American, Daja 
Meston, and their Tibetan translator, Tsering Dorje, traveled to the 
area to assess for themselves the feelings of residents in the 
resettlement region. State security forces detained all three on August 
15 but released them within two weeks. Lafitte and Meston, who was 
severely injured in an escape attempt, were permitted to leave after 
confessing to wrongdoing.
    During the year, security forces detained Tibetans who openly 
advocated independence. On March 10, the fortieth anniversary of an 
abortive uprising against China, two Tibetan monks, Phuntsok Legmon and 
Namdol, demonstrated in Barkor Square in Lhasa. On July 9 they 
reportedly received three- and four-year sentences respectively, a 
report that Tibetan officials have denied. In a preemptive move, some 
eighty people were detained before March 10. Monks from major 
monasteries could not enter the city, and the Jokhang, the most 
religious site in Tibet, was closed for ``cleaning.''
    Prison conditions in Tibet remained substandard. In February; the 
official Chinese news agency acknowledged that ``quasi-military'' 
training for staff and prisoners had been carried out in Drapchi prison 
``to improve police officers' managerial abilities and enhance 
prisoners' discipline and awareness of the law.'' The use of torture 
continued, sometimes resulting in death. Legshe Tsoglam, a Nalanda monk 
who resisted reeducation, died in April, several days after his release 
from Gutsa Detention Center. A Ganden monk, Ngawang Jinpa, died two 
months after serving his full four-year term, and Norbu, also from 
Nalanda, died almost three years after severe prison beatings damaged 
his kidneys. All three were in their early twenties. Several monks, 
arrested in 1998 for putting photos of the Dalai Lama on the main altar 
in Kirti monastery in Sichuan Province, were sentenced in July and 
August 1999. Ngawang Sangdrol, a twenty-three-year-old nun, severely 
beaten after a protest in Drapchi prison in May 1998, had her original 
three-year sentence extended for the third time for a total of twenty-
one years.
                                xinjiang
    Local authorities, claiming that ``splittist'' elements in the 
region were using terrorist tactics, ordered intensified efforts to 
maintain stability in the run-up to the October 1 anniversary 
celebrations. Executions of so-called ``splittists'' were commonplace, 
as were long prison sentences and public sentencing rallies. In 
January, a court official in Ili prefecture, the scene of massive 
demonstrations and rioting in 1997, confirmed that twenty-nine people, 
all but two of them ethnic Uighurs, had been given the death penalty. 
In July; a court in Nonshishi sentenced another eighteen men to terms 
ranging from ten to fifteen years for, among other things, allegedly 
destroying the Party's religious policy. In an apparent attempt to 
decrease the flow of information overseas, public security officers in 
Urumqi, the capital, seized Rebiya Kadeer, a prominent Uighur 
businesswoman, on August 11 as she was on her way to meet a visiting 
American. She was later charged with trying to transmit information 
across borders. Rebiya Kadeer's husband, a U.S. resident, publicly 
advocates independence and appears regularly on Radio Free Asia and the 
Voice of America. Rebiya, her son, Ablikim Abdyirim, and her secretary, 
Kahriman Abdukirim, remained in prison as of October.
                               hong kong
    This year China took several steps to curtail Hong Kong's autonomy 
and the rule of law. The independence of the courts in the Hong Kong 
Special Administrative Region (SAR) was placed in jeopardy after Chief 
Executive Tung Chee-hwa invited Beijing to intervene in a decision of 
the highest court in Hong Kong, the Court of Final Appeal. Tung 
campaigned against the court's decision on right of abode in Hong Kong 
that would have allowed many more mainland Chinese to reside in the 
S.A.R. (How many more was a matter of intense debate.) Fearing a flood 
of Chinese immigrants, on May 18 Tung invited the Standing Committee of 
China's People's National Congress, as the ultimate authority under 
Hong Kong's constitution, the Basic Law, to overturn the ruling. 
Leading judges and lawyers questioned the political decision of the 
Chief Executive to invite Beijing to intervene. The Standing Committee 
effectively reversed the Court of Final Appeal's decision.
    Municipal councils, the middle tier of elected office in Hong Kong, 
were abolished by Tung this year, in a transparent effort to weaken the 
influence of pro-democracy political parties in Hong Kong.
    Chinese officials barred entry to pro-democracy Hong Kong 
lawmakers. On September 12, Margaret Ng (who was a witness before this 
Committee last July) was prevented from attending a seminar on China's 
constitution. China also interfered with requests for travel to Hong 
Kong, refusing to consider a papal visit because the Vatican and Taiwan 
maintain diplomatic relations. A senior official from Taiwan was 
prevented from attending an academic conference at the University of 
Hong Kong.


  NOMINATION OF ADM. JOSEPH W. PRUEHER, TO BE U.S. AMBASSADOR TO THE 
                       PEOPLE'S REPUBLIC OF CHINA

                              ----------                              


                       THURSDAY, OCTOBER 28, 1999

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met at 10:38 a.m., in room SD-419, Dirksen 
Senate Office Building, Hon. Jesse Helms (chairman of the 
committee) presiding.
    Present: Senators Helms, Lugar, Smith, Thomas, Frist, 
Kerry, Feingold, Wellstone, and Boxer.
    The Chairman. The committee will come to order.
    I am going to forego my opening statement because I see Ted 
Stevens here, and I want him to work on that budget. So, we 
will not keep you.
    But I never saw such an array of friends. Bill Brock is 
here and I told him I want him to say something. There he is.
    [The prepared statement of Senator Helms follows:]

               Prepared Statement of Senator Jesse Helms

    Today the Committee will consider the Administration's nominee to 
serve as the U.S. Ambassador to the People's Republic of China, Admiral 
Joseph Prueher. Admiral Prueher, we welcome you.
    Yesterday, the Committee heard excellent testimony regarding the 
future of U.S.-China relations. I believe a basis was set for today's 
consideration of Admiral Prueher's nomination.
    At the heart of the Committee debate yesterday was the 
consideration of what is likely to challenge the next U.S. Ambassador 
to Beijing; specifically, the question of how the United States can and 
will deal with the People's Republic of China.
    Just about everybody has his or her ideas about that.
    For my part, I look with disfavor upon the policy of engagement, 
certainly as it has been practiced by the Clinton administration. Not 
only has the U.S. debased itself by consistently groveling before the 
Butchers of Beijing; manifestly there has been an ABJECT FAILURE to 
produce any substantive results. In fact, there has been a dismaying 
failure over and over again.
    The brutality of Red China against its own people is as bad as 
ever; for example, the draconian crackdown on the peaceful 
practitioners of Falun Gong and the underground churches.
    Marxism, rather than fading away as the engagement theorists 
predicted, is in full fashion with the typically Bolshevik ``3 
Stresses'' campaign front and center.
    In Hong Kong, those willing to look see that a slow roll is being 
put to the rule of law by Beijing and its lackeys in the Hong Kong 
government.
    Militarily, Red China's doctrine has clearly shifted to an 
unrelenting offensive, characterized by Beijing's mounting purchases 
and indigenous development of advanced fighter aircraft, submarines, 
ships armed with supersonic missiles and the deployment of hundreds of 
ballistic missiles pointed down the throats of our allies on Taiwan. 
And, regrettably, this is happening with the assistance of the Clinton 
administration.
    In the South China Sea, Red China continues its unilateral land 
grabs and fortifications on islands within the boundaries of another 
U.S. ally, the Philippines. Needless to say, this has not elicited even 
a murmur of dissent from the Clinton administration.
    On trade, Red China continues its mercantile ways. This year, the 
U.S. trade deficit is again at record levels; 1999 has also brought 
forth reports that--despite the carte blanche the U.S. gives China in 
the U.S. market--and despite the embarrassing groveling of many U.S. 
corporate CEOs--few U.S. businesses are in fact making money in China.
    Most of all, the communist leaders in Beijing clearly no longer 
have any respect for the United States.
    Last year, after President Clinton declared our relations with Red 
China a strategic partnership, a shiny new hotline was installed so 
that our leaders could consult during a crisis. Last May, a crisis did 
develop, when the Chinese government orchestrated anti-American riots 
all across China, burned down a U.S. diplomatic residence and ransacked 
the U.S. embassy in Beijing.
    As the U.S. Ambassador was imprisoned in his own embassy, President 
Clinton tried to call Jiang Zemin on the hotline, but Jiang Zemin 
didn't even take the call.
    All of which speaks for itself.
    Earlier this month hundreds of corporate CEOs gathered in Shanghai 
to celebrate 50 years of Communism in China. Not content merely to 
sponsor this bash, thus lining the pockets of Chinese Communists, the 
Chairman and CEO of Time-Warner saw fit to present his ``old friend'' 
Jiang Zemin with a statue of Abraham Lincoln. Within hours of this 
frenzy of, what to call it?--bootlicking?--Jiang Zemin repaid his old 
friend from Time-Warner by banning Time magazine from China because the 
current issue of Time Magazine contained an article by the Dalai Lama. 
This was uncontested by Time-Warner and of course, by the Clinton 
administration.
    One wonders what a Teddy Roosevelt might have done under such 
circumstances? Or a Ronald Reagan.
    The U.S. has sunk to low depths indeed in this nation's dealings 
with Red China. I will look forward to hearing Admiral Prueher tell us 
how we can turn this situation around.

    The Chairman. Senator Stevens, if you will proceed with the 
introduction, that will be great.

    STATEMENT OF HON. TED STEVENS, U.S. SENATOR FROM ALASKA

    Senator Stevens. Thank you very much, Mr. Chairman. You are 
right as usual. I do have to leave, so I hope you will excuse 
me right after I make my statement.
    It really is a great pleasure for all of us to be here this 
morning before you, Mr. Chairman. I and these other people are 
here to support the nomination of Admiral Joe Prueher to be the 
U.S. Ambassador to China. I would like to offer a few thoughts 
on this nomination.
    Admiral Prueher served as the Commander-in-Chief of the 
U.S. Pacific Command from 1996 to 1999. Our relationship began 
through that professional association, but my personal respect 
for him has grown over the years that I have known him.
    As you know, Admiral Prueher commanded our Nation's 
military response to the Taiwan Strait crisis in 1996. During 
his tenure, he also reinvigorated our military relationships 
with Japan and on several occasions positioned U.S. forces in 
response to regional events in ways that made them available to 
the President should they have been needed. He looked ahead.
    I can say with the utmost confidence that the security of 
our Nation has always been Admiral Prueher's foremost concern. 
In the capacity that he had as Commander-in-Chief of the 
Pacific, he was charged with overseeing our national interests 
throughout Asia and the total Pacific region. This is something 
that is of great importance to me personally and to which most 
Alaskans pay close attention. I believe that Joe Prueher will 
provide the necessary leadership and oversight for our national 
security in this vital region into the next millennium.
    In my capacity as chairman of the Senate Appropriations 
Committee and as chairman of the Defense Subcommittee, I have 
witnessed firsthand the impact that Admiral Prueher has made in 
promoting regional security and renewed cooperation throughout 
the region. Let me tell you, Jesse, Dan Inouye and I have 
visited with Joe Prueher at least once a year, many times twice 
a year, and often on very short notice on crises that came up 
in the Pacific. He was always ahead of the curve. I have never 
seen an Admiral that was as far ahead of developments as Joe 
Prueher.
    In short, I think he is the right person for our Nation's 
representative to the People's Republic of China. As you know, 
I served there in World War II, and I am delighted that Joe 
Prueher will go there and represent our country.
    I urge your expeditious support of my friend's nomination, 
and I thank you very much.
    The Chairman. Great.
    Senator Inouye.

  STATEMENT OF HON. DANIEL K. INOUYE, U.S. SENATOR FROM HAWAII

    Senator Inouye. Mr. Chairman, I thank you for this honor 
and privilege to say a few words about my good friend.
    The Chairman. Well, it is an honor to have you here this 
morning.
    Senator Inouye. I wish to join my chairman, Ted Stevens, in 
supporting the nomination of Admiral Prueher. Like Ted, I have 
known Admiral Prueher for the time he served as Commander-in-
Chief of the U.S. Pacific Command and also a resident of my 
State.
    Obviously the security of the Asia-Pacific region is 
something that the State of Hawaii considers most important. 
However, in his position as CINCPAC, the security of our Nation 
was Admiral Prueher's foremost concern, as it has been 
throughout his whole career. This was reflected in both his 
words and deeds, and Mr. Chairman, he was an articulate 
advocate of our Nation's military presence in Asia and took 
active steps to resolve issues before they emerged as crises. 
As Chairman Stevens indicated, he was ahead of the curve.
    In his dealings with me and the members of the Senate 
Appropriations Committee, the Admiral was always honest. He was 
always direct and straightforward in his communications, and I 
most respectfully believe that this will be an important 
quality in light of the intensity of this committee's interest 
in the China policy.
    I join my chairman, Ted Stevens, in expressing my utmost 
respect for Admiral Prueher's ability as both a military 
commander and as a statesman. I cannot think of anyone better 
who can better represent our Nation to the People's Republic of 
China than Admiral Joseph Prueher.
    Mr. Chairman and members of the committee, I urge the 
committee to support this nomination. Thank you very much, sir.
    The Chairman. Thank you very much, Senator.
    Now let me see. The Senator from Tennessee, Dr. Frist.

   STATEMENT OF HON. BILL FRIST, U.S. SENATOR FROM TENNESSEE

    Senator Frist. Thank you, Mr. Chairman. It indeed is an 
honor to join my colleagues in the introduction of Admiral 
Prueher to be our Nation's Ambassador to China.
    This is my second opportunity to introduce him to a 
committee of the U.S. Senate and I think that that reflects the 
degree of respect and confidence that this body has in the 
Admiral in terms of his service to the country.
    For 35 years, Admiral Prueher has served this Nation with 
distinction as a naval officer, as we have heard. The first 24 
years of his career were spent in carrier aviation. He is a 
Vietnam veteran, has piloted Navy aircraft in times of crisis 
off of Lebanon and in Iran. As a flag officer, he commanded a 
carrier battle group in the Pacific, commanded the 6th Fleet in 
the Mediterranean Sea, was Vice Chief of Naval Operations, and 
most recently, as has been mentioned, commanded all United 
States forces in the Pacific and Indian Ocean theaters. As we 
all know, this theater is not only the most geographically 
expansive of all of our unified military commands, covering 
half the globe, but it is the most politically and militarily 
challenging as well.
    Mr. Chairman, to be a successful commander of all armed 
forces in the Pacific region at such a critical time for 
America, it required much more than capable management, much 
more than the confidence of the soldiers and the sailors and 
the airmen and the marines who served him and the military 
acumen. It also required a great deal of political and 
diplomatic skill and commitment.
    As a testament to his abilities in that respect, Admiral 
Prueher gained an impeccable reputation as a commander and as a 
statesman among our Japanese, Korean, Thai, Australian, 
Filipino allies with whom he worked daily and with whom he 
markedly strengthened our collective security arrangements 
throughout the region. That level of confidence is reflected in 
the remarkable fact that he was awarded the highest honor given 
to a foreigner by seven nations in the Asia-Pacific.
    I think it is worth pointing out, Mr. Chairman, that China 
was not one of those nations. That relationship was built over 
time, and it is unusual for a foreign military commander as it 
is impressive.
    He traveled to China six times to meet with their 
commanders and officials, including President Jiang. He has 
earned their respect for his strength and honesty, the two 
qualities which undoubtedly are most important in this 
increasingly difficult but monumentally important relationship.
    Mr. Chairman, in closing, I will have to at least add that 
of all people in this room today, I have known Admiral Prueher 
longer than anybody. I will not say how big I was when I first 
met him because it in some way might say something about our 
relative ages, but I was quite small when in high school he was 
the hero, the hero that he represents to all of us today, 
whether it was out on the football field, where he was captain 
of the football team or elected in his high school, which was 
also my high school, as you can tell, as the most popular in 
his class by the peers. I am not sure his wife even knows this. 
He was elected as best looking in our high school.
    Admiral Prueher. I counted the votes.
    Senator Frist. That is right.
    He has been a hero his entire life, representing the very 
best of what a school has to offer, what a community has to 
offer, and what the United States has to offer. The motto at 
our high school was ``gentleman, scholar, athlete,'' and there 
has been nobody that I know who best represents that triad of 
qualities.
    For that reason, I am here once again to recommend for an 
important office of public service, one that I know that he 
will fulfill with the highest of standards, character, and 
integrity.
    Thank you, Mr. Chairman.
    The Chairman. Well, thank you very much.
    Fourth and not least is a gentleman who was a Senator from 
Tennessee when I came here. I learned a lot from him and I, to 
this day, miss him. Bill Brock.

    STATEMENT OF HON. BILL BROCK, FORMER U.S. SENATOR FROM 
                           TENNESSEE

    Mr. Brock. It is mutual, Mr. Chairman, and you do me honor 
by letting me join you on this particularly special day.
    I served, when I was U.S. Trade Representative, all over 
the Pacific and made often the case that there is no way you 
can describe adequately the importance of that part of the 
world to the well-being of the people of the United States. I 
cannot think of an ambassadorial post of greater consequence at 
this moment than this particular one.
    Joe Prueher and I go back in a different way, Bill. His 
mother stayed in my home to baby-sit my children when I was 
running for the U.S. Senate. So, I have a slightly different 
perspective.
    But I did want to say in my conversations with Joe, and 
over the years with others among those who serve us in these 
capacities, I have never had a more thoughtful, interesting, 
and carefully constructed conversation in my life than I did 
with Joe when we were talking about this particular position a 
few months ago. He is someone who really does think large 
thoughts. He has a vision, and I think that is particularly 
needed at this time, given the importance of the relationships 
that we are developing throughout the Pacific region and the 
enormous consequence of China in that region.
    I would conclude by noting for the record, as I would for 
myself and for all of us who have had any success, Joe married 
well above himself. He has a wonderful wife and family and it 
is just a pleasure to be here and endorse his appointment. 
Thank you very much.
    The Chairman. I thank you so much, sir.
    You know, fellows, I am tempted to say, all in favor.
    I guess I better not do that.
    Admiral, you introduce your family. I believe you have some 
here.
    Admiral Prueher. Thank you very much, Senator Helms.
    The Chairman. If she will stand.
    Admiral Prueher. My wife Suzanne.
    The Chairman. I know why they call you lucky now.
    Admiral Prueher. I will skip the Brock family members.
    Our daughter Brooks who works here in Washington for the 
National Trust. Brooks, will you stand up?
    And my niece, Becky Conzelman, who has recently moved here, 
lived in Hawaii also and is living in Annapolis now.
    The Chairman. Very well. You are welcome and thank you for 
coming.
    I am going to save my little remarks until the last.
    Senator Lugar?
    Senator Lugar. No. I just look forward to hearing the 
Admiral.
    Senator Smith. I am just here out of respect and to wish 
him well.
    Senator Thomas. Mr. Chairman, I am going to have to leave. 
So, I do wish to express my gratitude for the Admiral being 
here. He came by and visited some time ago. As chairman of the 
Subcommittee on Asia and the Pacific, I am particularly 
interested in this, of course, and am impressed and look 
forward, frankly, to your being there, Admiral. If we can have 
a strong message for China, work with them, and make it better 
for all of us. I appreciate your being here.
    Senator Wellstone. Admiral, welcome. Why do we not hear 
from the Admiral?
    The Chairman. Very well.
    Russ.
    Senator Feingold. I will wait until the questions. Welcome, 
Admiral.
    The Chairman. All right.
    Yesterday we had one of your predecessors here, and we had 
some visitors during his testimony. But that did not detract 
too much from what he said.
    Do you have a copy of his speech of yesterday? Winston 
Lord.
    Admiral Prueher. Yes, sir. I have read parts of it. I have 
not read the whole speech.
    The Chairman. Did you read the ten commandments?
    Admiral Prueher. I have heard him offer those before, yes, 
sir.
    The Chairman. I suspect he has used those more than once. 
But they are very effective.
    The ten commandments I commend to you, sir. He was very, 
very emphatic in what he said. Of course, all of us have known 
Winston for a long time.
    The committee debate yesterday was the consideration of 
what is likely to challenge you as the next Ambassador to 
Beijing, specifically the question of how the United States can 
and will deal with the People's Republic of China. Just about 
everybody has an opinion about that.
    On my part, I look with disfavor on the policy of 
engagement, and you and I talked on that when you came to see 
us, certainly as it has been practiced. There is nothing 
intended to be partisan about this, but as has been practiced 
by the administration. Not only has, in my judgment, the United 
States debased itself by consistently groveling before the 
butchers of Beijing; manifestly there has been an abject 
failure to produce any substantive results. We have got to 
change that and that is what Winston Lord was saying yesterday.
    The brutality of Red China against its own people I guess 
bothers me more than anything else. Harry Wu has been here a 
number of times and testified about the sale of human organs 
from those executed a few minutes earlier because they were 
politically on the other side.
    So, Marxism is not fading away as the engagement theorists 
had predicted it would.
    In Hong Kong, those willing to look to see that a slow roll 
is being put to the rule of law by Beijing and its lackeys in 
the Hong Kong Government.
    And militarily, Red China's doctrine has clearly shifted to 
an unrelenting offensive, characterized by Beijing's mounting 
purchases and indigenous development of advanced fighter 
aircraft, submarines, and ships armed with supersonic missiles, 
and the deployment of hundreds of ballistic missiles pointed 
down the throats of our allies on Taiwan. And, regrettably, 
Admiral, this is happening with the assistance of this 
administration.
    On trade, Red China continues its mercantile ways.
    And most of all the Communist leaders in Beijing clearly no 
longer have any respect whatsoever for the United States. I 
have talked to various people who have visited, including the 
present Secretary of State.
    But anyway, last year, after President Clinton declared our 
relations with Red China a strategic partnership, a shiny new 
hotline was installed so that our leaders could consult during 
a crisis. Last May, a crisis did develop when the Chinese 
Government orchestrated anti-American riots all across China, 
burned down a U.S. diplomatic residence, and ransacked the U.S. 
Embassy in Beijing.
    As the Ambassador was imprisoned in his own embassy, the 
President tried to call Jiang Zemin--I guess is the way to 
pronounce that--on the hotline, but he did not take the call. 
And I think that speaks for itself.
    So, one wonders what a Teddy Roosevelt would have done 
under such circumstances and, if you will permit me, one 
wonders what a Ronald Reagan would have done.
    The United States has sunk to low depths in this Nation's 
dealings.
    And I am looking forward to hearing your remarks which you 
may begin right now, sir.

   STATEMENT OF ADM. JOSEPH W. PRUEHER, OF TENNESSEE, TO BE 
          AMBASSADOR TO THE PEOPLE'S REPUBLIC OF CHINA

    Admiral Prueher. Thank you, Mr. Chairman. Before I 
commence, I would like to thank the introducers and Senator 
Stevens and Senator Inouye and Senator Frist and hope not to 
dissuade you from some of things they have said by my remarks.
    I am very honored to be here today.
    I have submitted a statement for the record that I would 
like to include, if I may, and summarize it in the interest of 
time.
    The Chairman. Without objection, that will be done, sir.
    Admiral Prueher. Thank you.
    It is an honor for me to be the nominee to represent the 
American people as Ambassador to Beijing.
    As you can tell from some of my past, I am a little more 
accustomed to working in the field than to working here in the 
halls of Washington all the time. In my previous confirmations, 
I have always had to be in uniform, and it is the first time I 
had ever thought about what I was going to wear to a 
confirmation today.
    Then I must admit, from afar as I read about the Senate 
Foreign Relations Committee, I share some apprehension on being 
here with you today, but I am looking forward to it.
    The Chairman. Mrs. Prueher picked out the right tie for you 
this morning.
    Admiral Prueher. Yes, sir, she did. She tries her best in 
my behalf.
    But the real reason is I believe the United States' 
relationship with China, good, bad, or indifferent, is at the 
top or very close to the top of the international challenges 
that our country faces for the next century. The task I think 
will be a very full one. The opportunity to have an impact on 
this relationship, this relationship between the United States 
and China, so important to China, so important to our country, 
and also to the region, is the reason I am here. This 
opportunity to have some impact overrode any other 
considerations in my family's decision to accept the nomination 
for this post.
    Mr. Chairman, as I understand the purpose of this hearing 
today, is that it is for you to decide and for the committee to 
decide on whether to approve Prueher as the person to be the 
hands-on, day-to-day representative of U.S. interests in China 
and can I handle that and will I capably and well advance the 
interests of the United States in China. That is your decision 
to make. I would like to go into a couple of things on what I 
think you get if I am confirmed as nominee.
    First off, you get a citizen who cares for our Nation, who 
cares for its founding principles and its morals. I have 
promoted national security all my time through 39 years total 
of military service, and the last 3, as was pointed out, my 
responsibility and accountability was for our Nation's security 
and our interests in the Asia-Pacific region.
    You get a person that believes that our Nation's security 
rests on the right combination of military, political, and 
economic strength and those foundations.
    You get one who has studied China very hard for the last 
several years, but more important, you get somebody who is 
friends with and has access to a number of people across the 
spectrum who have spent their lives studying and trying to 
understand the issues with China.
    You get a person who believes the correct approach to 
dealing with the China issue is to deal, on one hand, from a 
position of great strength, economic, political, and military 
strength, and then also a respect for some considerable 
challenges which face China as it needs to transition into the 
next century, and also one who tries to anticipate versus react 
to situations that occur, though this is not always possible.
    You get somebody who recognizes the challenge of governance 
and trying to manage change in China as their leadership tries 
to cope with food, clothing, shelter, jobs, energy, and water 
for 1.25 billion people. It is something of a daunting task, 
but who believes that these immense challenges of managing this 
change in no way accommodate either the excuse or the abuse of 
human rights.
    You do get someone who knows several of the Chinese 
leaders. I visited them and have been visited by them. I 
participated in both acrimonious arguments with the Chinese 
leadership and also some constructive discussions, and I have 
always tried to speak in very direct and plain terms so that we 
are not misunderstood.
    There are some other potential characteristics to assess 
about me that I am sure your questions will bring out.
    But foremost, you get somebody that is committed to our 
Nation's national interest and someone who sees that the future 
of a secure Asia and China's role in that is an important U.S. 
interest and is something that needs a lot of work through this 
period.
    Now, the issues between the United States and China, as you 
all know probably far better than I, there are many that just 
beg serious attention. Many of them have come out. You have 
mentioned them, Mr. Chairman. A peaceful resolution of the 
differences between Beijing and Taipei, an improved recognition 
of human rights in China, a reduction in weapons proliferation. 
Some progress has been made. There is a lot more to do. Our 
mistaken and tragic bombing of the embassy in Belgrade is not 
understood by the Chinese. China's response, as you have 
pointed out, where they did not protect and damaged and--one 
can use the term--``ransacked'' both our embassy and two of our 
consulates, one in Shenyang and the other in Chengdu. The terms 
of China's access to the World Trade Organization.
    And a more pragmatic issue is for our U.S. presence and our 
ability to affect this in China is, for those of you who have 
been there have seen the somewhat embarrassing condition, even 
before the attacks on our embassy and our consulates, of both 
our consulate and also the living conditions for the people 
that we ask to go overseas and work for our Nation which need 
improvement. This is something I would like to work on, given 
the chance.
    This is a sampling of some of the issues that are there. 
There are many more, but each of them requires serious, 
intelligent, steady, and unrelenting effort to solve. If 
confirmed, I plan to try to help create foundations for a long-
term resolution of these problems, not band aids and not 
snapshots. I would like to try to improve the tone and the 
content of the dialog between us and China and to do what I can 
to dampen some of the swings that occur in our relationship. 
Without getting accused of clientitis, which most Ambassadors 
do I think, is to try to do my best to assess the Chinese view 
of our positions and assess the Chinese view for our 
decisionmakers.
    I would like to represent all factions of our interaction 
with China, including the business community and agriculture, 
and to try to do my best to serve as a bridge between where we 
are now and the next administration getting their people in 
place.
    I would like to work with the White House, with Secretary 
Albright, with the Foreign Service professionals at the State 
Department, and also to consult regularly with Congress to make 
sure that our dialog is a healthy one and is as accurate as we 
can make it.
    Building on the work of my predecessors in China to try to 
encourage, as much as I can, as many congressional, personal, 
and official visits to China so that people in our country can 
see for themselves what is going on there and make their own 
judgments.
    Of course, like each of you all do every single day, I 
pledge you my utmost effort at this task if I am confirmed.
    Thank you, Mr. Chairman, and I look forward to your 
questions.
    [The prepared statement of Admiral Prueher follows:]

         Prepared Statement of Admiral Joseph W. Prueher (ret.)

    Mr. Chairman, members of the Committee, it is my honor to appear 
before you today as our nation's nominee to be ambassador to the 
People's Republic of China. Like each of you, I am grateful for the 
opportunity to serve.
    Though not diminishing the importance of our other global 
alliances, partnerships, and relationships, I believe that the United 
States' relationship with China is at or near the top of the list of 
international challenges as we enter the next century. There are two 
prospects. On one path, we can have a responsible global neighbor that 
copes with its own daunting challenges and adapts to inevitable change. 
The alternative path is one of enervating confrontation at every turn 
and resulting slower progress on issues of importance to both our 
nations. The chance to have some positive impact on our relationship 
with this burgeoning nation of over one-fifth of the world's population 
is why I am before you today. I hope to do my part, together with all 
branches of government and our private sector, to help create a climate 
that builds on our common interests with China and yields solutions to 
the differences we have between our two nations. This factor overrode 
all others in my family's decision to say yes when asked to accept the 
nomination for this post.
    Mr. Chairman, my understanding of the basic decision before the 
Committee in this hearing is, ``Do we want to approve Prueher to be the 
person who, day-to-day, in a hands-on way, represents our United States 
to the People's Republic of China, and will he advance well our 
interests?'' That question is yours to answer, but here is what I think 
you will get with me:

          1. A citizen dedicated to our nation and its founding ideals 
        and morals, who has nearly 39 years of military service, who 
        has served in combat, and who has always tried to promote our 
        nation's security.
          2. A person who has had the opportunity to lead organizations 
        from small to large.
          3. A person who supports the notion of comprehensive 
        security, that a nation's sense of security comes from the 
        right combination of political, economic, and military 
        underpinnings. As well, someone who thinks the foresight of 
        preventive defense is the most effective way to go.
          4. A person familiar with Asia-Pacific security issues at 
        both a practical and personal level and familiar with many of 
        the Asia-Pacific region's political and military leaders.
          5. One who has studied hard our issues witn China over 
        several years; important too, you get someone who has the 
        benefit of frequent counsel from people who have invested 
        decades trying to understand China's people and their methods.
          6. A person who believes we should deal with China from a 
        position of political, economic, and military strength, 
        balanced by respect for the challenges facing China. A person 
        who recognizes the challenges of governance in providing food, 
        clothing, shelter, jobs, energy, and water for a population of 
        over 1.25 billion people, yet believes immense challenges do 
        not accommodate or excuse abuses of human rights.
          7. Someone who knows several key Chinese leaders and has 
        hosted and been hosted by them. As well, someone who has 
        participated in both acrimonious confrontations and 
        constructive discussions with the People's Liberation Army 
        leadership.
          8. Someone who has not had the benefit of visiting Taiwan. 
        Owing to the timing of this nomination, I declined an 
        invitation to visit the people on Taiwan. Nonetheless, my 
        admiration for their progress and economic and democratic 
        institutions is manifest.
          9. One who is committed to our nation's interests, and who 
        sees a secure Asia, and China's responsible role in it, as 
        being one of those foremost interests.

    Many issues between the United States and China beg serious 
attention. The most complex of these is the peaceful resolution of 
differences between Taipei and Beijing. There is also the core 
importance we attach to respect for human rights, which contrasts with 
documented abuses in many areas and facets of China-ranging from 
political repression to cultural, religious, and ethnic repression in 
Tibet. There is our mistaken and tragic bombing of the Chinese embassy 
in Belgrade and damage done to our embassy and consulates in China by 
Chinese rioters. There also remain some differences over the terms of 
China's accession to the World Trade Organization. This list is but a 
sampling, and these issues must be worked in a steady, unrelenting way.
    Our nation has a long-term, common interest in a stable, secure, 
prosperous Asia-Pacific region in which China is a major, responsible 
player. We and the world need a China that can work with Taiwan to 
resolve cross-Strait differences peacefully, that participates fairly 
in global markets, that produces and consumes manufactured and 
agricultural products, that works cooperatively with us on matters of 
mutual interest. Our nation would like to help China move itself to 
democratic institutions and open markets-both key characteristics of 
successful nations.
    If I am confirmed, I hope to work on these issues, to help create 
the foundations for resolving them, to improve the tone and content of 
the dialogue between our nations, and to be the bridge to the next 
administration. Also, improvement of our embassy and consulate 
facilities and adequate housing for U.S. government employees in China 
will be a high priority. I look forward to consulting with the Congress 
on these issues and, if confirmed, to encouraging both personal and 
Congressional visits to China.
    Thank you, Mr. Chairman. I welcome the Committee's questions.

    The Chairman. Well, I thank you, sir. We are expecting some 
other Senators, so maybe we better have a 5-minute round.
    Mr. Ambassador--I am going to call you that a little 
prematurely, but with assurance that I am right. In an 
interview with Seapower in December 1998, you mentioned four 
threats in the Pacific, including North Korea and 
proliferation, but not China. But if North Korea is a threat 
and proliferation is a threat, then why should we not consider 
China, North Korea's biggest patron over the decades and to 
this day a supplier of weapons and technology to North Korea, a 
threat?
    Admiral Prueher. This is a good question, Mr. Chairman, and 
I think the context of that interview was on things that are 
very near-term threats. Certainly the situation on the Korean 
Peninsula is a great threat to the stability of the Asia-
Pacific region. In assessing the issue of a China threat, it 
was one of the more difficult questions I ended up having to 
answer as CINCPAC, and my determination had to do with near-
term issues and looking at the capability of China in the near 
term to present a threat, and our own assessment and that of 
the Intelligence Committee was that China was not a near-term 
threat.
    One can argue in the longer term it is something that we 
have to watch very carefully, and in my position about dealing 
with strength, as well as understanding, I think that I always 
tried to follow that with we need to keep our powder dry.
    The Chairman. Well, do you consider the security of Taiwan 
to be in the national interest of the United States?
    Admiral Prueher. Absolutely, sir.
    The Chairman. Do you believe Red China poses a threat to 
the security of Taiwan?
    Admiral Prueher. I think the security of Taiwan has been 
brokered by the commitment of the United States and the Taiwan 
Relations Act for 20 years has helped provide security for 
Taiwan. I think the continued security of Taiwan is dependent 
on the continuation of that brokering of security, as well as 
the U.S.-China relationship has an impact. Taiwan has always 
prospered when the U.S.-China relationship was on an upswing 
versus a downswing.
    The Chairman. Well, that relationship involves some 
assurance of support from the United States I think or 
continued support. Do you agree with that?
    Admiral Prueher. Yes, sir, I do.
    The Chairman. When you were the CINCPAC, you were regarded, 
one of your friends mentioned, to be an active promoter of 
closer and more frequent military ties with China. Now, that 
could mean anything. But do you believe that our defense 
relationship with Red China should be more or less robust than 
our defense relationship with democratic Taiwan?
    Admiral Prueher. I think our relationship with China should 
be--in context when--our military relationship with China when 
I came to my job at CINCPAC was zero. We had no contact. When 
the Taiwan Strait crisis came about in March 1996, around the 
time of the Taiwan elections, there was no way of trying to 
preempt or prevent, through a military contact, or to clarify 
and prevent miscalculation. So, in looking at that, we worked 
hard to establish a dialog so that we could prevent 
miscalculation.
    I think in the context of a military relationship with 
China, getting to know each other and prevent miscalculation is 
the objective of that relationship. Our relationship with other 
allies that we have in the world is one of interoperability and 
our relationship with Taiwan, within the bounds of the Taiwan 
Relations Act, is one of support and providing defense 
equipment, which we do.
    The Chairman. Well, I did not mean to spring a difficult 
question on you, but it is one I want you to think about in 
terms of the answer you have given me. Let me phrase the 
question again, as I call on John Kerry. Do you believe that 
our defense relationship with Red China should be more or less 
robust than our relationship with democratic Taiwan?
    Senator Kerry.
    Senator Kerry. Thank you, Mr. Chairman.
    The Chairman. I will ask you about that later.
    Admiral Prueher. Yes, sir.
    Senator Kerry. Good morning, Admiral. Welcome, and thank 
you for taking time to come and visit. I enjoyed the 
conversation and I think we accomplished a lot.
    Admiral Prueher. Thank you, Senator.
    Senator Kerry. Admiral, a lot of us believe that we are not 
getting sufficient return for the good part of our relationship 
with China, even as we understand it is a very complex one. 
Yesterday Ambassador Lord suggested a series of ten 
commandments. I think you have seen that. Among them, we should 
not consider China a strategic partner at this point. They are 
not but they are, nevertheless, a very important player, an 
entity that clearly we need to improve the relationship with.
    Would you share with the committee your sense of what the 
possibilities are for how we better balance engagement with the 
interests we have on human rights, on nonproliferation, and 
other balancing interests that are obviously of enormous 
consequence to us, North Korea, participation in the United 
Nations, and so forth? What is your vision of that balance? And 
do you agree that we, indeed, need to try to show a little more 
progress in the relationship?
    Admiral Prueher. The discussion of engagement with China is 
a subject that is--as I think Senator Helms talked about, 
something else could mean anything to anybody. Engagement is a 
tactic rather than a policy I think, and it is perhaps bounded 
on one end by containment and on the other end by mere dialog. 
I do not think it is either of those things. I think it is the 
range of activity in between.
    In that context, I believe we need to engage China. I think 
we need to engage China in the issue of human rights, which is 
a core of our Declaration of Independence. We hold these truths 
to be self-evident is a core value of the United States. It is 
one that should permeate our foreign policy, and it is one that 
we need to advance at every opportunity as we work with China.
    I think this engagement is the way to move forward. In our 
work with China, I hope we can do it in that light, but we need 
to work the range of activities. The tough issue is to try to 
keep things in the proper balance as China faces the challenges 
of government and of change, of transition that they will go 
through.
    Senator Kerry. What do you think is the most complicated or 
challenging part of the relationship at this point?
    Admiral Prueher. At this point, I think the effort just to 
have straight communications and clear communications and not 
be misinterpreted on either side is perhaps the first order of 
business right now.
    Senator Kerry. Do you believe there is any 
misinterpretation at this point with respect to the 
relationship with Taiwan?
    Admiral Prueher. This comes under constant pressure. I 
thought one of the things in 1996, one of the clarifying issues 
was that it was clear to China that the United States was 
committed to uphold their obligations under the Taiwan 
Relations Act. I think that continues to be true. Looking at 
the range of dialog of things that occur in the media and the 
range of opinions that occur, there is some room for 
misinterpretation on Taiwan. However, I think from the 
administration and from the Congress, the positions have been 
clear.
    Senator Kerry. Let me just understand the last part. You 
said that what has been clear?
    Admiral Prueher. I think our position with respect to 
Taiwan, that we support the Taiwan Relations Act and the 
commitments there, sir.
    Senator Kerry. How extensive would you deem those 
obligations under the Taiwan Act to be?
    Admiral Prueher. Again, this is not my decision to make.
    Senator Kerry. What do you understand them to be?
    Admiral Prueher. An insistence on a peaceful dialog that 
the issue is for the Chinese on both sides of the strait to 
solve. It is their issue and that we insist on that occurring 
with a peaceful dialog.
    The Chairman. Senator Lugar.
    Senator Lugar. Thank you, Mr. Chairman.
    Admiral Prueher, I appreciated the comment in your opening 
statement about your intent to work with the administration and 
the Congress on the improvement of the facilities in our 
embassy in Beijing. I also appreciate likewise your comments on 
the housing for those who will be working with you, and the 
communications in the embassy that you did not mention, but you 
have commented on privately. I think this is critical and will 
characterize your Ambassadorship as a success if you are 
achieving these situations because they recognize the 
importance of our relations with China, and the importance of 
our own people in being effective in that very, very important 
role that they are going to play. So, I just highlight that 
part and indicate that I know there are many of us who will 
support what you request, and we hope that you will give us a 
report of that situation as you find it.
    Admiral Prueher. Thank you, sir.
    Senator Lugar. I am curious what strategy or what ideas you 
may have with regard to how the trade deficit that we now 
suffer with China might improve. Clearly it is a large deficit. 
It has dwarfed that of almost any other country in some months 
recently, and it is not really clear how it is going to change. 
Yet we hear from macroeconomists, leaving aside China, that 
this huge trade deficit that we have as a country is inevitably 
going to affect the value of our currency or our bonds or even 
our prosperity. Have you given thought to that and do you have 
any plan of action?
    Admiral Prueher. Well, sir, I tread in a lot of areas where 
I probably ought not to, but I am not an economist. But I think 
the trade deficit is something that is certainly of great 
concern. Looking at capital markets, which are a lot of 
issues--again, I am treading on fairly thin ice for my 
expertise, but I think a commercially viable WTO is an 
important thing. I have spent a good bit of time with Charlene 
Barshefsky talking about this where she has been educating me 
on the prospects of this, but a commercially viable WTO where 
market access issues are resolved and we level the playing 
field for our business in China goes a long way toward helping 
with the trade deficit. Beyond that, I would have to get back 
after I learn a little more, sir.
    Senator Lugar. Very well.
    Another broad question. Clearly, in NATO we had an 
opportunity for European countries and in a trans-Atlantic way 
with the United States and Canada to work on mutual security. 
Many people point to the role of NATO, as founded, to combat 
the former Soviet Union, but others say it was very important 
to fix Germany and France and those relationships physically in 
Europe.
    In that same context, the Chinese relationship is often 
seen as one of either insecurity or difficulty vis-a-vis Japan 
or India or the Koreas or others. What is your view, from a 
longtime experience in the Pacific, as to the role of the 
United States in providing some type of security arrangement, a 
glue factor, or eventually some type of multinational 
relationship in which these countries find security because of 
American interests across the Pacific?
    Admiral Prueher. That is a full-bodied question, sir.
    I think the climate in Asia from the light of my experience 
is most of the nations do not necessarily have the common bond 
that would cause the amalgam of NATO to occur in the Pacific. I 
think the United States' role--and if one defines stability as 
not static, but providing stable conditions under which people 
can pursue prosperity is what I think about in terms of 
stability--that our role is like that of a flywheel. We 
balance. We provide the assurance of security in Asia. People 
are always concerned, extremely concerned, that the United 
States will withdraw its interests from Asia, and the United 
States has vital interests in Asia. So, our role is one of 
trying to balance the issues and to use our forces and to use 
our diplomatic and economic skills and power to try to be a 
balance.
    Senator Lugar. Thank you.
    The Chairman. Senator Feingold.
    Senator Feingold. Thank you, Mr. Chairman.
    Admiral, I enjoyed your remarks.
    The position to which you have been nominated is obviously 
as challenging as it is important, and I thank you for taking 
it on.
    Admiral Prueher. Thank you, Senator.
    Senator Feingold. As you know, many of us in Congress are 
deeply concerned about U.S. policy toward China, and should you 
become America's Ambassador to the PRC, of course, you can 
expect the substance of your job to be followed closely by me 
and all of my colleagues.
    Given your extensive military experience, I expect that 
many of your preparations to date have focused on security 
issues. I agree that these are of critical importance.
    But I also want to make sure that the grave human rights 
abuses perpetrated in China each day are not treated as 
marginal issues. As the Unitede States pushes for improved 
relations with the PRC, it must keep human rights at the 
forefront of our agenda and do so consistently, as Mr. Lord 
suggested yesterday, in addition to the need for clarity that 
you have mentioned. I look forward to learning more about your 
views today.
    Let me ask you, first of all, the State Department's human 
rights report on China indicates that the economic reform of 
state-owned enterprises has had especially severe consequences 
for women. How do you plan to address that problem?
    Admiral Prueher. First I need to learn some more about it. 
The conversion of the state-owned enterprises I think is a 
daunting task of transition for China, and that particular 
issue of the impact on women I think has--I only know a sketchy 
amount about that. As I learn more, I would like to provide a 
better answer to you. It deserves better consideration than I 
can give it right now, sir.
    Senator Feingold. I would appreciate the opportunity to 
talk to you about it when you get a chance.
    Admiral Prueher. Thank you.
    Senator Feingold. As you know, the U.S. Embassy staff has 
encountered difficulty in gaining access to remote regions of 
China in the past, and that problem has severely restricted our 
capacity to monitor the human rights situation in the country. 
As Ambassador, how would you approach the difficult question of 
human rights monitoring in China?
    Admiral Prueher. The issue of human rights--and in my 
previous job, working on security issues, I was always able to 
retreat after I talked about complex subjects, but I am a 
simple sailor and I keep trying to do that. But I do not find 
it to work anymore.
    But the issue of human rights, as we have talked about, is 
something that is core to our Nation. It is core to our 
interests. It is core to our foreign policy. As we pursue this 
in China, the way I will see myself, when we get there, is the 
senior officer in China responsible for access, reporting, and 
furthering our human rights agenda in China.
    Senator Feingold. Thank you, Admiral.
    Yesterday former Assistant Secretary of State for East Asia 
and Pacific Affairs, Mr. Lord, expressed his concerns about 
increasing self-censorship and limits on judicial independence 
in Hong Kong. Are you concerned about civil and political 
liberties in Hong Kong, and how do you plan to address them as 
Ambassador?
    Admiral Prueher. Since the turnover in 1997, I think we 
have been watching very closely that the special administrative 
region of Hong Kong maintain the status that we understood and 
that China said they were going to grant Hong Kong. We have 
kept our consulate in Hong Kong separate from Beijing in 
furtherance of that, and on a security issue, we have watched 
ship visits, which is an aspect of it. But the legal issues I 
think we need to watch very closely to ensure that the status 
of Hong Kong does not erode. I think this is also very 
important to the reputation for China, as they work with other 
issues that are equally sensitive, on their following through 
on what they said they were going to do.
    Senator Feingold. Let me just recommend to you the answer I 
got yesterday from Winston Lord on some of the specifics of the 
Hong Kong situation. You may already be aware of all these 
things, but I did find it troubling.
    Recently the State Department has designated China as a 
severe violator of religious freedom. What kinds of sanctions 
do you expect to be imposed in response to this finding?
    Admiral Prueher. I have spent some time talking with the 
Secretary who is in charge of that, and the level of 
sanctions--I have not been involved and have not been briefed 
in the sanction process for the religious freedom. We had 
discussions on this and this is a great concern and something 
that I will also look carefully at, if I am confirmed, and will 
report back to you on that.
    Senator Feingold. Thank you, Admiral.
    The Chairman. Senator Boxer.
    Senator Boxer. Thank you so much, Mr. Chairman.
    Admiral, it is nice to see you again and I did enjoy the 
chance we had to talk.
    I have a question on the issue we discussed when we met 
dealing with the World Bank, but before I get to that, I want 
to congratulate you on being introduced by the three Senators: 
Senators Stevens, Inouye, and Brock. One of them is still here, 
Senator Inouye, which is most unusual to have a Senator who has 
a busy schedule sit through a hearing like this. I just want to 
say it goes a long way with me and I think many of us to see 
that kind of in-depth support.
    Admiral Prueher. Thank you, ma'am.
    Senator Boxer. Let me say that I am a believer in engaging 
China and not being an apologist for China. I have a statement 
here. Tell me if it really reflects the way you approach your 
work, that China should not be seen as our ally or our enemy 
and we should not be apologists for China's policies that we 
disagree with. Does that kind of come close to your philosophy?
    Admiral Prueher. Very close.
    Senator Boxer. Why do you think China has reacted as it did 
to the Falun Gong spiritual movement? How do they see that as a 
political threat? It is confusing to me.
    Admiral Prueher. I will try to be as succinct as I can, but 
I think it is a very complex phenomenon. Senator Helms and I 
talked about that a little bit in his offices.
    I think the difficulty of governing in China is large. I 
think the President of China--if you can draw a parallel that I 
have had some academics draw for me, if you had a country the 
size of the United States with almost five times the people and 
80 percent of them lived east of the Mississippi, and we did 
not have enough water for them, that is a little bit of the 
environment of governance that occurs in China.
    I think the firm grip on governance and the issue of 
control is one that maybe makes the leadership feel less secure 
than they might and causes what I would consider and I think 
most of us would consider an adverse or over-reaction to 
possible dissent.
    Senator Boxer. When we spoke, we talked about the World 
Bank and its involvement with China and the fact that they 
agreed to suspend a project called the China Western Poverty 
Reduction Project. That plan called for the relocation of 
60,000 Chinese farmers into Dulan county, a region historically 
inhabited by Tibetan and Mongolian people. With fewer than 
10,000 people living on this land, such a transfer of 
population would overwhelm the indigenous populations and 
amount to a complete cultural occupation.
    Many of us called President Wolfensohn of the World Bank 
and voiced our concerns over this project. And it is being 
reviewed by an independent inspection panel.
    I wonder what your views might be on our support of these 
kinds of projects. Do you have any comments on the World Bank's 
role in China in general?
    Admiral Prueher. As you helped me get educated on that 
topic, our country voted against the World Bank project in the 
first place. The reinvestigation of it to see if that is the 
right way to go by the World Bank is something that I think we 
need to watch with care to make sure--or not to make sure, but 
to seek the right outcome on that. I hope to, if I am 
confirmed, get a chance to visit Qinghai and that part of the 
country fairly early on in order to see that for myself and to 
help form a better opinion on it, Senator.
    Senator Boxer. I see the yellow light on. I have one last 
question.
    The Chairman. Go right ahead.
    Senator Boxer. Thank you so much.
    The Chairman. Sure.
    Senator Boxer. I just wanted to urge you to stay on top of 
that issue because I think it is very important that we stand 
up for the human rights of these indigenous populations.
    Human Rights Watch has asked the administration to get an 
agreement with China to release or review the convictions of 
about 2,000 persons still imprisoned in Tibet on charges of 
counter-revolution. This so-called crime was outlawed by China 
a few years ago. Yet, these people are still in prison.
    Now, I did not forewarn you that I was going to ask you 
this question, so if you do not know the specifics, if you 
could get back to me in writing. But I just hope that our 
embassy will take a greater role in monitoring the human rights 
abuses in Tibet in the future. So, perhaps you could give me 
somewhat of an answer and get back to us later on a fuller 
answer.
    Admiral Prueher. All right. The issue with Tibet is one 
that is of great interest to many people in our country and, in 
fact, worldwide. It is a piece of the overall human rights 
discussion with China. We acknowledge that Tibet is part of 
China, but as we look at the issues there, President Jiang 
Zemin assured President Clinton in 1997 that he would meet with 
the Dalai Lama. I think we need to encourage that and to not 
relent on our interest and intensity in seeing through on this 
issue.
    I will get back to you more specifically on the details of 
it, Senator.
    Senator Boxer. Well, thank you. And I look forward to your 
confirmation.
    Admiral Prueher. Thank you, Senator Boxer.
    Senator Boxer. Thank you, Mr. Chairman, very much.
    The Chairman. Well, thank you, ma'am.
    Mr. Ambassador--I will refer to you that way--in early 1998 
I think it was, we invited Chinese military observers to the 
RIMPAC joint military exercises. Did we invite Taiwan to those?
    Admiral Prueher. No, sir, we did not.
    The Chairman. Well, if someone will put up a placard over 
there that I had prepared. I hope the television gentlemen can 
focus on it.
    On the right, we see Taiwan's largest air base. On the 
left, we have an exact replica of the Taiwan air base, but it 
is in Red China where the Chinese military is practicing 
attacks on Taiwan. Do you see what they have done? They have 
duplicated the air base of Taiwan.
    I just want to know, Admiral, were you aware of that?
    Admiral Prueher. I have--yes, sir.
    The Chairman. That was when you were CINCPAC. Is that 
right?
    Admiral Prueher. Yes, sir.
    The Chairman. Did you have any reaction you want to tell me 
about when you saw that?
    Admiral Prueher. I do not care for it.
    The Chairman. What do you think it says about the nature 
and the intentions of the Chinese, though, toward Taiwan?
    Admiral Prueher. Well, I think it says that the PLA 
prepares for a lot of contingencies. I think it indicates what 
you or I infer your implication is the same. It is a reason 
that we need to be very steadfast in our balance, and as we try 
to proceed in a positive relationship with mainland China, to 
make sure we keep this in balance. As I said before, it is 
something where I think our Nation always--as a military 
person, you always hope for the best and prepare for the worst, 
not unlike a Senate hearing.
    The Chairman. I have closed up my book. I just want to talk 
about what we talked about when you came by the other day.
    I think the American people in general like the Chinese 
people. As everybody knows, 1,000 years ago China had the 
greatest civilization that the world had known. I have been 
dealing with young Chinese students in this country ever since 
I came to the Senate, and they are the most delightful, bright 
young people I have ever seen. I have enjoyed that relationship 
and I hope I will continue to do so.
    As we said yesterday, I think we agreed--it is not much of 
an agreement. It is not a difficult agreement, I will put it 
that way. I just wish that you could convey to the 
administration in Beijing that the American people would like 
to get along with them, and I do not know how to do that. We go 
over. Some of my very good friends have gone over, and they 
have drunk champagne with them and tinkled their glasses and so 
forth, and nothing changes.
    Is it just that they are imbued with communism and they do 
not want to like everybody, they want to control everybody? Or 
is it possible in your mind for there to be built a people-to-
people relationship with the Chinese people?
    Now, I am going to run over just a minute myself.
    One of my best friends and Dot Helms' best friends is Billy 
Graham's wife, Ruth Graham. She was born in China and she loves 
the Chinese people. That is about the only time she fusses at 
me is because I do not appear to like the Beijing 
administration, and she is exactly right about that.
    But perhaps you will have some occasion to build the idea 
of the absolute potential for a great relationship between the 
people in this country and the people in their country.
    One other example. Not so long ago Dot Helms and I had 
dinner with the then Ambassador from Beijing and his wife, a 
delightful man. He had been briefed absolutely because when I 
walked in, he shook hands and he said, I was educated at a 
Baptist college.
    I said, that is good. We have got a good start here.
    But anyhow, we got along fine. I talked to him about this, 
and he agreed thoroughly. I just wonder why it is so difficult 
to get these people to understand that we do not want to be 
belligerent toward them, but neither do we want them kicking 
Taiwan around. As long as I am in the Senate and chairman of 
this committee, I am going to do my best to stand up for 
Taiwan.
    But there is no reason in this world why we cannot work 
something out. That is sort of an ethereal proposition I know, 
but bear it in mind and see if you cannot set it because there 
are a lot of people in this country, officials of this country, 
who would go over and discuss that. I think there is a great 
potential for it, but they are the ones who are constantly 
saying no.
    Senator Boxer.
    Senator Boxer. Well, I want to associate myself with those 
remarks very clearly. We have a tremendous opportunity here. 
These are really good people and there are so many. It is 
difficult to govern. And it may be slow in coming around to the 
democracy that we want, but we should encourage their moving 
toward democracy. I know it is a difficult line that you will 
have to walk. I totally understand that. I know that Jim Sasser 
was faced with that and every administration is faced with 
that. But I am optimistic. People want the same things, and 
they do want their freedom. When the leaders I think understand 
this, it will be much better for the people of China.
    Today there was a story that there is not really great 
leadership happening right now in China. It was a very 
interesting story, Mr. Chairman, in today's Washington Post 
about that. There is not strong leadership. There is doubt. In 
some ways it is good that there is doubt.
    I went to China the first time before Tiananmen, and I was 
appalled by the attitude of the rulers there. It was stunning. 
Their attitude toward the working people, that they would keep 
them down. It was rather amazing. It was many years ago.
    Then I went back. There are some changes. I think some of 
the new leaders see the United States in a different light. 
They come here. Some of them are educated here. They understand 
more about us.
    I think what the chairman is saying to you is a good thing, 
that you are in a position now in this perhaps turning point 
where they can go one direction or another. We certainly hope 
that you will find the strength within to communicate that. It 
is a tough job, but we are really hopeful for you.
    Admiral Prueher. Thank you.
    Senator Boxer. Thank you very much.
    The Chairman. Thank you.
    Well, I am not going to ask any more questions.
    Admiral Prueher. Senator, may I have a chance to comment on 
what you said?
    The Chairman. Well, I was going to say that the best 
speeches I never made are the things I think of when I am 
coming back from having made a speech.
    I was going to ask you to use whatever time you want to add 
to whatever you said.
    Admiral Prueher. Well, my wife would advise me to not say 
anything.
    The Chairman. They are all alike, you know.
    Admiral Prueher. But as usual, I will blunder ahead a 
little farther.
    I think the comment you made about communicating to the 
Chinese the issue we talked about in your office and what you 
have just expressed, what you have just said in public, coming 
from you--and I do not mean to pander to the committee here--I 
think will go a very long way toward helping grow any seeds of 
bonding between the people of the United States and China and 
the people of China. It will go a long way toward helping those 
seeds grow. I think the fact that you have said it here in a 
public forum means a tremendous amount, more than anything I 
might say. So, I thank you for that because I think you have 
made that communication on my part much easier by doing so.
    I also do not want to overplay that hand because you said 
that is on the one hand, and the other we do not kick Taiwan 
around on the other hand.
    The Chairman. That is right.
    Admiral Prueher. And that is very important as well. Both 
of those things are important as we move forward in a steadfast 
way.
    I thank you for the time, sir.
    The Chairman. Well, I thank you for coming.
    Do you have any further comments?
    Senator Boxer. No.
    The Chairman. By the way, the record will be kept open 
until tomorrow night at 6 o'clock for Senators to file 
questions with you in writing, Senators who are tied up in 
other committee meetings.
    Admiral Prueher. Yes, sir.
    The Chairman. But thank you for coming. I think it is 
pretty likely that you will be confirmed. Ma'am, you can go 
home and pack now.
    We stand in recess.
    [Whereupon, at 11:45 a.m., the committee was adjourned.]
                              ----------                              


           Additional Questions and Responses for the Record


  Responses of Admiral Prueher to Pre-Hearing Questions Submitted by 
                             Senator Helms

    Question 1. According to a Reuters story on February 29, 1996, you 
stated, ``The (Chinese military exercises) seem to have abated a little 
bit in the last several days,'' then described the movements as 
``moderate'' in size and said China had every right to conduct the 
drills on its own soil and that ``they seem to be doing so 
responsibly.''
    China's belligerent missile drills just off Taiwan began just days 
after this interview. Did you have bad information in February 1996, or 
do you think, in retrospect, you may have underestimated the Chinese?
    Answer. My comments in the Reuters article referred to exercises 
the People's Liberation Army was conducting in Fujian province at that 
time and their stated follow-on plans to conduct naval exercises at sea 
in international waters. My comments were meant as a signal to the 
nations of the region that Pacific Command was both monitoring and 
analyzing these events with great care.
    My command had good information on the conduct of these exercises. 
I do not believe we underestimated the Chinese capability. Our 
information showed no capability or activity that could support an 
invasion, despite media speculation to the contrary.
    When the PRC announced their plans to launch missiles in the 
vicinity of Taiwan, the PRC exceeded what I considered ``peaceful 
resolution'' of the PRC-Taiwan issue. I immediately contacted Chairman 
of the Joint Chiefs of Staff General Shalikashvili to recommend 
initiating a military response; this ultimately resulted in the 
deployment of aircraft carrier battlegroups to the vicinity of Taiwan.

    Question 2. According to a Reuters story on May 29, 1997, you 
stated that China's pending acquisition of two destroyers armed with 
Sunburn missiles from Russia was a ``matter of interest but not of 
over-concern or alarm for us.''
    According to public reports, these Sunburn missiles are nuclear-
capable, supersonic, have a range of 65 miles, and are specifically 
designed to overcome Aegis-equipped vessels. Why should our sailors, 
and Taiwan's sailors, not worry about this development? Will any 
military adjustment by the U.S. and/or Taiwan be required in response 
to this development?
    Answer. The ships that China plans to acquire are Russian 
Sovremennyy-class destroyers. This ship-class entered service in the 
Soviet Union's fleets in 1981. The United States Navy has already 
developed weapons and tactics for dealing with this ship-class and its 
associated weapons. Thus, the acquisition of two Sovremennyy destroyers 
by China is a matter of interest, but not over-concern or alarm for the 
United States.
    This does not mean that these ships can be ignored. If these ships 
actually become part of the Chinese Navy's inventory, American and 
Taiwan fleet operators will have to account for the capabilities of 
these ships and associated missile systems; they will also have to 
adjust their tactical thinking. We would be required to allocate some 
intelligence assets to track them under certain circumstances and to 
continue assessing their technical and operational capabilities.

    Question 3. Were you supportive of the decision to dispatch the 
carriers to the Taiwan Strait in March 1996? Did you at any time prior 
to the decision express any reservation about the proposal to dispatch 
the carriers?
    Answer. I was not only supportive of President Clinton's and 
Secretary of Defense Perry's decision to dispatch U.S carrier 
battlegroups to the vicinity of Taiwan in March 1996, my command also 
developed the proposal and plan for this deployment and recommended 
executing it. I had no reservations about dispatching the carriers.

    Question 4. In your December 1998 Asian Wall Street Journal piece, 
you wrote that one of the lessons learned from the March 1996 crisis 
was that ``maybe those in the U.S. had perhaps lost sight of the fact 
that the issue of Taiwan is a core sovereignty issue for China.
    Is this passage a reference to Congress' decisive support for 
President Lee's 1995 visa? Do you think this was a mistake? Do you take 
as a lesson then, that we should work with Communist China to restrain 
Taiwan in its desire to secure greater international legitimacy?
    Answer. The passage is not a reference to Congress's support for 
the decision to grant President Lee a visa in 1995. My comments refer 
to my view that the events surrounding the 1996 Taiwan Strait crisis 
had sharpened understanding (my own included) of how serious mainland 
China is about sovereignty with respect to Taiwan. These events also 
reminded China of U.S. commitment to a peaceful resolution of cross-
Strait differences.

    Question 5. While you were CINCPAC, were you privy to any 
information that China was engaged in proliferation activities of any 
sort?
    Answer. I was privy to information provided to me by the Central 
Intelligence Agency and other intelligence organizations. I also had 
access to media reports of Chinese proliferation activities. I was not 
privy to any information beyond what was available to other U.S. 
decision-makers.

    Question 6. If you are confirmed as Ambassador, how will you 
approach the issue of human rights?
    Answer. Human rights are part of our nation's agenda with China. 
They are a core value of the United States and a key element of our 
foreign policy. If confirmed, I will pursue this agenda in a steady, 
steadfast way with the Chinese leadership. I will articulate frankly to 
the Chinese our nation's human rights principles. If confirmed, I will 
hold myself as the senior U.S. official in China responsible and 
accountable for reporting, communicating, and advancing human rights.

    Question 7. Do you believe China's opinion or anticipated reaction 
should be taken into account when the U.S. considers defense sales to 
Taiwan? To your knowledge, has this ever been the case for any defense 
request of Taiwan?
    Answer. The Taiwan Relations Act commits our nation to support a 
peaceful resolution of cross-Strait differences. Sales of defensive 
arms to Taiwan are a key ingredient in this process. The Taiwan 
Relations Act provides that our decisions on arms sales should be based 
on our judgment of Taiwan's needs. China's opinion or anticipated 
reaction should not determine our view of Taiwan's legitimate defense 
needs or our decisions on what defense equipment to sell Taiwan.
    In making our judgement of Taiwan's needs, we should consider the 
regional security environment as well as the impact of a proposed arms 
sale on Taiwan's overall security, i.e., not only its military 
security, but also its political and economic security. In this 
context, we should assess whether providing a certain capability would 
prompt a Chinese response that erodes Taiwan's security and the 
prospects for a peaceful resolution of differences between the two 
sides.
    To my knowledge, China's opinion or anticipated reaction has not 
swayed decisions on arms sales to Taiwan.

    Question 8. According to a March 1999 Army Times article, a Dec. 7 
e-mail written by an Army official complained that you were pressuring 
the Army into granting a Chinese military delegation unprecedented 
access to the National Training Center at Fort Irwin, against the 
wishes of the Army. Is this true? If so, what are the reasons in favor 
of giving the Chinese such access?
    Answer. I recall the potential visit of a People's Liberation Army 
delegation to the National Training Center at Fort Irwin. I do not 
recall having or voicing an opinion one way or another about providing 
access to the Center.

    Question 9. The Defense Authorization bill recently signed into law 
places restrictions on our military-to-military relationship with 
China. If confirmed as Ambassador, how will you interpret and implement 
this law?
    Answer. I have read the provisions in the FY2001 Department of 
Defense Authorization Bill pertaining to military-to-military relations 
with China. If confirmed, I will uphold all the laws of our nation, 
including this one, to the utmost of my ability.

    Question 10. Would you favor an increase in the number of political 
officers in the embassy in Beijing and the U.S. consulates in China to 
report on abuses of religious freedom, political dissent, and other 
violations of human rights? How many officers are currently assigned to 
this task? Is this sufficient?
    Answer. Presently, there are 19 political officers assigned to the 
embassy in Beijing and U.S. consulates in China. Certain officers have 
primary responsibility for this kind of reporting, while for others it 
is a collateral responsibility. Quite often, responsibility for this 
kind of reporting is extended to other officers as the situation in 
China varies over time. Most organizations--and the State Department is 
no different--needs this kind of management flexibility to carry out 
its full range of responsibilities.
    Right now, I simply do not know a good answer to this question. I 
do know that all 19 of the political officer billets in China are 
filled. If I am confirmed, I will be in a better position to assess the 
requirements for political officers after I arrive in Beijing. If I 
come to the conclusion that the current number is insufficient, I would 
support increasing the number of officers with these reporting 
responsibilities.

    Question 11. According to information received by the committee, in 
July 1997 you granted access to a U.S. nuclear submarine to a visiting 
Chinese delegation against the advice of a representative of the 
Pentagon's Office of International Security Affairs. Is this true? If 
so, please inform the committee as to why you felt granting this access 
to the Chinese was necessary. Have the Chinese, either before or after 
this incident, given us access to one of their submarines equal to the 
access you gave them?
    Answer. This issue came up during General Wu Quanxu's visit to 
Pacific Command headquarters. General Wu brought with him one naval 
officer, RADM Zhao Guojun. This presented us with an opportunity to 
expose a flag officer in the People's Liberation Army Navy to the high 
caliber of our nation's submarine fleet and crews. Thus, there were 
some discussions among my staff, the Office of the Secretary of 
Defense, the Joint Staff, and the staff of Commander in Chief U.S. 
Pacific Fleet about Commander in Chief U.S. Pacific Fleet's proposal to 
give RADM Zhao an unclassified tour of USS Dallas. Since a previous 
People's Liberation Army delegation had been given an unclassified tour 
of a U.S. nuclear submarine in March 1997, I supported the proposal. 
The tour was comparable to what one might see on the Discovery Channel.
    The People's Liberation Army Navy has given me similar access to 
one of their diesel submarines (not a new one) and given Commander-in-
Chief U.S. Pacific Fleet and his party access to a nuclear submarine.

    Question 12. According to the Straits Times of April 10, 1996, you 
stated that the U.S. is ``committed to the peaceful reunification 
process'' between China and Taiwan. Is this your understanding of U.S. 
policy?
    Answer. No, this is not my understanding of U.S. policy. The United 
States supports the peaceful resolution of PRC-Taiwan issues. I do not 
recall making this statement though it is possible I did. If I did say 
this, I spoke inaccurately.

    Question 13. Do you believe that any Chinese actions in the 1990s 
have merited U.S. sanctions?
    Answer. Though I personally have never been a part of this decision 
process, our nation has sanctioned Chinese actions several times during 
the 1990's. I believe these are serious matters that deserve serious 
attention, particularly in the areas of religious persecution, human 
rights abuses, and proliferation. In my current status, I am not a 
party to the ongoing reviews of Chinese actions. If confirmed, I hope 
to have a voice in the decisions and would expect to consult with the 
Congress on these matters in the future.

    Question 14. In a question for the record to Kurt Campbell pursuant 
to the Committee's August 4 hearing on the Taiwan Security Enhancement 
Act, the following question was asked: ``Please provide for the 
committee a list of planned military exchanges with Taiwan for 1999, or 
a list of actual exchanges from 1998, in classified form if necessary. 
Please provide this list in a format similar to that of the Pentagon's 
`Game Plan for Sino-U.S. Defense Exchanges' ' that was provided to the 
committee and released publicly in February 1999.''
    Dr. Campbell's response was that the DOD is prepared to brief 
committee staff on this topic at any time.
    Unfortunately, this response is inadequate. Please work with DOD to 
ensure the requested list is delivered to the Committee by the close of 
business Monday, October 25, 1999.
    Answer. I have been in contact with Dr. Campbell's office as well 
as Under Secretary Slocombe's office. I understand that the information 
you have requested has been provided to Mr. Doran on the committee.
                               __________

   Responses of Admiral Prueher to Additional Questions Submitted by 
                            Senator Ashcroft

    Question 1. Senator Bob Smith writes in the Washington Times 
(October 28, 1999) that you ``. . . allegedly ordered deletion of the 
section of the classified U.S. plan for the defense of Taiwan dealing 
with strategic matters . . .'' and that Strategic Command and the Air 
Force objected to this proposed deletion. Did you order the deletion of 
the section of the classified U.S. plan for the defense of Taiwan that 
Senator Smith references? Did any personnel in Strategic Command or the 
Air Force object to your proposed deletion and, if so, what was the 
substance of their objections? While you were Commander-in-Chief, 
Pacific (CINCPAC), did the Chairman of the Joint Chiefs of Staff (JCS) 
transfer Taiwan planning from Pacific Command to the JCS? If so, why 
did he make the transfer?
    Answer. Senator Smith, or his researcher, appears to have been 
given erroneous and partial information. The discussion of this issue 
is simple but should be at a classified level. Senator Ashcroft, since 
we missed the opportunity for a discussion prior to the hearing, I 
recommend that I come see you to discuss these press allegations, 
which, in my view, are extremely misleading.

    Question 2. Have you opposed any arms sales to Taiwan, such as 
Advanced Medium Range Air-to-Air Missiles or submarines? Should the 
United States provide theater missile defense equipment to Taiwan, and, 
if so, under what circumstances?
    Answer. Pacific Command was opposed to the introduction of any 
beyond-visual-range missiles into East Asia, in order to avoid sparking 
a regional arms race and to preclude other nations in the region from 
acquiring Russian missiles of similar capability. With respect to 
theater missile defense equipment for Taiwan, U.S. policy does not 
preclude provision of this equipment should the technology eventually 
be available. I believe that we must meet our obligations under the 
Taiwan Relations Act and look at Taiwan's defense needs in a 
comprehensive way.

    Question 3. Have you opposed direct military communications links 
with Taiwan? Did the lack of such links endanger U.S. forces in the 
Taiwan Strait in March 1996?
    Answer. To my knowledge, there were never any proposals to 
establish direct communications links with Taiwan while I was CINCPAC. 
During the 1996 crisis, I was confident about the communications 
available to me, especially links to our forces in the vicinity of the 
Strait.

    Question 4. Did anyone in the Pentagon object to the tour you gave 
to a Chinese delegation of a U.S. nuclear submarine? Did the tour you 
granted of the submarine undermine U.S. efforts to get reciprocity in 
reviewing Chinese military hardware? In hindsight, do you think 
granting the tour of the U.S. nuclear submarine was the right decision?
    Answer. I was aware of an objection during the staff level 
discussions of this issue. The tour does not appear to have undermined 
U.S. efforts to gain access to Chinese military hardware. If anything, 
in light of the tour of a Chinese diesel submarine given to me and the 
tour of a Chinese nuclear submarine given to Commander-in-Chief U.S. 
Pacific Fleet, the tour for the PLA Navy officers of the U.S. nuclear 
submarine advanced our objectives in this regard. In hindsight, the 
decision to allow a tour of the submarine seems to have been a good 
one.

    Question 5. While CINCPAC, did you decide that no nuclear target 
planners would be assigned to Pacific Command staff and did Strategic 
Command object to this decision? If so, what was the substance of their 
objections?
    Answer. The issue was how best to coordinate the nuclear weapons 
responsibilities of Pacific Command and Strategic Command. I was in 
frequent contact with Commander-in-Chief Strategic Command on this 
issue; the solution we worked out by mutual agreement was to have a 
full-time nuclear command-and-control cell at Pacific Command and a 
cadre of planning specialists at Strategic Command who would be 
available to deploy to Pacific Command. This arrangement made the most 
sense in light of available manpower.

    Question 6. Under what circumstances do you think the United States 
should defend Taiwan if attacked by China?
    Answer. The U.S. policy is clearly expressed in the Taiwan 
Relations Act that we would consider any effort to determine the future 
of Taiwan by other than peaceful means, including by boycotts or 
embargoes, a matter of grave concern. As stipulated by the TRA, the 
President and Congress shall determine in accordance with 
constitutional processes appropriate action by the United States in 
response to any such danger. I support this policy.

    Question 7. What are China's strategic interests and objectives in 
East and South Asia? Do you view China's efforts to extend its 
influence in the South China Sea with concern, and how should the 
United States ensure that our security interests in this area are 
protected?
    Answer. As I understand them, China's stated strategic interests 
and objectives in East and South Asia include: maintaining sovereignty 
over territorial claims; precluding emergence of a regional hegemon; 
restraining a regional arms race, especially in South Asia; maintaining 
a nuclear-free Korean Peninsula; and maintaining access to markets that 
provide energy, food, and vital trade.
    New construction on the part of China and other countries in the 
South China Sea are a concern insofar as they complicate efforts to 
resolve competing claims peacefully and raise tensions in the region. 
So far, they have not undermined freedom of navigation, a core U.S. 
interest. I was particularly concerned about this issue during the 
hiatus in the U.S.-Philippine defense relationship, owing to the lack 
of a Visiting Forces Agreement. In response to this concern as CINCPAC, 
I directed an increase in the visibility and activity of ship transits 
through this region. The United States must continue to monitor this 
issue carefully.

    Question 8. Do you favor aggressively pursuing national and theater 
missile defense programs to counter North Korea's missile programs? 
Will you advocate close cooperation with Japan on theater missile 
defense in spite of Chinese objections?
    Answer. I support theater missile defense wherever we have 
soldiers, sailors, airmen, and Marines deployed and vulnerable to 
missile attack. My view is not specific solely to Asia.
    I believe our cooperation with Japan on theater missile defense is 
presently at the right level. In my discussions with the Chinese, I had 
made the point that theater missile defense is in response to 
threatening missiles. A lack of threat would diminish the need for TMD.
                                 ______
                                 

   Responses of Admiral Prueher to Additional Questions Submitted by 
                            Senator Feingold

    Question 1. The State Department's Human Rights Report on China 
indicates that the economic reform of state-owned enterprises has had 
especially severe consequences for women. How do you plan to address 
this problem?
    Answer. In addition to what was noted on this subject in the State 
Department's 1998 Country Report on Human Rights, a December 1998 Asian 
Development Bank report sustains this view. I intend to do my part to 
help bring China into the World Trade Organization and to promote other 
ways to enhance economic growth that would improve the well-being of 
women in China.

    Question 2. Recently, the State Department has designated China as 
a severe violator of religious freedom. What kinds of sanctions do you 
expect to be imposed in response to this finding?
    Answer. As a result of the Tiananmen Square massacre, Congress 
enacted legislation restricting U.S. exports and assistance to China, 
including restrictions on the export of crime control and detection 
equipment. The Secretary of State has designated these existing 
sanctions as satisfying the requirements of the International Religious 
Freedom Act.
                                 ______
                                 

   Responses of Admiral Prueher to Additional Questions Submitted by 
                             Senator Helms

    Question 1. According to a member of your delegation, the PRC 
Ministry of Defense described your December, 1997 visit to China as 
enjoying the broadest access ever accorded to a visiting military 
official on any one trip. Why do think the Chinese selected you for 
this access?
    Answer. I do not know for a fact that this statement is correct. In 
any event, I think I was given access in part because Pacific Command 
and American Embassy Beijing pressed this issue very hard with the 
Chinese. Pacific Command's communications with the People's Liberation 
Army, though sometimes adversarial and sometimes productive, have 
always been direct and candid.

    Question 2. Some analysts assert that diplomacy alone may not be 
sufficient to counter the Chinese missile threat to Taiwan because 
missiles are so integral to China's military modernization objectives. 
What is your assessment of this, and if confirmed as Ambassador, how do 
you propose to confront the problem of Red China's massive buildup 
opposite Taiwan?
    Answer. In any potential military situation, I would not want to 
count on diplomacy alone. For example, forward-deployed military forces 
working in concert with diplomacy and economics are a much more 
effective means of accomplishing national security objectives than 
diplomacy alone. If confirmed, U.S. national security interests will 
remain among my top concerns and I will look for ways to reduce PRC-
Taiwan tensions, including cross-Strait dialogue and reducing the 
number of missiles opposite Taiwan.

    Question 3. Is it your view that China is a cooperative partner 
with the U.S. in restraining North Korea? Can you provide examples of 
Chinese cooperation on the North Korean issue?
    Answer. China does not coordinate its policies with the United 
States in this regard. However, restraining North Korea is strongly in 
their interest. China has told us that they favor our efforts to 
encourage North Korea not to engage in provocative actions and to bring 
about a peaceful, non-nuclear Korean Peninsula. Although China has been 
increasingly communicative about its contacts with the DPRK, they do 
not report on the contents of these discussions. The PRC cooperates 
well with the U.S. in the Four Party Talks.

    Question 4. While you were CINCPAC, in October 1998, China moved 
aggressively to fortify its structures on Mischief Reef, which lies 
within Philippine maritime boundaries. During this time, did you have 
any dialogue with the Chinese about this matter? What did you tell 
them? Did you have any dialogue with the Filipinos about this matter? 
What did you tell them?
    Answer. I did have a dialogue on this subject with General Acedera, 
at the time the Chief of Staff of the Armed Forces of the Philippines. 
I told General Acedera that I lacked much latitude to work with the 
Philippine Armed Forces owing to the lack of a Visiting Forces 
Agreement. However, I directed an increase in the visibility and 
activity of U.S. military ship transits through the South China Sea and 
arranged for a channel of exchanging information with the Philippine 
Armed Forces. On at least two occasions I reiterated our U.S. policy to 
Chinese delegations, although these were not calls in response to 
specific acts.

    Question 5. What do you think the Chinese are pursuing on Mischief 
Reef? Do you think this situation requires an increased emphasis on 
repairing the U.S. Philippine alliance?
    Answer. The Chinese appear to be improving their ability to assert 
sovereignty over Mischief Reef. Reinvigorating the U.S.-Philippine 
alliance is a good idea, period. The Mischief Reef situation highlights 
the need to enhance that relationship.

    Question 6. What is the nature of Chinese military cooperation with 
and activity in Burma and Cambodia? Do you think it is possible that 
China is attempting to flank the Strait of Malacca? If you are 
confirmed as Ambassador, will you pressure China to cease its support 
for these unsavory regimes?
    Answer. Though it is possible, I do not recall seeing evidence of 
China's intent to flank this vital strait, either from own sources or 
from nations flanking the Strait. China's growing activity with Burma 
and Cambodia is not usually in our interest and I shall look for 
effective ways to discourage it, if I am confirmed.

    Question 7. The Defense Appropriations bill for FY 2000 provides 
$10 million for the U.S. Pacific Command to enhance regional 
cooperation, military readiness and exercises. As former CINCPAC, how 
do you think that money ought to be used?
    Answer. CINCPAC has a well-vetted plan for enhancing regional 
cooperation and maintaining military readiness. I cannot easily add to 
this effort.

    Question 8. Do you believe the U.S. should take the lead in 
multilateral forums, such as the UN Commission on Human Rights in 
Geneva, to sponsor a resolution critical of China's human rights 
record?
    Answer. The United States has consistently taken a lead role in 
multilateral diplomacy to keep the spotlight on China's human rights 
record and to urge the Chinese authorities to respect the human rights 
of Chinese citizens. We have worked with other governments each year at 
the UNHCR in Geneva, at times sponsoring a resolution on China's human 
rights record, and at other times supporting such a resolution 
sponsored by likeminded countries. This year, the United States 
government will continue those efforts, in consultation with other 
concerned governments.

    Question 9. Could you describe the role of the People's Liberation 
Army and People's Armed Police in maintaining tight government control 
in Tibet and Xinjiang? What steps could the U.S. take to open up 
China's ethnic minority regions to greater outside access by 
journalists, diplomats, and human rights monitors?
    Answer. China stations People's Liberation Army units in Tibet and 
Xinjiang, as in other outlying regions, for military defense. My 
understanding, however, is that the main instruments of control over 
local populations are provincial and local public security bureaus 
which oversee the police. It is these bureaus and police that are 
usually associated with repressive actions, although the military have 
been called in during crises.
    The United States has long urged China to open access to Tibet, 
Xinjiang, and other minority areas to journalists, NGO's and others. In 
1998-99, foreigners, including international NGO personnel, have 
experienced fewer restrictions on access to Tibet than in 1997, and 
several official delegations traveled to Tibet to discuss human rights 
issues, although the Government tightly controlled these visits. The 
U.S. government will continue to work with other governments and 
multilateral organizations for improved access to Tibet and Xinjiang.

    Question 10. How should the U.S. respond to the intensified 
``patriotic education campaign'' in Tibetan monasteries in the past 
year, leading to the expulsion of Dalai Lama supporters?
    Answer. Secretary Albright, Assistant Secretary Koh, and ranking 
U.S. officials in Beijing have raised with Chinese officials the human 
rights situation in Tibet, including concerns about intensification of 
the ``reeducation'' campaign in Tibet's monasteries, the treatment of 
political and religious prisoners, and the campaign against the Dalai 
Lama. We have also raised cases of imprisoned Tibetans, requesting that 
they be released, and asked that an international observer be granted 
access to Gendun Choekyi Nyima, the boy recognized by the Dalai Lama as 
the Panchen Lama, to verify his whereabouts and well being. We will 
continue to vigorously press at both high levels and working levels 
against repression in Tibet.

    Question 11. Is there anything to be gained from the bilateral 
U.S.-China human rights dialogue, which Beijing suspended in May after 
the Belgrade embassy bombing? How could these dialogue meetings--
underway since 1990--be restructured to make them more useful?
    Answer. This question deserves a better answer, which I will be 
able to provide, if confirmed, after I have been able to see firsthand 
the status of the dialogue. In the past, we have used the dialogue as a 
channel to secure information on political prisoners and sometimes to 
get them released. Without dialogue, progress in these areas is 
minimal. One area in which restructured dialogue would be particularly 
useful is religious freedom. Under the International Religious Freedom 
Act, Secretary Albright has designated China as a country of particular 
concern for violating religious freedom. The time may be ripe for talks 
about positive steps and systemic changes needed to enhance religious 
freedom. Specific issues that need to be addressed include reforming 
the registration process to enable ``underground'' and ``house'' 
churches to operate more openly; permitting manifestation of faith 
(such as belief in the Second Coming); and generally restraining 
governmental intervention in the substance of religious belief and 
activity.

    Question 12. What should the U.S. position be on the banning of the 
Falun Gong movement in China, the detention of its members, and the 
expected trials of some of them on charges of subversion?
    Answer. The crackdown on the Falun Gong in July is a violation of 
international human rights standards as set forth in human rights 
instruments, including the International Covenant on Civil and 
Political Rights China has signed. While the United States government 
takes no position on the substance of Falun Gong beliefs, I am not 
aware of any evidence that practitioners have done anything other than 
peacefully exercise their rights. We will continue to urge China to 
exercise restraint, lift the ban on Falun Gong and allow practitioners 
to peacefully express their personal beliefs, and release all those who 
have been detained for peacefully exercising their rights.

    Question 13. What efforts can the U.S. undertake, bilaterally or 
with other governments, to press China to do away with its huge system 
of reeducation through labor?
    Answer. The United States government has pressed the Chinese 
authorities to end the abuses associated with China's ``reeducation 
through labor'' camps--the so-called laogai system. Such practices have 
no place in any internationally responsible nation. The U.S. Government 
has addressed these issues repeatedly and vigorously in the annual 
State Department Human Rights Report for China, in bilateral talks with 
the Chinese Government, and in multilateral forums such as the UNHCR in 
Geneva. We will continue to press the Chinese authorities to end the 
abuses characterizing the laogai system.

    Question 14. Do you think the President should visit China again 
before his term ends, and if so, under what conditions would such a 
visit be worth considering?
    Answer. If confirmed, I will be in a better position to answer this 
question once I have had an opportunity to assess the situation in 
Beijing.

    Question 15. In an interview with Sea Power in December 1998, you 
stated that strict reciprocity with the Chinese in military exchanges 
was not necessary. Why do you believe this?
    Answer. I believe the United States currently enjoys overwhelming 
superiority in conventional weaponry relative to the rest of the world 
and that one of the primary purposes of military exchanges with the 
Chinese is to prevent miscalculation. For that reason, it is not 
necessary to maintain an exactly equal ledger sheet for each visit or 
minor exchange with the People's Liberation Army.

    Question 16. Do you think it is proper for the World Bank or other 
IFI's to be funding Chinese government projects that will have the 
effect of reducing the Tibetan population in historically Tibetan 
regions?
    Answer. As I understand it, the USG--as a matter of law and 
policy--opposes all IFI loans to China except those defined as meeting 
``basic human needs.'' Though the China Western Poverty Reduction 
Project may address basic human needs, the U.S. Executive Director 
voted against it when it was presented to the World Bank's Board of 
Directors in June and strongly supported an independent investigation 
of the project. I am briefed that the World Bank did not perform a 
thorough assessment of the project's potential impact on the indigenous 
peoples and environment of the project area, thus not complying with 
its own guidelines or rules.
    I am encouraged to see the World Bank's Inspection Panel has 
returned from Qinghai and look forward to reviewing the report about 
whether the Bank has fulfilled its obligations on this project.

    Question 17. Should China gain entry into the WTO yet continue its 
current mercantile practises? How do you think we should respond? In 
such a case, will you, if confirmed as Ambassador, lobby for vigorous 
multilateral sanctions against China?
    Answer. China's accession to the WTO under commercially viable 
conditions will lead to greater market access for U.S. goods and 
services--especially telecommunication and financial services--
throughout China. As China's trade system becomes increasingly more 
open and transparent, and more in line with international rules and 
standards, I believe one outcome is that U.S. businesses and 
agricultural interests will be able to win their fair share of 
contracts, establish a reputation for quality and reliability, and, 
reduce America's deficit with the PRC. I am committed to achieving a 
level playing field for U.S. business and agricultural interests.
    We do have recourse if China does not abide by its WTO commitments 
or global trading rules. The U.S. and other WTO members will be able to 
take China to WTO dispute resolution. If China did not comply with a 
ruling against it, the WTO could authorize sanctions. Industry 
representatives value access to multilateral dispute resolution 
precisely because it has helped lower foreign trade barriers. In 
addition, countries have generally been more willing to comply with 
multilateral dispute resolution decisions than with unilaterally 
imposed sanctions. We will not hesitate to make use of the WTO dispute 
resolution mechanism to rectify any Chinese behavior that discriminates 
against U.S. interests.
    If confirmed, I plan to be increasingly informed on measures, not 
simply sanctions, to achieve fair market access.

    Question 18. In your answer to a previous question, you stated that 
the U.S. Navy has already developed weapons and tactics for dealing 
with the Russian Sovremennyy destroyers and Sunburn missiles. Which 
weapons systems are those? (A classified response is acceptable if 
necessary.) Can the Phalanx system shoot down the Sunburn? What point 
defense against the Sunburn does Taiwan's Navy have? Do they have the 
Phalanx?
    Answer. Nimitz-class aircraft carriers and embarked airwings, Los 
Angeles-class attack submarines, Tomahawk Anti-Ship Missiles, Mk-48 
torpedoes, Harpoon missiles, the SPY-1 radar, and the Standard Missile-
2, electronic locating data, over-the-horizon targeting, and below-the-
radar-horizon missile launches are among the weapons and tactics for 
dealing with Sovremennyy class destroyers.
    Under some circumstances, it is possible for the Phalanx to shoot 
down the Sunburn. Many of Taiwan's surface combatants are armed with 
the Phalanx.

    Question 19. Do you think that providing a visa to Taiwan President 
Lee in 1995 was a mistake? Please provide a yes or no answer.
    Answer. I understand why the Administration thought it was 
appropriate at the time to issue the visa. With the benefit of 
hindsight, my opinion is Lee Teng-hui made a mistake in pursuing parts 
of his visit because it increased cross-Strait tensions, hurt Taiwan's 
economy, and eroded Taiwan's security.

    Question 20. [Classified].

    Question 21. Do you believe that the Six Assurances of 1982 are and 
should remain U.S. policy?
    Answer. I agree with the Administration's reaffirmation of the 
principles articulated by then Assistant Secretary Holdridge in his 
1982 testimony to the House Foreign Affairs Committee. I believe that 
these principles should remain U.S. policy.

    Question 22. His Holiness the Dalai Lama's message has for years 
been the same: that he wants to establish real substantive dialogue 
with the goverment of China, yet they refuse. How, as Ambassador, will 
you press the Chinese government to engage the Dalai Lama?
    Answer. The Dalai Lama has indicated his interest in a dialogue 
with the Chinese Government to resolve issues of human rights and 
cultural preservation; most recently, in Milan, Italy, he reiterated 
that his objective was to discuss with China's leaders real, genuine 
autonomy for Tibet within the Chinese state. The U.S. has actively 
promoted such a substantive, direct dialogue between the Chinese 
Government, and the Dalai Lama or his representatives, but China has 
not recently indicated an interest in such a dialogue. If confirmed as 
Ambassador by the Senate, I will address with the Chinese authorities 
our strong interest in their initiating discussion with the Dalai Lama 
on the core issues of Tibet's status, to try to reach a acceptable 
resolution of these issues.

    Question 23. Within the past twelve months, has there been any 
indication, no matter how slight, that Chinese individuals or companies 
have exported any product or technology to Pakistan or any country on 
the terrorism list, which would enhance their weapons of mass 
destruction (WMD), or missile programs? If so, please provide details.
    Answer. I am not personally aware of any information to this 
effect. However, I have been briefed as part of my preparations for 
confirmation that this is an area that the State Department and 
intelligence agencies are examining closely. I understand that these 
agencies have provided or are prepared to provide appropriate 
briefings.
    If confirmed, I will treat with utmost seriousness any reports of 
Chinese exports of products or technology to Pakistan or any other 
country on the terrorism list that would enhance their WMD or missile 
programs.

    Question 24. Within the past twelve months, has there been any 
indication, no matter how slight, that Chinese individuals or companies 
have been present in Iran, Syria, Libya, or Pakistan providing any sort 
of cooperation, assistance or guidance to their weapons of mass 
destruction or missile programs? If so, please provide details.
    Answer. I am not personally aware of any information to this 
effect. However, I have been briefed as part of my preparations for 
confirmation that this is an area that the State Department and 
intelligence agencies are examining closely. I understand that these 
agencies have provided or are prepared to provide appropriate 
briefings.
    If confirmed, I will treat with utmost seriousness any reports of 
Chinese entities providing any assistance, cooperation or guidance of 
this kind to Iran, Syria, Libya, or Pakistan.

    Question 25. Within the past twelve months, has there been any 
indication, no matter how slight, that Chinese individuals or companies 
have been assisting or cooperating with a Cuban chemical or biological 
weapons program? If so, please provide details.
    Answer. There is no indication of which I am aware that such 
cooperation is occurring. China's relationship with Cuba, particularly 
the potential for cooperation in areas of concern to the United States, 
will be an issue I will monitor closely. This concern will be reflected 
in post reporting.

    Question 26. Within the past twelve months, has there been any 
indication, no matter how slight, that Cuba and the PRC are cooperating 
on intelligence gathering, including Signals Intelligence, directed 
against the United States or its citizens? If so, please provide 
details.
    Answer. I am not aware of any such cooperation. China's 
relationship with Cuba, particularly the potential for cooperation in 
areas of concern to the United States, will be an issue I will monitor 
closely. This concern will also be reflected in post reporting.

    Question 27. Within the past twelve months, has there been any 
indication, no matter how slight, that the military regime in Burma and 
the PRC are cooperating on intelligence gathering, including Signals 
Intelligence? If so, please provide details.
    Answer. I am not personally aware of any information to this 
effect. However, I have been briefed as part of my preparations for 
confirmation that this is an area that the State Department and 
intelligence agencies are examining closely. I understand that these 
agencies have provided or are prepared to provide appropriate 
briefings.
    If confirmed, I will treat with utmost seriousness any reports of 
Chinese military cooperation or intelligence gathering with Burma.

    Question 28. What is your estimate of the dollar value of the 
military supplies delivered by the PRC to the military regime in Burma 
since 1989? Is the Burmese regime paying for these arms with the 
receipts of its narcotics trafficking or the grant of special 
privileges to the PRC, including military bases on Burmese soil?
    Answer. The Burmese regime the State Peace and Development Council 
(SPDC), closely guards information on its military spending. The dollar 
value of PRC-sourced military supplies is not known to me and revenue 
sources for such procurement would be, at best, speculative on my part.

    Question 29. Within the past twelve months, has there been any 
indication, no matter how slight, that Chinese individuals or companies 
are assisting the WMD or missile programs in North Korea by serving as 
conduits for Western goods or technology to Pakistan or any country on 
the terrorism list? If so, please provide details.
    Answer. I am not personally aware of any information to this 
effect. However, I have been briefed as part of my preparations for 
confirmation that this is an area that the State Department and 
intelligence agencies are examining closely. I understand that these 
agencies have provided or are prepared to provide appropriate 
briefings.
    If confirmed, I will treat with utmost seriousness any reports of 
Chinese assistance to WMD or missile programs in North Korea or 
Pakistan, or any country on the terrorism list.

    Question 30. Within the past twelve months, has there been any 
indication, no matter how slight, that Chinese individuals or companies 
have used North Korea as a transshipment point for any WMD or missile-
related goods or technology destined for Pakistan or any country on the 
terrorism list? If so, please provide details.
    Answer. I am not personally aware of any information to this 
effect. However, I have been briefed as part of my preparations for 
confirmation that this is an area that the State Department and 
intelligence agencies are examining closely. I understand that these 
agencies have provided or are prepared to provide appropriate 
briefings.
    If confirmed, I will treat with utmost seriousness any reports of 
Chinese entities using North Korea as a transshipment point for WMD or 
missile related goods or technology destined for Pakistan or any 
country on the terrorism list.

    Question 31. While you were CINCPAC, you were known as an active 
promoter of close and more frequent military ties with China. Do you 
believe that our defense relationship with Red China should be more, or 
less, robust than our defense relationship with democratic Taiwan? 
Please answer this with a yes or no.
    Answer. I want to be responsive, but am unable to give a simple yes 
or no because our military relationships with the PRC and with Taiwan 
are inherently different.
    With respect to Taiwan, our relationship mainly involves providing 
equipment and training that meet Taiwan's defense needs.
    With respect to the PRC, our relationship is not one of military 
equipment and training but rather one of dialogue and exchanges so that 
we can better understand each other's capabilities and avoid any 
miscalculation. The military interactions are a clear subset of our 
overall relationship, but these interactions can improve our ability to 
influence China's activity.

    Question 32. In your December, 1998 Asian Wall Street Journal 
piece, you noted your agreement with Red Chinese leader Jiang Zemin 
that there must be understanding between nations before there can be 
trust. Is it your view that a lack of understanding and communication 
is at the heart of our disagreements with China, or do you think that 
the communist ideology and methods of the Chinese government have 
anything to do with it?
    Answer. Our different values and forms of government are the 
foundation of our disagreements with the PRC. The point I tried to make 
in the article is that improved communications can lead to 
understanding, and potentially a modicum of trust; such an atmosphere 
would gives us potential to grapple with our disagreements.

    Question 33. Again quoting from your Wall Street Journal article, 
you wrote that, ``There's an awful lot of ignorance in the U.S. about 
the difficulties of governance in China,'' given its size, etc., and 
that ``our nation needs to understand this.'' Is this to say that there 
is no way to govern a nation of 1 billion people other than Communist 
dictatorship?
    Answer. Not at all. I noted the challenges of providing food, 
clothing, shelter, jobs, energy, and water for 1.25 billion people. As 
we encourage a positive transition to open markets, democratic 
principles, and respect for human rights in China, these challenges to 
governance will impact the pace at which change can occur, owing to the 
inertia of size and difficulty of effecting change.

    Question 34. If you are confirmed as Ambassador, will you insist on 
the release of political prisoners, the granting of religious freedom, 
and true autonomy for Tibet as conditions for a genuine partnership 
with China? If not, please explain why this would not be in our 
interest?
    Answer. If confirmed as Ambassador to China, I will raise with 
Chinese leaders, in the most effective way I can, the issues of 
political prisoners, religious freedom, and true autonomy for Tibet. 
Freedom of political and religious expression, and the right to one's 
cultural identity, are core values of the American people. I will 
express those values strongly and clearly to the Chinese leadership. I 
will try to help them understand that constraints on freedom--whether 
the incarceration of persons for peaceful political activity, the 
limits placed on freedom of religion and conscience, or the constraints 
imposed on the religious, cultural, and linguistic autonomy of the 
Tibetan people--truly limit the nature of the United States-China 
relationship that is so important to the Asia-Pacific region.

    Question 35. If you are confirmed as Ambassador, will you insist 
that the Chinese reimburse us for the damage they purposely did to our 
embassy and consulates in China, before or in tandem with any 
reimbursement we make for their embassy in Belgrade?
    Answer. We have made it very clear to the Chinese, that any 
resolution to their claim for damages to their Belgrade embassy must be 
concurrent with a resolution to our own claims. I agree with this 
position.
    As I understand it, parallel negotiations for payments for damages 
done to our respective diplomatic facilities are ongoing. Our last 
discussions with the Chinese took place on October 20-21 in Beijing. We 
continue to make progress on both negotiations and will meet again at a 
future date.

    Question 36. At your confirmation hearing you stated that we 
invited Chinese military observers to the RimPac joint military 
exercises in 1998, but not Taiwan observers. Why did we not invite 
Taiwan? Do we plan to in the future?
    Answer. As a military commander, I did not have the latitude under 
our current Taiwan policy to invite Taiwan observers. As far as I know, 
we do not plan to invite Taiwan observers.

    Question 37. Earlier this year Assistant Secretary Roth and other 
administration officials urged China and Taiwan to consider so-called 
``interim agreements.'' Prior to his joining the government NSC Asia 
Director Lieberthal spelled out his notion of an ``interim agreement,'' 
calling for Taiwan to constitutionally forego independence for 50 years 
in exchange for Beijing's promise not to use force. If confirmed as 
Ambassador, would you support the notion of encouraging such a solution 
to the problem of Taiwan's status?
    Answer. I would support any solution worked out peacefully by the 
two sides through dialogue. The U.S. government position, which I 
support, is that PRC-Taiwan differences are matters for those on both 
sides of the Taiwan Strait to resolve. Our sole abiding interest is 
that any resolution be a peaceful one. We do not seek to play a 
mediating role.
    It is certainly logical, that as cross-Strait talks unfold between 
Taiwan and the PRC, they may wish to reach interim agreements on any 
number of issues as they pursue this process.

    Question 38. Also in your Wall Street Journal piece, you expressed 
concern over the lack of communication with Red China we had at the 
time of the 1996 crisis. But we also did not have any direct or secure 
military communications with Taiwan, just as our carriers were possibly 
on the verge of defending them. How much of a concern was that to you? 
Do you think we ought to rectify this situation?
    Answer. Though I have been away from the particulars of the 
situation for eight months, I thought communications with Taiwan, 
though unofficial, were adequate. Our communications were sufficient 
and rapid enough for our purpose.

                                  <all> 

</pre></body></html>
